App. 1
APPENDIX A
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
-----------------------------------------------------------------------

STANFORD VINA RANCH
IRRIGATION COMPANY,
Plaintiff and Appellant,
v.

C085762
(Super. Ct. No.
34201480001957
CUWMGDS)

STATE OF CALIFORNIA et al., (Filed Jun. 18, 2020)
Defendants and Respondents.
APPEAL from a judgment of the Superior Court
of Sacramento County, Timothy M. Frawley, Judge.
Affirmed.
MINASIAN, MEITH, SOARES, SEXTON &
COOPER, Paul R. Minasian and Jackson A. Minasian
for Plaintiff and Appellant.
Anthony L. François and Jeremy Talcott for Pacific
Legal Foundation; DOWNEY BRAND, Kevin M. O’Brien,
David R.E. Aladjem, Samuel Bivins for Northern California Water Association; O’LAUGHLIN & PARIS,
Tim O’Laughlin, Valerie C. Kincaid, and Ryan E. Stager
for San Joaquin Tributaries Authority as Amici Curiae
on behalf of Plaintiff and Appellant.

App. 2
Xavier Becerra, Attorney General, Robert W. Byrne,
Senior Assistant Attorney General, Randy L. Barrow,
Supervising Deputy Attorney General, Carolyn Nelson
Rowan and William Jenkins, Deputy Attorneys General, for Defendants and Respondents.
Stanford Vina Ranch Irrigation Company (Stanford Vina) sued the State Water Resources Control
Board (the Board), among other defendants, challenging the Board’s issuance of certain temporary emergency regulations in 2014 and 2015, during the height
of one of the most severe droughts in California’s history. The challenged regulations established minimum
flow requirements on three tributaries of the Sacramento River, including Deer Creek in Tehama County,
in order to protect two threatened species of anadromous fish, Chinook salmon and steelhead trout, during
their respective migratory cycles. Stanford Vina further challenged the Board’s implementation of those
regulations by issuing temporary curtailment orders
limiting the company’s diversion of water from Deer
Creek for certain periods of time during those years in
order to maintain the required minimum flow of water.
Judgment was entered in favor of the Board and other
defendants. Stanford Vina appeals.
We affirm. As we shall explain, the Board possesses
broad authority to regulate the unreasonable use of
water in this state by various means, including the
adoption of regulations establishing minimum flow requirements protecting the migration of threatened fish
species during drought conditions and declaring diversions of water unreasonable where such diversions

App. 3
would threaten to cause the flow of water in the creeks
in question to drop below required levels. Adoption of
such regulations is a quasi-legislative act that is reviewable by ordinary mandamus. Concluding the
Board’s adoption of the challenged regulations was not
arbitrary, capricious, or lacking in evidentiary support,
nor did the Board fail to follow required procedures, we
cannot override the Board’s determination as to reasonableness set forth in the regulations. We also reject
Stanford Vina’s assertion the Board was required to
hold an evidentiary hearing before making this reasonableness determination. Contrary to Stanford Vina’s
arguments in this appeal, neither the due process
guarantees of the federal and California Constitutions,
nor article X, section 2 of the California Constitution1
requires such a hearing prior to adoption of a regulation governing reasonable water use.
The Board’s issuance of the challenged curtailment orders, a quasi-adjudicative act, is reviewable by
administrative mandamus. However, as we explain,
because Stanford Vina possessed no fundamental
vested right to an unreasonable use of water from Deer
Creek, our function is simply to determine whether the
record is free from legal error and whether the Board’s
findings are supported by substantial evidence. As for
the latter determination, the evidence is more than
sufficient to support the Board’s findings. As for the former, we reject Stanford Vina’s assertion that the curtailment of water in this case amounted to a “taking”
1

Undesignated article/section references are to the California Constitution.

App. 4
of Stanford Vina’s property rights requiring just compensation. Finally, we are also unpersuaded by each of
the remaining arguments raised by Stanford Vina and
the various amicus parties who submitted briefs on the
company’s behalf.2
BACKGROUND
The Board’s Administrative Authority
We begin with a brief overview of the Board’s administrative authority in order to place the facts of this
case in their proper context.
“The Board was created as the State Water Commission in 1913 to administer the appropriation of water for beneficial purposes. As originally created, the
Board had the ‘limited role’ of granting use rights to
water that was not being applied to beneficial purposes
and was not otherwise appropriated. [Citation.] ‘[T]he
function of the [Board] was restricted to determining if
unappropriated water was available; if it was, and no
competing appropriator submitted a claim, the grant
of an appropriation was a ministerial act.’ [Citation.]
The enactment of Article X, Section 2, [of the California
constitution] however, ‘radically altered water law in
2

We received amicus curiae briefing from San Joaquin Tributaries Authority, Pacific Legal Foundation, and Northern California Water Association. Having read and considered the
arguments made therein, most of which echo arguments made by
Stanford Vina in its briefing on appeal, we decline to specifically
address the amicus parties’ arguments in this opinion. It will suffice to note none of those arguments has persuaded this court
the judgment in this matter should be reversed.

App. 5
California and led to an expansion of the powers of the
board.’ [Citation.]” (Light v. State Water Resources Control Bd. (2014) 226 Cal.App.4th 1463, 1481 (Light).)
As we explain more fully later in this opinion, this
constitutional provision limits the “right to water or to
the use or flow of water in or from any natural stream
or water course” in California “to such water as shall
be reasonably required for the beneficial use to be
served, and such right does not and shall not extend to
the waste or unreasonable use or unreasonable method
of use or unreasonable method of diversion of water.”
(Art. X, § 2.)
Following the enactment of this constitutional provision, “[t]hrough subsequent legislation and judicial
decisions, ‘the function of the [Board] has steadily
evolved from the narrow role of deciding priorities
between competing appropriators to the charge of comprehensive planning and allocation of waters.’ [Citation.]” (Light, supra, 226 Cal.App.4th at p. 1481.) The
Board’s enabling statute “grants it the power to ‘exercise the adjudicatory and regulatory functions of the
state in the field of water resources.’ [Citation.] In that
role, the Board is granted ‘any powers . . . that may be
necessary or convenient for the exercise of its duties
authorized by law’ [citation], including the power to
‘make such reasonable rules and regulations as it may
from time to time deem advisable. . . .’ [Citation.]
Among its other functions, ‘the . . . board shall take
all appropriate proceedings or actions before executive, legislative, or judicial agencies to prevent waste,
unreasonable use, unreasonable method of use, or

App. 6
unreasonable method of diversion of water in this
state.’ [Citation.]” (Light, supra, 226 Cal.App.4th at pp.
1481-1482; Wat. Code, §§ 174, 186, 275, 1058.)3
Deer Creek Watershed
Deer Creek is a tributary of the Sacramento River
originating near the summit of Butt Mountain in the
Lassen National Forest. The creek runs generally in a
southwesterly direction for about 60 miles, traversing
dense forest before descending through a steep rock
canyon into the Sacramento Valley, crossing the valley
floor, and finally entering the Sacramento River near
the town of Vina.
Two irrigation companies, Stanford Vina and Deer
Creek Irrigation District, operate diversion dams and
ditches for agricultural use between the canyon mouth
and the Sacramento River. By virtue of a judicial decree, originally entered in 1923 and amended in 1926,
Stanford Vina is entitled to use roughly 66 percent of
the flow of Deer Creek.
Two species of anadromous fish, Chinook salmon
and steelhead trout, make their way from the ocean to
Deer Creek each year to spawn. Central Valley springrun Chinook salmon enter Deer Creek from late-February through early-July and spend the summer in
pools in the upper watershed before spawning in lateSeptember. Central Valley fall-run Chinook salmon,
as their name suggests, make their run during the fall,
3

Undesignated statutory references are to the Water Code.

App. 7
but do not travel into the upper watershed, instead
spawning in the lower portions of the creek. Finally,
California Central Valley steelhead trout also migrate
upstream during the fall, but travel much farther up
the creek and spawn in its upper reaches during the
winter months.4
The spring-run salmon and steelhead trout noted
above are listed as threatened species under the California Endangered Species Act (Fish & G. Code, § 2050
et seq.) and the federal Endangered Species Act (16
U.S.C. § 1531 et seq.). As the trial court noted in its
statement of decision, the California Department of
Fish and Wildlife (DFW) and two federal agencies,
the United States Fish and Wildlife Service and the
National Marine Fisheries Service (federal fisheries
services), “have been studying the conditions in California waterways,” including Deer Creek, “and working
to protect and restore anadromous (salmon and steelhead) fish populations” for many years. A 1993 report
prepared by DFW estimated Deer Creek “could support sustainable populations of 4,000 spring-run and
6,500 fall-run . . . salmon” and “identified ‘inadequate
flow’ for upstream passage as the ‘most significant
problem’ ” preventing those numbers from being attained. Indeed, “in the decade prior to the report, it
was estimated that only about 550 spring-run and
1,000 fall-run salmon annually spawned in the creek.”
The report further “stated that ‘[f ]lows necessary to
4

For ease of reference, we shall refer to the aforedescribed
fish as “spring-run salmon,” “fall-run salmon,” and “steelhead
trout.”

App. 8
provide unimpaired migration for adult salmon and
steelhead are unknown but have been estimated to be
approximately 50 cfs [cubic feet per second].”
A 2009 watershed profile concluded Deer Creek
has “high potential” for supporting viable populations of both spring-run salmon and steelhead trout
because “[h]abitat used for holding and spawning is
located at high elevations and habitat is considered to
be high quality.” However, because of the water diversion structures operated by Stanford Vina and Deer
Creek Irrigation District in the valley section of the
creek, “[d]uring low flow periods, the existing water
rights [of these companies] are sufficient to dewater
the stream” to the point of blocking access to upper
portions of the watershed for late-migrating springrun salmon. Low water flows also negatively affect
the outmigration of juvenile spring-run salmon and
steelhead trout.
The Drought Emergency
California’s most recent drought, persisting from
the end of 2011 to the beginning of 2017, “was especially severe, as it included the driest four-year period
[fall of 2011 to fall of 2015] in California since recordkeeping began in 1895, as well as the two warmest
years [2014 and 2015] in state history.”5
5

(Szeptycki & Gray, California’s Drought and the Environment: An Introduction (2017) 23 Hastings No. 1, W.-N.W. J. Envtl.
L. & Pol’y 51, internal fns. omitted; Hanak, Mount & Chappelle,
California’s Latest Drought (July 2016) Public Policy Institute of

App. 9
In January 2014, Governor Brown declared a state
of emergency due to the severe and persistent drought
conditions. The Governor noted, among other urgent
problems caused by the drought, “animals and plants
that rely on California’s rivers, including many species
in danger of extinction, will be threatened” by the “significantly reduced surface water flows” in the state’s
river systems. Among other directives, the Governor
ordered the Board to “put water right holders throughout the state on notice that they may be directed to
cease or reduce water diversions based on water shortages” and “consider . . . diversion limitations” in order
to “enable water to be conserved upstream later in the
year to protect cold water pools for salmon and steelhead, maintain water supply, and improve water quality.” The Governor also suspended the application of
the California Environmental Quality Act (CEQA) in
order for the Department of Water Resources (DWR)
and the Board to expeditiously act to mitigate the effects of the drought and further directed DFW to “evaluate and manage the changing impacts of drought on
threatened and endangered species and species of special concern.”
In March 2014, Governor Brown signed urgency
legislation, Senate Bill No. 104 (2013 – 2014 Reg.
Sess.), enacting and amending various statutes in order to expedite drought relief. Uncodified section 1 of
the bill states: “The Legislature finds and declares
that California is experiencing an unprecedented dry
California [as of June 17, 2020], archived at <https://perma.cc/
98VG-D4RA>.)

App. 10
period and shortage of water for its citizens, local governments, agriculture, environment, and other uses.
The purpose of this act is to enact urgent legislation to
appropriate funds and expedite administrative actions
to increase water supply reliability consistent with the
state’s economic, health and safety, and resource protection laws.” (Sen. Bill No. 104 (2013-2014 Reg. Sess.)
§ 1.)
Among other statutory amendments, Sen. Bill No.
104 (2013-2014 Reg. Sess.) amended section 1058.5 to
provide, in relevant part: “This section applies to any
emergency regulation adopted by the board for which
the board makes both of the following findings: [¶] (1)
The emergency regulation is adopted to prevent the
waste, unreasonable use, unreasonable method of use,
or unreasonable method of diversion, of water, to promote water recycling or water conservation, to require
curtailment of diversions when water is not available
under the diverter’s priority of right. . . . [¶] (2) The
emergency regulation is adopted in response to conditions which exist, or are threatened, in a critically dry
year immediately preceded by two or more consecutive
below normal, dry, or critically dry years or during a
period for which the Governor has issued a proclamation of a state of emergency under the California Emergency Services Act . . . based on drought conditions.”
(§ 1058.5, subd. (a); Sen. Bill No. 104 (2013-2014 Reg.
Sess.) § 10.)
In April 2014, Governor Brown declared a continued state of emergency. Among other directives, the
Governor ordered DFW to “work with other state and

App. 11
federal agencies and with landowners in priority watersheds to protect threatened and endangered species
and species of special concern and maximize the beneficial uses of scarce water supplies, including employment of voluntary agreements to secure instream
flows, relocation of members of those species, or
through other measures.” The Governor again suspended application of CEQA to specified actions and
further ordered the Board to “adopt and implement
emergency regulations pursuant to . . . section 1058.5,
as it deems necessary to prevent the waste, unreasonable use, unreasonable method of use, or unreasonable
method of diversion of water, to promote water recycling or water conservation, and to require curtailment
of diversions when water is not available under the diverter’s priority of right.” (Italics added.)
The Challenged Emergency Regulations
and Curtailment Orders
In May 2014, the Board began the process of
promulgating emergency regulations implementing
in-stream flow requirements for Deer Creek and two
other creeks in Tehama County, Mill and Antelope
Creeks. The proposed flow requirements were in line
with a memorandum submitted to the Board by one
of the federal fisheries services noted above.6 Water
6

With respect to Deer Creek, the memorandum provided
evidence supporting a minimum flow requirement of 50 cfs from
April 1 through June 30 and October 1 through November 30 to
protect adult salmon migration and the same minimum flow requirement from October 1 through March 30 to protect adult

App. 12
rights holders were notified of the proposed emergency
regulations and their right to offer comments. Stanford
Vina submitted a comment letter objecting to the proposed regulations and made an oral presentation at
the May 20 Board meeting. The Board adopted the regulations the following day.
Section 877 of the 2014 emergency regulations began by providing: “The [Board] has determined that it
is a waste and unreasonable use under Article X, section 2 . . . to continue diversions that would cause or
threaten to cause flows to fall beneath the drought
emergency minimum flows listed in subdivision (c), except as provided in section 878.1. [¶] (a) For the protection of threatened and endangered fish, no water shall
be diverted from the streams listed below during the
effective period of a curtailment order under this article, except as provided under sections 878, 878.1 or
878.2.[7] [¶] (b) The Deputy Director for the Division of
Water Rights (Deputy Director) may issue a curtailment order upon a determination that without curtailment of diversions flows are likely to be reduced below
the drought emergency minimum flows specified in
subdivision (c). Curtailment orders shall be effective
the day after issuance. Except as provided in sections
steelhead migration. The memorandum also provided evidence
supporting a minimum flow requirement of 20 cfs for juvenile fish
outmigration from October 1 through June 30 and pulse flows in
addition to the base flow of up to 50 cfs for 24 hours every two
weeks from April 15 through June 30.
7
These regulatory sections provide for exceptions not applicable to the facts of this case. (See Cal. Code Regs., tit. 23, former
§§ 878, 878.1, 878.2.)

App. 13
878, 878.1, and 878.2, where flows are sufficient to support some but not all diversions, curtailment orders
shall be issued in order of priority. [¶] In determining
which diversions should be subject to curtailment, the
Deputy Director shall take into account the need to
provide reasonable assurance that the actual drought
emergency minimum flows will be met.” (Cal. Code
Regs., tit. 23, former § 877, subds. (a) & (b).)
Subdivision (c) of this section then set forth the
drought emergency minimum flows. That subdivision
began: “The State Board has authority to ensure the
protection and preservation of streams and to limit diversions to protect critical flows for species, including
for state and federally threatened and endangered
salmon and steelhead species. To prevent the waste
and unreasonable use of water, the Deputy Director
may issue curtailment orders as described in subdivision (b). The flows described in this subdivision may be
less than otherwise desirable minimum flows for fisheries protection, but have been developed to ensure a
bare minimum instream flows for migratory passage
during the drought emergency, given the unprecedented nature of the current drought and the drought
impacts to these fisheries.” (Cal. Code Regs., tit. 23, former § 877, subd. (c).)
With respect to Deer Creek, subdivision (c) set
forth the following drought emergency minimum
flows:
“(A) April 1 up to June 30, if Adult CV SR Salmon
are present –

App. 14
“(i) Base Flows – 50 cfs or full flow without diversions, whichever is less.
“(ii) Pulse Flows – 100 cfs or full flow without
diversions, whichever is less. Pulse flows may be required when Adult CV SR Salmon are observed between Vina Dam and the Sacramento River. When
required, pulse flows are in lieu of, not in addition to,
base flow requirements. The pulse flow will last a minimum of 24 hours to a maximum of 72 hours, and will
be determined by the presence of fish observed and desired migration movements upstream. The duration
will be determined by the Deputy Director in consultation with [DFW] or the National Marine Fisheries Service. . . .
“[¶] . . . [¶]
“(B) June 1 up to June 30, if Juvenile CV SR
Salmon or Juvenile CCV Steelhead are present –
“(i) Pulse Flows – 100 cfs or full flow without diversions, whichever is less.
“Pulse flows may be required when juvenile CV SR
Salmon or CCV Steelhead are observed in the lower
reaches of Deer Creek. When required, pulse flows are
in lieu of, not in addition to, base flow requirements.
The pulse flow will last a minimum of 24 hours to a
maximum of 48 hours, and will be determined by the
presence of fish observed and desired migration movements downstream into the Sacramento River. The
duration will be determined by the Deputy Director in

App. 15
consultation with [DFW] or the National Marine Fisheries Service. . . .
“[¶] . . . [¶]
“(C) October 1 – March 31, if Adult CCV Steelhead are present –
“(i) Base Flows – 50 cfs or full flow without diversions, whichever is less.
“(D) November 1 – June 30, if Juvenile CV SR
Salmon or Juvenile CCV Steelhead are present and
adult CV SR Salmon or Adult CCV Steelhead are not
present –
“(i) Base Flows – 20 cfs or full flow without diversions, whichever is less.” (Cal. Code Regs., tit. 23, former § 877, subd. (c).)
Subdivision (c) also provided for suspension of a
curtailment order: “[DFW] and/or the National Marine
Fisheries Service may conduct field surveys and notify
the Deputy Director when the pertinent migration periods have ended,” in which case “[t]he Deputy Director
shall, no later than the next business day, suspend curtailment orders that are based on the need for a particular flow volume when presence of adult or juvenile
CV SR Salmon and CCV Steelhead or hydrologic conditions no longer support the need for the required
flows.” (Cal. Code Regs., tit. 23, former § 877, subd.
(c)(E).)
On June 5, 2014, the Board issued a curtailment
order for Deer Creek. After noting, among other things,

App. 16
that the flow below Stanford Vina Dam had reached
17.7 cfs, the order directed all water rights holders in
the Deer Creek watershed to “immediately cease or
reduce their diversions from Deer Creek to ensure the
drought emergency minimum flows specified in section
877, subdivision (c)(2) are satisfied through June 30,
2014 or until the Deputy Director suspends the curtailment order. . . .”
On June 24, 2014, the Board notified all water
rights holders the first curtailment order was suspended due to the absence of spring-run salmon and
steelhead trout in Deer Creek.
On October 14, 2014, the Board issued a second
curtailment order. This order was virtually identical to
the first such order and required curtailment through
February 28, 2015 or suspension of the order.
In March 2015, the Board readopted the emergency regulations implementing in-stream flow requirements for Deer Creek and the other creeks noted
above. The 2015 emergency regulations were substantially the same as the 2014 emergency regulations,
with “minor adjustments to the minimum flows and
flow periods based on an assessment of [the 2014] implementation of the regulation[s].”
On April 17, 2015, the Board issued a third curtailment order. This order was also virtually identical
to the first such order and required curtailment
through June 30, 2015 or suspension of the order.

App. 17
Finally, on October 22, 2015, the Board issued the
fourth and final curtailment order challenged in this
appeal. Again virtually identical to its predecessors,
this order required curtailment through March 31,
2016 or suspension of the order.
The Present Lawsuit
The present lawsuit was filed in October 2014, after the second curtailment order was issued. An
amended operative pleading was filed in May 2015, after the third curtailment order was issued. Stanford
Vina, an irrigation company whose shareholders own
agricultural land with riparian rights to the use of
roughly 66 percent of Deer Creek’s water, asserted
causes of action for inverse condemnation and declaratory relief, claiming the Board’s “emergency regulations and related curtailment orders” amounted to a
taking of Stanford Vina’s vested water rights for public
“fishery enhancement purposes,” and that such a taking may not occur without first “conduct[ing] evidentiary hearings examining alternative uses and the
public interest and benefit from comparative uses of
water . . . as required in any eminent domain action in
regard to public necessity.” Stanford Vina also sought
writs of mandate and/or injunctive relief ordering the
Board, among other things, to rescind the emergency
regulations and related curtailment orders and refrain
from “adopting further orders relating to unreasonable
use of water which have the effect of prohibiting one
use of water in order to benefit or enhance an alternative use of water, without first complying with

App. 18
constitutional and statutory legal requirements of due
process and reasonable compensation.”
The trial court ordered the writ of mandate/
injunctive relief causes of action bifurcated from the
inverse condemnation/declaratory relief causes of action. Thereafter, Stanford Vina filed an opening brief
arguing: (1) the Board abused its discretion in adopting the “curtailment regulations” in 2014 and 2015
because these regulations amounted to a taking of
Stanford Vina’s vested water rights without just compensation; (2) the Board violated Stanford Vina’s constitutional right to due process by failing to hold an
evidentiary hearing prior to taking these water rights
and by failing to provide the company with adequate
notice; (3) the Board could not lawfully invoke the rule
of reasonableness set forth in article X, section 2, to
limit Stanford Vina’s water rights without first holding
an evidentiary hearing; (4) the Board misapplied the
rule of reasonableness; (5) the public trust doctrine
does not apply to Stanford Vina’s water rights; (6) the
challenged regulations and curtailment orders violated the rule of priority; (7) the Board ignored a binding judgment previously adjudicating Stanford Vina’s
water rights; (8) the Board improperly amended the
challenged 2014 regulations on the day of their adoption; and (9) the conditions existing in the Deer Creek
watershed in 2014 and 2015 “did not constitute a true
emergency.”
In opposition, the Board and other defendants
(collectively, defendants) argued the Board possessed
the authority to adopt the challenged emergency

App. 19
regulations and issue the subsequent curtailment orders to “regulate the unreasonable use of water,” relying primarily on Light, supra, 226 Cal.App.4th 1463
and People ex rel. State Water Resources Control Bd. v.
Forni (1976) 54 Cal.App.3d 743 (Forni). Without setting forth defendants’ response to each argument
advanced by Stanford Vina, we note they argued substantial evidence supported the Board’s findings that
a drought emergency existed and “immediate action
was needed to prevent waste and unreasonable use of
water diverted from priority water bodies that provide
habitat for threatened and endangered species such as
salmon and steelhead.” Defendants further argued the
Board did not violate Stanford Vina’s due process
rights, nor did the emergency regulations and curtailment orders amount to a taking of property, because
Stanford Vina did not have a vested right to the unreasonable use of water.
The trial court denied the writ relief requested by
Stanford Vina. The trial court concluded the Board
possessed quasi-legislative authority to adopt the challenged emergency regulations that “themselves determined diversions would be curtailed to meet minimum
flow requirements,” without first holding an evidentiary hearing; although the curtailment orders appeared quasi-adjudicative in nature, they “simply
notified affected water rights holders that the regulatory provisions were put into effect.” Rejecting Stanford Vina’s argument that the Board unlawfully
declared certain diversions from Deer Creek to be
unreasonable, the trial court explained: “Under the

App. 20
unique circumstances present in this case-persistent
and extreme drought conditions threatening to dewater high priority streams during critical migration
periods for threatened and endangered fish species,
and a lack of feasible alternatives to increase instream
flows by other means-the [Board] rationally determined that allowing diversions to reduce flows below
the minimum, ‘belly-scraping’ amounts necessary for
fish migrations and survivability would be ‘unreasonable.’ ” The trial court also rejected Stanford Vina’s remaining arguments, including the takings argument
advanced despite the bifurcation order, and ultimately
entered judgment against Stanford Vina on all causes
of action. This appeal followed.
DISCUSSION
I
Overview of California Water Law
We begin our discussion of Stanford Vina’s appellate contentions with a brief overview of California
water law in order to provide a backdrop for those contentions.
“Ownership of California’s water is vested generally in the state’s residents, but individuals and entities can acquire ‘water rights,’ the right to divert water
from its natural course for public or private use. [Citations.] California maintains a ‘dual system’ of water
rights, which distinguishes between the rights of ‘riparian’ users, those who possess water rights by virtue
of owning the land by or through which flowing water

App. 21
passes, and ‘appropriators,’ those who hold the right
to divert such water for use on noncontiguous lands.
[Citation.] For historical reasons, California further
subdivides appropriators into those whose water
rights were established before and after 1914. Post1914 appropriators may possess water rights only
through a permit or license issued by the Board, and
their rights are circumscribed by the terms of the permit or license. Riparian users and pre-1914 appropriators need neither a permit nor other governmental
authorization to exercise their water rights. [Citation.]”
(Light, supra, 226 Cal.App.4th at pp. 1477-1478.)
“The differences between and among riparian users and appropriators become most pronounced when
the available supply of water is inadequate to satisfy
the needs of all those holding water rights. Under the
‘rule of priority,’ which governs diversion in such circumstances, the rights of riparian users are paramount. Although riparian users must curtail their use
proportionately among themselves in times of shortage,
they are entitled to satisfy their reasonable needs first,
before appropriators can even begin to divert water.
[Citation.] As a result, appropriators may be deprived
of all use of water when the supply is short. In turn,
senior appropriators-those who acquired their rights
first in time-are entitled to satisfy their reasonable
needs, up to their full appropriation, before more junior
appropriators become entitled to any water. [Citation.]” (Light, supra, 226 Cal.App.4th at p. 1478.)

App. 22
All water rights in California, both riparian and
appropriative, are constrained by two limiting principles: (1) the rule of reasonableness; and (2) the public
trust doctrine. (Santa Barbara Channelkeeper v. City
of San Buenaventura (2018) 19 Cal.App.5th 1176, 1184
(Channelkeeper).)
The rule of reasonableness, codified in the California Constitution since 1928, is “the overriding principle governing the use of water in California.” (Forni,
supra, 54 Cal.App.3d at p. 750.) This rule limits “[t]he
right to water or to the use or flow of water in or from
any natural stream or water course in this State” to
“such water as shall be reasonably required for the
beneficial use to be served, and such right does not and
shall not extend to the waste or unreasonable use or
unreasonable method of use or unreasonable method
of diversion of water.” (Art. X, § 2.) “[T]he reasonableness of any particular use depends largely on the circumstances. [Citation.] ‘What may be a reasonable
beneficial use, where water is present in excess of all
needs, would not be a reasonable beneficial use in an
area of great scarcity and great need. What is a beneficial use at one time may, because of changed conditions, become a waste of water at a later time.’
[Citation.]” (Light, supra, 226 Cal.App.4th at p. 1479.)
Moreover, as our Supreme Court explained in Joslin
v. Marin Municipal Water Dist. (1967) 67 Cal.2d 132
(Joslin), “what is a reasonable use of water depends
on the circumstances of each case, [but] such an inquiry cannot be resolved in vacuo isolated from
statewide considerations of transcendent importance.

App. 23
Paramount among these we see the ever increasing
need for the conservation of water in this state, an inescapable reality of life quite apart from its express
recognition in the 1928 amendment.” (Id. at p. 140.)
The second overarching principle limiting water
rights in California is the public trust doctrine. “The
doctrine finds its origin in the Roman law principle
that [human]kind shares ownership in the sea, the
seashore, the air, and (most importantly for our purposes) running water. [Citations.] The doctrine arrived
in California via the English common law, and was often applied in cases involving public rights to navigation, commerce, and fishing in tideland areas, or on
navigable lakes and streams. [Citation.] But in 1983
our Supreme Court held that the doctrine also protects
navigable waters, such as Mono Lake, ‘from harm
caused by diversion of nonnavigable tributaries.’ [Citation.] The State of California as trustee has a broad
‘duty . . . to protect the people’s common heritage of
streams, lakes, marshlands and tidelands, surrendering that right of protection only in rare cases.’ [Citation.] As a consequence, those ‘parties acquiring rights
in trust property,’ such as water flowing in a stream,
‘generally hold those rights subject to the trust, and
can assert no vested right to use those rights in a
manner harmful to the trust.’ ” (Channelkeeper, supra,
19 Cal.App.5th at pp. 1185-1186, quoting National
Aububon Society v. Superior Court (1983) 33 Cal.3d
419, 437.)

App. 24
II
Standard of Review
Before turning to the specific contentions raised in
this appeal, we must first determine the appropriate
standard of review.
Stanford Vina asserts an independent judgment
standard of review applies under Code of Civil Procedure section 1094.5, the administrative mandamus
statute. In general, where the administrative agency’s
decision is “quasi-adjudicative” in nature, “review . . .
is by administrative mandamus (Code Civ. Proc.,
§ 1094.5) under either the substantial evidence or the
independent judgment standard.” (Dominey v. Dept. of
Personnel Administration (1988) 205 Cal.App.3d 729,
736 (Dominey).) Whether the substantial evidence or
independent judgment standard applies turns on
whether or not the decision substantially affects a fundamental vested right. If so, “the trial court must not
only examine the administrative record for errors of
law, but also must exercise its independent judgment
upon the evidence. However, when the administrative
decision neither involves nor substantially affects such
a right, the trial court must review the entire administrative record to determine whether the findings are
supported by substantial evidence and if the agency
committed any errors of law.” (Whaler’s Village Club v.
Cal. Coastal Com. (1985) 173 Cal.App.3d 240, 251,
fn. omitted; Strumsky v. San Diego County Employees
Retirement Assn. (1974) 11 Cal.3d 28, 32; Bixby v.
Pierno (1971) 4 Cal.3d 130, 143.)

App. 25
In contrast to quasi-adjudicative decisions, “ ‘[a]cts
of an administrative agency that are quasi-legislative
in nature, e.g., establishment of regulations to carry
out a statutory policy or direction, are not reviewable
by administrative mandamus.’ [Citation.]” (City of
Arcadia v. State Water Resources Control Bd. (2006)
135 Cal.App.4th 1392, 1408.) “Review of quasi-legislative determinations is by ordinary mandamus (Code
Civ. Proc., § 1085) under the arbitrary and capricious
standard. . . .” (Dominey, supra, 205 Cal.App.3d at p.
736.)
“Whether an administrative action is quasi-legislative or quasi-adjudicative is a question of law.”
(Dominey, supra, 205 Cal.App.3d at p. 737, fn. 4.)
“ ‘Generally speaking, a legislative action is the formulation of a rule to be applied to all future cases, while
an adjudicatory act involves the actual application of
such a rule to a specific set of existing facts.’ [Citations.]” (Id. at pp. 736-737.) In determining the matter,
we must consider “only the function performed” by the
action in question. (20th Century Ins. Co. v. Garamendi
(1994) 8 Cal.4th 216, 275.)
Here, the Board adopted emergency regulations
and then issued curtailment orders contemplated by
those regulations. The regulations established minimum flow requirements on three creeks during certain
time periods, when certain protected fish were present
in the creeks during those time periods, and made any
diversion of water from those creeks unreasonable per
se under article X, section 2, where the diversion would
cause or threaten to cause the flow of water to fall

App. 26
below the minimum flow requirements. The regulations also authorized the Board to issue curtailment
orders upon a determination that flows were likely to
fall below the minimum flow requirements without
curtailment. (Cal. Code Regs., tit. 23, former § 877,
subds. (a) & (b).) We have no difficulty concluding
the regulations formulated a rule to be applied to future cases, and were therefore legislative in nature.
Thus, in determining whether or not the regulations
were validly adopted, we “merely ask[ ] whether the
[Board’s] action was arbitrary, capricious, or entirely
lacking in evidentiary support, or whether the [Board]
failed to follow the procedure and give the notices the
law requires.” (Kreeft v. City of Oakland (1998) 68
Cal.App.4th 46, 53.) Of course, “[w]hether a particular
regulation is within the scope of authority conferred
by the Legislature on an administrative agency is a
legal issue we review de novo.” (Light, supra, 226
Cal.App.4th at p. 1482.)
Issuance of the subsequent curtailment orders,
however, required a determination by the Board that
the flow of water in Deer Creek was likely to fall below
the emergency minimum flow requirements, and curtailment was therefore necessary to prevent an unreasonable use of water. This amounted to a quasiadjudicative application of the emergency regulations
to the facts existing in Deer Creek at the time the curtailment orders were issued. Moreover, while administrative mandamus is ordinarily available only if the
decision resulted from a “proceeding in which by law a
hearing is required to be given,” (Code Civ. Proc.,

App. 27
§ 1094.5, subd. (a)), and as we explain more fully later
in the opinion, such a hearing was not required before
the Board curtailed Stanford Vina’s diversion of water
from Deer Creek, “[s]ection 1126, subdivision (c) states
that, ‘[s]ection 1094.5 of the Code of Civil Procedure
shall govern judicial proceedings under this section.’
(Italics added.) This language read in conjunction with
section 1126, subdivision (a) [‘It is the intent of the
Legislature that all issues relating to state water law
decided by the board be reviewed in state courts. . . .’],
indicates the Legislature’s intent that section 1094.5
govern judicial review of all [quasi-adjudicative decisions] relating to state water law. Nothing in subdivision (b) of section 1126 limits the type of proceeding
subject to judicial review. We therefore conclude that
judicial review is not limited to ‘proceedings in which
by law a hearing is required.’ (Code. Civ. Proc.,
§ 1094.5, subd. (a).)” (Phelps v. State Water Resources
Control Bd. (2007) 157 Cal.App.4th 89, 104-105.)
Accordingly, our review of the challenged curtailment orders is by administrative mandamus. Because,
as we further explain, Stanford Vina possessed no fundamental vested right to an unreasonable use of water
from Deer Creek, our function, “like that of the trial
court, is to determine whether the record is free from
legal error” and whether the Board’s findings are supported by substantial evidence. (Merrill v. Dept. of
Motor Vehicles (1969) 71 Cal.2d 907, 916; State Water
Resources Control Bd. Cases (2006) 136 Cal.App.4th
674, 721.)

App. 28
“Of course, questions of law are subject to de novo
review. [Citations.] The proper interpretation of a statute [or regulation], and its application to undisputed
facts, is a question of law. [Citation.]” (State Water Resources Control Bd. Cases, supra, 136 Cal.App.4th at p.
722.) However, “we must ‘adhere to the well-settled
principle of affording “great weight” to “the contemporaneous administrative construction of [a statute] by
those charged with its enforcement. . . .’ ” [Citations.]
An administrative agency’s interpretation of its own
regulation is shown even greater deference. [Citations.]” (Hardesty v. Sacramento Metropolitan Air
Quality Management Dist. (2011) 202 Cal.App.4th 404,
417-418.)
III
Analysis
Stanford Vina’s appellate arguments, much like
its arguments before the trial court, conflate the
Board’s adoption of the emergency regulations and the
subsequent issuance of curtailment orders. However,
as we have explained, a different standard of review
applies to each action. We shall therefore assess the
validity of each action under the proper standard of review, addressing Stanford Vina’s specific arguments
where we deem appropriate. For example, the company’s contention that constitutional guarantees of
due process required the Board to hold an evidentiary
hearing before making the challenged reasonableness
determination, i.e., that any diversion of water from

App. 29
Deer Creek that threatened to drop the flow of water
below the emergency minimum flow requirements was
per se unreasonable, shall be addressed in connection
with our assessment of the validity of the challenged
regulations because that is where the reasonableness
determination was made. In contrast, Stanford Vina’s
argument that the Board’s “curtailment actions”
amounted to a taking of vested water rights without
just compensation shall be addressed in connection
with our assessment of the validity of the curtailment
orders because, to the extent anything was “taken”
from Stanford Vina, it was taken not when the regulations were adopted but when the Board applied the
regulations to the facts existing in Deer Creek and ordered the temporary curtailment of diversions.
A.
Validity of the Challenged Regulations
“Whenever by the express or implied terms of any
statute a state agency has authority to adopt regulations to implement, interpret, make specific or otherwise carry out the provisions of the statute, no
regulation adopted is valid or effective unless consistent and not in conflict with the statute and reasonably necessary to effectuate the purpose of the statute.”
(Gov. Code, § 11342.2.)

App. 30
1. Consistency with the Board’s Grant of Authority
Because the Board’s rulemaking authority “is circumscribed by the substantive provisions of the law
governing the agency,” we must first determine
whether the challenged emergency regulations are
consistent with the Board’s constitutional and legislative mandate. (Henning v. Division of Occupational
Saf. & Health (1990) 219 Cal.App.3d 747, 757-758.)
They are.
Article X, section 2, provides, in relevant part: “The
right to water or to the use or flow of water in or from
any natural stream or water course in this State is and
shall be limited to such water as shall be reasonably
required for the beneficial use to be served, and such
right does not and shall not extend to the waste or unreasonable use or unreasonable method of use or unreasonable method of diversion of water. Riparian
rights in a stream or water course attach to, but to no
more than so much of the flow thereof as may be required or used consistently with this section, for the
purposes for which such lands are, or may be made
adaptable, in view of such reasonable and beneficial
uses; provided, however, that nothing herein contained
shall be construed as depriving any riparian owner of
the reasonable use of water of the stream to which the
owner’s land is riparian under reasonable methods of
diversion and use, or as depriving any appropriator of
water to which the appropriator is lawfully entitled.”

App. 31
As we have already explained, this constitutional
provision sets forth “the overriding principle governing
the use of water in California” (Forni, supra, 54
Cal.App.3d at p. 750), and its enactment in 1928 “ ‘radically altered water law in [this state] and led to an
expansion of the powers of the [Board].’ [Citation.]”
(Light, supra, 226 Cal.App.4th at p. 1481.) “Through
subsequent legislation and judicial decisions, ‘the function of the [Board] has steadily evolved from the narrow role of deciding priorities between competing
appropriators to the charge of comprehensive planning
and allocation of waters.’ [Citation.]” (Ibid.)
Consistent with article X, section 2, the Legislature added section 100 to the Water Code in 1943. This
section provides: “It is hereby declared that because of
the conditions prevailing in this State the general
welfare requires that the water resources of the State
be put to beneficial use to the fullest extent of which
they are capable, and that the waste or unreasonable
use or unreasonable method of use of water be prevented, and that the conservation of such water is to
be exercised with a view to the reasonable and beneficial use thereof in the interest of the people and for the
public welfare. The right to water or to the use or flow
of water in or from any natural stream or watercourse
in this State is and shall be limited to such water as
shall be reasonably required for the beneficial use to
be served, and such right does not and shall not extend
to the waste or unreasonable use or unreasonable
method of use or unreasonable method of diversion of
water.” (§ 100.)

App. 32
In the same enactment, the Legislature amended
section 275 to authorize the Board to “take all appropriate proceedings or actions before executive, legislative,
or judicial agencies to prevent waste, unreasonable
use, unreasonable method of use, or unreasonable
method of diversion of water in this state.” (§ 275) The
Water Code also “authorizes the Board, in carrying out
its statutory duty to administer the state’s water resources, to ‘exercise the adjudicatory and regulatory
functions of the state.’ (§ 174.) In that role, the Board
is granted ‘any powers . . . that may be necessary or
convenient for the exercise of its duties authorized
by law’ (§ 186, subd. (a)), including the authority to
‘make such reasonable rules and regulations as it
may from time to time deem advisable. . . .’ (§ 1058.)”
(Light, supra, 226 Cal.App.4th at pp. 1484-1485.)
Moreover, and particularly relevant here, the
Board possesses the statutory authority to adopt emergency regulations “in response to conditions which
exist, or are threatened, in a critically dry year immediately preceded by two or more consecutive below normal, dry, or critically dry years or during a period for
which the Governor has issued a proclamation of a
state of emergency under the California Emergency
Services Act . . . based on drought conditions” and
where such regulations are “adopted to prevent the
waste, unreasonable use, unreasonable method of use,
or unreasonable method of diversion, of water, to promote water recycling or water conservation, [or] to require curtailment of diversions when water is not
available under the diverter’s priority of right. . . .”

App. 33
(§ 1058.5, subd. (a)(1)&(2); Sen. Bill No. 104 (20132014 Reg. Sess.) § 10.)
In Light, supra, 226 Cal.App.4th 1463, our colleagues at the First Appellate District upheld the
Board’s regulatory authority to adopt a regulation designed to reduce diversions of water from a certain
stream system for purposes of frost protection. (Id. at
pp. 1472-1473.) The regulation was adopted to protect
young salmon traveling through the stream system
that were being fatally stranded when the water level
abruptly dropped due to a number of vineyard operators simultaneously spraying large quantities of water
on their crops during cold periods to protect the grapes
from frost damage. (Id. at pp. 1473-1474.) Although
the regulation did not itself regulate the diversion of
water for purposes of frost protection, it created certain
local programs to monitor the stream system and take
“ ‘corrective actions’ to reduce a threat once detected.”
(Id. at pp. 1475-1476.) The regulation also directed diverters to either implement such corrective actions “or
cease diverting water for frost protection,’ ” and declared any diversion of water in violation of the regulation to be “ ‘an unreasonable method of diversion and
use and a violation of . . . section 100. . . .’ ” (Id. at p.
1476.)
Rejecting the trial court’s conclusion that the
Board’s regulatory authority “was limited, at least as
to riparian users, to pursuing enforcement actions in
the courts against allegedly unreasonable users, rather than enacting regulations to preclude unreasonable use,” the appellate court first noted that “the Board

App. 34
is charged with acting to prevent unreasonable and
wasteful uses of water, regardless of the claim of right
under which the water is diverted.” (Light, supra, 226
Cal.App.4th at p. 1482.) The court then discussed two
appellate decisions that, viewed together, compelled
the conclusion the Board possessed the regulatory authority to enact the challenged regulation governing
the reasonable use of water. (Id. at pp. 1483-1485.)
In Forni, supra, 54 Cal.App.3d 743, the same appellate court previously upheld a similar regulation
declaring the direct diversion of water from a certain
river for frost protection during the frost season “constituted an unreasonable method of use within the
meaning of the Constitution and Water Code.” (Id. at
p. 752.) The Forni court, however, construed this regulatory declaration as “no more than a policy statement
which leaves the ultimate adjudication of reasonableness to the judiciary.” (Ibid.) Returning to Light, the
court acknowledged the Forni court’s treatment of the
issue “was not a ringing endorsement of the Board’s
power to enact regulations governing the unreasonable
use of water,” but explained, “to the extent Forni’s ruling was based on the implicit rationale that only the
judiciary has the power to declare a particular water
use unreasonable, we conclude Forni construed the
Board’s authority too narrowly.” (Light, supra, 226
Cal.App.4th at p. 1483.)
This latter conclusion was based on a prior decision from this court, California Trout, Inc. v. State Water
Resources Control Bd. (1989) 207 Cal.App.3d 585 (California Trout). There, the Legislature enacted a statute

App. 35
“limit[ing] the amount of water that may be appropriated by diversion from a dam in the designated area by
requiring that sufficient water first be released to sustain fish below the dam.” (Id. at p. 599.) We upheld the
Legislature’s authority to enact such legislation, rejecting the argument that article X, section 2, required
a judicial determination as to reasonableness of use.
(Id. at pp. 622-625.) The proponent of the argument relied on language from Gin S. Chow v. City of Santa Barbara (1933) 217 Cal. 673 (Gin S. Chow) indicating,
“what is a useful and beneficial purpose and what is an
unreasonable use is a judicial question depending
upon the facts in each case.” (Id. at p. 706.) However,
as we explained, the court in that case did not hold “the
question of reasonableness invariably must be resolved ad hoc, adjudicatively. . . .” (California Trout, supra, at p. 624.) “All that the reasoning in Gin S. Chow
connotes is that in the absence of an a priori rule a
court may ascertain whether a use of water is unreasonable from the facts and circumstances of particular
cases. Hence, it is often asserted that ‘[w]hat constitutes a reasonable use or method of diversion is ordinarily a question of fact.’ [Citation.] Actually, since
what occurs is development of a standard of reasonableness on the facts of the case it should be described
as a making of law for the particular case. [Citation.]
The typical example of such a process is case-by-case
determination of the standard of reasonable care in the
law of tort. However, the fact that, ordinarily, the
standard of reasonableness is fixed ad hoc does not impel the view that the Legislature has no power to fashion rules concerning reasonableness, e.g., by enacting

App. 36
statutory safety obligations which become the basis of
negligence per se.” (Ibid., italics added.)
Again returning to Light, supra, 226 Cal.App.4th
1463, in upholding the Board’s regulatory authority
to adopt the challenged regulation declaring diversions of water for purposes of frost protection to be per
se unreasonable when done in contravention of the
regulation, the First Appellate District concluded:
“Given the Board’s statutory charge to ‘prevent waste,
unreasonable use, unreasonable method of use, or unreasonable method of diversion of water in this state’
(§ 275) and the recognized power of the Legislature to
pass legislation regulating reasonable uses of water
(California Trout, supra, 207 Cal.App.3d at pp. 624-625
. . . ), the Board’s grant of authority to ‘exercise the . . .
regulatory functions of the state’ (§ 174) necessarily
includes the power to enact regulations governing
the reasonable use of water.” (Light, supra, 226
Cal.App.4th at pp. 1484-1485.)
Similarly, here, the Board adopted regulations setting minimum flow requirements for three creeks during certain time periods, and when certain protected
fish were present in the creeks, in order to enable those
fish to survive their yearly migration through the
creeks during severe drought conditions. Diversions
that threatened to drop the flow of water below the
minimum flow requirements were declared per se unreasonable and subject to curtailment by the Board. As
in Light, supra, 226 Cal.App.4th 1463, we conclude the
adoption of these regulations was within the Board’s
regulatory authority as they furthered the Board’s

App. 37
constitutional and statutory mandate to “prevent
waste, unreasonable use, unreasonable method of use,
or unreasonable method of diversion of water in this
state.” (§ 275; art. X, § 2.) Also like Light, we reject
Stanford Vina’s assertion the Board’s authority in this
regard was limited by the fact the company manages
riparian and pre-1914 water rights."[T]he Board is
charged with acting to prevent unreasonable and
wasteful uses of water, regardless of the claim of right
under which the water is diverted.” (Light, supra, 226
Cal.App.4th at p. 1482, italics added.)
Moreover, the challenged regulations were not ordinary regulations, but were emergency regulations
adopted pursuant to the specific statutory authority
set forth in section 1058.5, in response to an “unprecedented” drought emergency, requiring “urgent” legislative and administrative action. (Sen. Bill No. 104
(2013-2014 Reg. Sess.) § 1.) Stanford Vina does not dispute in this appeal that drought conditions existed
triggering the Board’s emergency regulatory authority.
Instead, the company argues neither section 1058.5
nor the Governor’s declaration of drought emergency
gave the Board the authority to “take Stanford Vina’s
water (without due process and compensation[8]) to
enhance public trust fishery interests, nor did they authorize the [Board] to redefine and expand the definitions of waste and unreasonable use to include serving

8

As stated previously, we address Stanford Vina’s “takings”
claim in connection with our assessment of the validity of the curtailment orders.

App. 38
public trust fishery resources as an acceptable regulatory goal.” We are not persuaded.
First, the assertion that the survival of protected
species of fish is not an appropriate consideration in
water use regulation is contradicted by the holding
in Light, supra, 226 Cal.App.4th 1463. Light specifically considered fish survival. There, the challenged
regulation limited diversions for frost protection because
simultaneous diversions of water for that purpose by
several vineyard operators abruptly reduced the water
level in the stream system, thereby fatally stranding
juvenile salmon. (Light, supra, 226 Cal.App.4th at p.
1472; see also California Trout, supra, 207 Cal.App.3d
at p. 599 [challenged statute limited diversions from
dams by requiring the release of sufficient water to
sustain fish below the dam].) Here, the challenged
emergency regulations limited diversions, with some
exceptions, where such diversions would cause or
threaten to cause the flow of water to drop below emergency minimum flow requirements established to allow protected salmon and steelhead to survive their
migration through the stream system. In both cases,
fish survival is an appropriate consideration in determining what is or is not an “unreasonable use, unreasonable method of use, or unreasonable method of
diversion of water in this state.” (§ 275; see also
§ 1058.5, subd. (a)(1); art. X, § 2.)
Stanford Vina also argues the Board was required
to hold an evidentiary hearing before making this reasonableness determination. Such a requirement, the
company argues, flows both from the due process

App. 39
guarantees of the federal and California constitutions
and from article X, section 2, itself. These arguments
are similar to those advanced and rejected in California Trout, supra, 207 Cal.App.3d 585. While we
acknowledge that in the absence of a per se rule of
unreasonableness, the determination of whether Stanford Vina’s water use was reasonable or not would necessarily have been determined ad hoc, adjudicatively,
this does not mean due process requires the Board to
hold an evidentiary hearing before engaging in the legislative function of promulgating a regulation defining
diversions of water under certain emergency circumstances to be per se unreasonable. Such a requirement
would turn the regulatory process on its head. Nor did
the Board violate article X, section 2 by failing to hold
such a hearing. As we held in California Trout, the
Legislature may, consistent with this constitutional
provision, legislate per se rules of unreasonable use.
(California Trout, supra, 207 Cal.App.3d at p. 624.) So
too may the Board. (Light, supra, 226 Cal.App.4th at
pp. 1484-1485.)
2. Reasonable Necessity
Turning to the second component of our review of
the challenged regulations’ validity, i.e., whether or not
they are “reasonably necessary” (Gov. Code, § 11342.2),
this determination “generally does implicate the
agency’s expertise” and “receives a much more deferential standard. . . .” (Henning v. Division of Occupational Saf. & Health, supra, 219 Cal.App.3d at p. 758.)
“Ordinarily, absent a plain constitutional mandate, a

App. 40
conflict in public policy between the view of the judiciary and the Legislature [or, as here, the Board] must
be resolved in favor of the latter. [Citation.] Where various alternative policy views reasonably might be held
whether the use of water is reasonable within the
meaning of article X, section 2, the view enacted by the
Legislature [or Board] is entitled to deference by the
judiciary. An invitation to substitute the policy view of
a court in this circumstance for a reasonable policy enacted in a statute [or regulation] is an invitation to return to the benighted days of substantive due process.”
(California Trout, supra, 207 Cal.App.3d at pp. 624625; Light, supra, 226 Cal.App.4th at p. 1485 [“the
Board’s regulatory authority is coincident with that of
the Legislature”].)
We conclude the Board’s determination that, as
the trial court put it, “allowing diversions to reduce
flows below the minimum, ‘belly-scraping’ amounts
necessary for fish migrations and survivability would
be ‘unreasonable,’ ” was not arbitrary, capricious, or
entirely lacking in evidentiary support. Nor does Stanford Vina assert in this appeal that the Board failed to
follow the procedure applicable to adoption of emergency regulations or give required notices. Indeed, the
company submitted comments opposing adoption of
the regulations and appeared at the public hearings
held before the Board.
We therefore have no basis upon which to override
the Board’s determination that the minimum flow requirements set forth in the challenged regulations
were reasonably necessary to prevent an unreasonable

App. 41
use of water within the meaning of article X, section 2,
and any diversion that threatened to reduce the flow
of water in the named creeks below the required minimum flows would constitute such an unreasonable use
of water.9
B.
Validity of the Challenged Curtailment Orders
Having concluded the Board’s adoption of the
emergency regulations was valid, we must now determine whether or not the Board properly implemented
those regulations by issuing the challenged curtailment orders. It did.
As we have already explained, our review of the
curtailment orders is by administrative mandamus.
We have also explained that whether the substantial
evidence or independent judgment standard of review
applies turns on whether or not the decision to curtail
diversions from Deer Creek substantially affected a
fundamental vested right possessed by Stanford Vina.
9

This conclusion makes it unnecessary for us to address
Stanford Vina’s additional argument that the Board abused its
authority by unlawfully asserting the public trust doctrine. As
the Court of Appeal explained in Light, the public trust doctrine
exists “alongside the rule of reasonableness.” (Light, supra, 226
Cal.App.4th at p. 1479.) Each doctrine independently limits the
private use of water in this state. Having concluded the challenged regulations limiting diversions of water from Deer Creek
were authorized by article X, section 2, we need not determine
whether they would also have been authorized by the public trust
doctrine.

App. 42
(See Whaler’s Village Club v. Cal. Coastal Com., supra,
173 Cal.App.3d at p. 251.) We now explain why issuance of the challenged curtailment orders substantially affected no such right.
Stanford Vina claims the existence of a fundamental vested right to Deer Creek’s water by virtue of the
fact that it “manages its landowners’ senior riparian
and pre-1914 water rights to Deer Creek flows which
are appurtenant to their lands.” The Board does not
dispute this fact. However, as our Supreme Court has
explained, article X, section 2, declares: “Riparian
rights attach to, but to no more than so much of the
flow as may be required or used consistently with this
section of the Constitution.” (Peabody v. City of Vallejo
(1935) 2 Cal.2d 351, 367, italics added.) “Such an interest consists in their right to the reasonable use of the
flow of the water. Their riparian rights attach to no
more of the flow of the stream than that which is required for such use. . . . There is now no provision of
law which authorizes an unreasonable use or endows
such use with the quality of a legally protectible interest merely because it may be fortuitously beneficial to
the lands involved.” (Joslin, supra, 67 Cal.2d at pp.
143-144.) We have already explained the Board’s
emergency regulations defining as unreasonable any
diversion of water that threatened to drop the flow of
Deer Creek below the emergency minimum flow requirements was a valid exercise of the Board’s legislative authority to regulate the reasonable use of
water. Thus, Stanford Vina possessed no vested right,

App. 43
fundamental or otherwise, to divert water from Deer
Creek in contravention of the emergency regulations.
We shall therefore apply the substantial evidence
standard of review in assessing the validity of the challenged curtailment orders. Under this standard, we
“must review the entire administrative record to determine whether the findings are supported by substantial evidence and if the agency committed any errors
of law.” (Whaler’s Village Club v. Cal. Coastal Com.,
supra, 173 Cal.App.3d at p. 251.)
Section 877 of the emergency regulations provided
for issuance of a curtailment order, with certain exceptions not applicable here, where “diversions . . . would
cause or threaten to cause flows to fall beneath the
drought emergency minimum flows listed in subdivision (c). . . .” (Cal. Code Regs., tit. 23, former § 877.)
Stanford Vina does not challenge the sufficiency of the
evidence supporting the Board’s conclusion the curtailed diversions would have caused or threatened to
cause the flow of water to fall below the emergency
minimum flow requirements. Instead, as previously
discussed, the company attacks the Board’s decision to
adopt the emergency minimum flow requirements in
the first place. Thus, Stanford Vina challenges the regulations, not the Board’s application of the regulations
to the facts existing in Deer Creek at the time the curtailment orders were issued. We have already affirmed
the Board’s adoption of the regulations. And we find no
fault with the Board’s application of the regulations to
the facts. Substantial evidence supports the Board’s
conclusion the curtailed diversions would have caused

App. 44
or threatened to cause the flow of water in Deer Creek
to fall below the emergency minimum flow requirements.
Turning to the question of whether the Board committed any errors of law, Stanford Vina does not specifically point to any purported errors relating to the
issuance of the curtailment orders themselves, perhaps as a consequence of treating adoption of the regulations and issuance of the curtailment orders as a
single action.
However, we address Stanford Vina’s argument
that the “curtailment actions” amounted to a taking of
vested water rights without just compensation as a
challenge to the legality of the curtailment orders because any such taking occurred not when the regulations were adopted, but when those regulations were
applied to curtail Stanford Vina’s diversions of water
from Deer Creek. This takings claim fails for the same
reason we rejected Stanford Vina’s argument regarding application of the independent judgment standard
of review: Stanford Vina possessed no vested right to
divert water from Deer Creek in contravention of the
emergency regulations. As stated by our Supreme
Court in Gin S. Chow: “There is a well recognized and
established distinction between a ‘taking’ or ‘damaging’ for public use and the regulation of the use and
enjoyment of a property right for the public benefit.
The former falls within the realm of eminent domain,
and the latter within the sphere of the police power.
That the constitutional amendment now under consideration is a legitimate exercise of the police power of

App. 45
the state cannot be questioned.” (Gin S. Chow, supra,
217 Cal. at p. 701.) “[S]ince there was and is no property right in an unreasonable use, there has been no
taking or damaging of property by the deprivation of
such use and, accordingly, the deprivation is not compensable.” (Joslin, supra, 67 Cal.2d at p. 145.)
Finally, we also reject Stanford Vina’s assertions
the Board’s actions violated a prior judicial decree adjudicating the company’s water rights and also violated the rule of priority described earlier in this
opinion. While we acknowledge Stanford Vina’s previously-adjudicated right to use roughly 66 percent of
the flow of Deer Creek, this right is limited by the rule
of reasonableness for the reasons discussed at length
above. We agree with the trial court’s determination
that although “[t]he decree is conclusive as to the
rights of all existing claimants upon the stream system
lawfully embraced in the determination” (§ 2773), it
does not prevent the Board from adopting regulations
and issuing curtailment orders to prevent an unreasonable use of water under article X, section 2. (See
In re Waters of Long Valley Creek Stream System
(1979) 25 Cal.3d 339, 358-360.)
Nor did the Board violate the rule of priority. Unlike El Dorado Irrigation Dist. v. State Water Resources
Control Bd. (2006) 142 Cal.App.4th 937 (El Dorado
Irrigation), relied upon by Stanford Vina, the Board in
this case did not subvert the rule of priority by imposing a condition on a senior appropriator that it did not
also impose on more junior appropriators. (Id. at p.
969.) Here, the Board declared all diversions of water

App. 46
from Deer Creek unreasonable during certain time periods, and when protected fish were present in the
creek, where such diversions threatened to drop the
flow of water below the minimum flow required to allow the fish to survive their migration through the
creek. The Board then implemented this unreasonableness determination by curtailing all diversions that
threatened to violate the minimum-flow requirements.
Stanford Vina does not argue any water rights holders
junior to it were not similarly restricted by curtailment
orders, but instead argues the Board was not authorized to “elevat[e] public trust uses of water,” i.e., survival of threatened fish, “to a super-senior priority.”
This argument is belied by our discussion of the rule of
priority in El Dorado Irrigation: “Of course, the rule of
priority is not absolute, nor is the Board without power
to act contrary to that rule in appropriate circumstances. Sometimes, a competing principle or interest
may justify the Board’s taking action inconsistent with
a strict application of the rule of priority. [¶] For example, the California Constitution provides that all water
use must be reasonable. [Citation.] ‘[T]he rule of reasonable use as enjoined by . . . the Constitution applies
to all water rights enjoyed or asserted in this state. . . .’
[Citation.] Thus, ‘no one can have a protectible interest in the unreasonable use of water’ [citation], and
when the rule of priority clashes with the rule against
unreasonable use of water, the latter must prevail.”
(Id. at pp. 965-966, fn. omitted.) For all of the reasons
already expressed, the Board was well-within its authority to determine diversions that threatened to
violate the emergency minimum flow requirements

App. 47
constituted an unreasonable use of water. Stanford
Vina’s senior water rights did not exempt its diversions
from curtailment.
DISPOSITION
The judgment is affirmed. Respondents State of
California, State Water Resources Control Board,
State Water Resources Control Board Members Felicia
Marcus, Doreen D’Adamo, Frances Spivy-Weber, Steven Moore, and Tam Doduc are entitled to costs on appeal. (Cal. Rules of Court, rule 8.278(a)(1), (2).)
/s/ Hoch
HOCH, J.
We concur:
/s/ Raye
RAYE, P.J.
/s/ Duarte
DUARTE, J.

App. 48
APPENDIX B
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
-----------------------------------------------------------------------

STANFORD VINA RANCH
IRRIGATION COMPANY,

C085762

Plaintiff and Appellant,

(Super. Ct. No.
34201480001957
CUWMGDS)

STATE OF CALIFORNIA et al.,

ORDER MODIFYING OPINION

v.
Defendants and Respondents.

[NO CHANGE
IN JUDGMENT]
(Filed Jul. 8, 2020)

THE COURT:
It is ordered that the published opinion filed herein on
June 18, 2020, be modified as follows:
On page 34, the last sentence of the first full paragraph beginning with “We agree with the trial court’s
determination” and immediately preceding the citation to In re Waters of Long Valley Creek System (1979)
25 Cal.3d 339 is deleted. The following sentence is inserted in its place:

App. 49
We agree with the trial court’s determination
that although “the court’s judgment settled
questions of apportionment among the parties
to the litigation,” it does not prevent the Board
from adopting regulations and issuing curtailment orders to prevent an unreasonable use
of water under article X, section 2.
This modification does not change the judgment.
FOR THE COURT:
/s/ Raye
RAYE, P.J.
/s/ Duarte
DUARTE, J.
/s/ Hoch
HOCH, J.

App. 50
APPENDIX C
IN THE

Court of Appeal of the State of California
IN AND FOR THE

THIRD APPELLATE DISTRICT
STANFORD VINA RANCH
IRRIGATION COMPANY,
Plaintiff and Appellant,
v.
STATE OF CALIFORNIA et al.,
Defendants and Respondents.
C085762
Sacramento County
No. 34201480001957CUWMGDS
(Filed Jul. 6, 2020)
BY THE COURT:
Appellant Stanford Vina Ranch Irrigation Company’s petition for rehearing is denied.
/s/ Raye
RAYE, P.J.

App. 51
APPENDIX D
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SACRAMENTO
STANFORD VINA RANCH
IRRIGATION COMPANY,
Plaintiff-Petitioner,
v.
STATE OF CALIFORNIA,
STATE WATER
RESOURCES CONTROL
BOARD; STATE WATER
RESOURCES CONTROL
BOARD MEMBERS FEUCIA
MARCUS, DOREEN
D’ADAMO, FRANCES
SPIVY-WEBER, STEVEN
MOORE, AND TAM DODUC,
AND DOES 1 through 20,
Defendants-Respondents.

Case Number:
34-2014-80001957
AMENDED
STATEMENT
OF DECISION
Hearing Held:
Date: March 24, 2017
Time: 10:00 a.m.
Dept.: 29
Judge:
Timothy M. Frawley

Plaintiff-Petitioner Stanford Vina Ranch irrigation
Company (“Stanford Vina”) has filed a petition and
complaint challenging certain emergency drought regulations adapted by Respondent-Defendant State Water Resources Control Board.
The emergency drought regulations establish “minimum in-stream flow requirements” on three tributaries of the Sacramento River: Deer Creek, Mill Creek,
and Antelope Creek. The State Water Board established the minimum in-stream flows for the purpose of

App. 52
protecting anadromous fish while they migrate
through the creeks. The emergency regulations declare
that any diversion of water from such creeks constitutes “waste and unreasonable use” if such diversions
will reduce the flow of the creeks below the minimum
in-stream flow requirements during periods of anadromous fish migrations, regardless of how the water otherwise would be used. The emergency regulations
authorize the Water Board’s Deputy Director to issue
“curtailment orders” to prohibit water rights holders
from diverting water if their diversions would interfere
with the established minimum in-stream flow requirements.
The State Water Board adopted the regulations in
2014 and implemented the regulations through a series of curtailment orders. The State Water Board then
renewed the emergency regulations in 2015 and implemented the renewed regulations through another set
of curtailment orders. By virtue of the emergency regulations and curtailment orders, certain entities, including Stanford Vina, were ordered to cease or reduce
their diversions of water to meet the minimum instream flow requirements for the protection of anadromous fish.
Stanford Vina filed this petition/complaint to challenge
the emergency regulations and curtailment orders. For
the reasons described below, the court shall deny the
petition/complaint.

App. 53
Background Facts and Procedure
Stanford Vina is a nonprofit mutual water company located in Tehama County and serving approximately
5700 acres of irrigated lands. Stanford Vina owns conveyance and diversion structures connected to Deer
Creek that have been in operation since the mid-1800s.
Stanford Vina manages its landowners’ senior riparian
and pre-1914 water rights to Deer Creek water.
Deer Creek and the appurtenant lands managed by
Stanford Vina are referred to as “Mexican Land Grant”
lands.1 This means they were conveyed into private
ownership by Spanish or Mexican governments prior
to California statehood. Under the Treaty of Guadalupe Hidalgo, which ended the Mexican-American War,
the United States promised to honor existing Spanish
and Mexican land grants. To comply with the Treaty,
the United States adopted the California Land Act of
1851, requiring persons claiming right or title in Mexican Land Grant lands to present their claims for confirmation at a federal patent proceeding. Title to the
Stanford Vina lands was confirmed by federal patent
in 1862.
In 1923, the Tehama County Superior Court conducted
a “water rights adjudication” for Deer Creek.2 A water
rights adjudication is a comprehensive process to identify and determine all of the water rights in a stream
system. It is in the nature of an “accounting” of water
1

Mexican Land Grant lands are sometimes referred to as
“rancho” lands.
2
The court decree was amended In 1926.

App. 54
rights, binding on all parties to the adjudication. In
general, a water rights adjudication includes all persons claiming a right to use water in a particular water
system. It also may include parties seeking recognition
of public trust interests in a stream.
In this case, the Tehama Superior Court conducted a
water rights adjudication for persons claiming a right
to use water in Deer Creek. There is no evidence that
public trust interests were included in the adjudication. Under the court decree, Stanford Vina is entitled
to use approximately 66% of the flow of Deer Creek.
The water diverted from Deer Creek by Stanford Vina
is primarily used for irrigated pasture, livestock stockwatering, grain, alfalfa, and row-crop production, vineyard, as well as prune, walnut, and almond orchards.
For many years, the California Department of Fish and
Wildlife (formerly Department of Fish and Game) and
the United States Fish and Wildlife Service and National Marine Fisheries Service (collectively, the “Fishery Agencies”) have been studying the conditions in
California waterways and working to protect and restore anadromous (salmon and steelhead) fish populations. A 1993 report prepared by the Department of
Fish and Wildlife, entitled “Restoring Central Valley
Streams: A Plan for Action,” assessed the then-existing
conditions and needs of Central Valley anadromous
fish, and established priorities for taking action to restore and protect fish habitat and thereby enhance fish
populations. (AR 759.)

App. 55
The 1993 report included a section devoted to Deer
Creek. According to the report, Deer Creek could support sustainable populations of 4,000 spring-run and
6,500 fall-run chinook salmon. However, in the decade
prior to the report, it was estimated that only about
550 spring-run and 1,000 fall-run salmon annually
spawned in the Creek. The report identified “inadequate flow” for upstream passage as the “most significant problem” on Deer Creek. (AR 900.) The report
noted that “[d)uring low flow periods, the fish ladder on
[Stanford Vina’s] lower diversion dam does not pass
fish.” (Ibid.) The report stated that “[f ]lows necessary
to provide unimpaired migration for adult salmon and
steelhead are unknown but have been estimated to be
approximately 50 cfs.” (Ibid.) The report made recommendations to improve habitat, which Included restoring spawning gravel and, “through negotiations,’
securing in-stream flows. (AR 901.)
The report included similar discussions and recommendations for other Tehama County creeks, including
Mill and Antelope Creeks, both of which are located
near Deer Creek. For Antelope Creek, the report noted
that conditions in Antelope Creek have resulted in Inadequate migration flows” In the fall and spring for all
species of anadromous fish. The report noted that Antelope Creek flow is typically diverted from April
through October. Average annual flows during this period historically are about 92 cfs, but the lower reach
of the stream is “usually dry when . . . diversions are
operating.” As a result, salmon are generally “unable to

App. 56
enter the stream during the irrigation and diversion
season.” (AR 869.)
To re-establish and increase salmon and steelhead in
Antelope Creek, the report recommended that priority
be given to “providing and maintaining adequate passage flows from October 1 through June 30” below the
Edwards and Los Molinos Mutual Water Company diversion dam. (AR 869-70.) The report recommended
several administrative actions to improve habitat, including (i) negotiating for additional in-stream flows,
(ii) establishing a program to exchange surface water
for groundwater, (iii) evaluating the benefit of drilling
new wells to establish a water exchange program with
private landowners, and (iv) considering administrative or legal remedies to increase stream flows. (Ibid.)
For Mill Creek, the report noted that annual springrun salmon populations have averaged 390 fish and
that the fall run has averaged about 2,200 fish. Anecdotal accounts estimated the annual steelhead population at a few hundred fish. The report noted that all
anadromous fish populations in the stream had declined, and it pointed the finger at low stream flows,
noting that “[i]n some years, water right holders may
divert the entire flow or reduce the flow to such an extent that the creek becomes impassable.” (AR 910.) The
report suggested that the key to restoring fish populations is obtaining “dependable flow” in the lower
stream reaches. The report stated that “[a] negotiated
agreement between the water users and DFG would be
the preferable means of achieving this goal as it would

App. 57
minimize conflicts between historic land uses and restoration of salmon and steelhead habitat.” (AR 910.)
Watershed profiles completed in or about 2009 updated
the conditions in Deer, Mill, and Antelope Creeks. The
2009 profile of Deer Creek stated that the average base
flow in the Creek ranged from 395 cfs, in early May to
96 cfs, by the time of spawning. (AR 3085.) However,
the report noted that during low flow periods, the existing water rights are sufficient to dewater the
stream. It further stated that “[l]ate spring and early
summer diversions have resulted in flows low enough
to block access for late-migrating adults.” (AR 3081.)
The 2009 profile of Mill Creek did not identify the average annual flows, but the report indicated that, during low flow periods, the existing water rights are
sufficient to dewater the stream, and that late spring
and early summer diversions have resulted in flows
low enough to block access for late-migrating salmonids. (AR 3094.)
The 2009 profile for Antelope Creek indicated that in
the wettest years, average flows in winter months
range from 200 to 1,200 cfs. In the driest years, flows
in winter average 50 cfs. In all but the wettest years,
summer and early fall flows average from 20 cfs to 50
cfs. (AR 3104.) The profile noted that natural flow patter is altered by diversions in the creek from spring
through fall, and that unimpaired natural flows are often less than the combined water rights of the diverters, resulting in total dewatering of the creek during
critical migration periods. (Ibid.)

App. 58
The 2014 Curtailment Regulations
On January 17, 2014, Governor Brown issued a Proclamation of a State of Emergency related to the
drought in California. Among other things, the Proclamation stated that California was experiencing record
dry conditions; that extremely dry conditions have persisted since 2012; that the state’s water supplies have
dipped to alarming levels; and that the dry conditions
and lack of precipitation imperil the safety of persons
and property in California and threaten the animals
and plants that rely on California’s waterways. Among
other things, the Proclamation orders the State Water
Board to put water right holders on notice that they
may be directed to cease or reduce water diversions
based on water shortages. The Proclamation also suspended the application of CEQA for the Department of
Water Resources and State Water Board to take specified actions to mitigate the effects of the drought. (AR
5936 et seq.)
In March 2014, the Legislature amended Water Code
Section 1058.5, which governs the State Water Board’s
emergency regulatory authority. As amended, Section
1058.5 authorizes the Board to adopt emergency regulations to prevent the waste, unreasonable use, unreasonable method of use, or unreasonable method of
diversion of water, to promote water recycling or water
conservation, and to require curtailment of diversions
when water is not available under the diverter’s priority of right. (Cal. Water Code § 1058.5.)

App. 59
On April 25, 2014, Governor Brown issued a second
Proclamation stating that additional expedited actions
are needed to reduce the harmful impacts from the
drought. Among other things, the Proclamation directs
the Department of Fish and Wildlife to Implement
monitoring of salmon in the Sacramento River and Its
tributaries, and to implement projects for the benefit
of fish and wildlife (through habitat restoration and
water infrastructure projects) on property owned or
managed by the Department of Fish and Wildlife or the
Department of Water Resources. The Proclamation
also directs DFW to work with state and federal agencies and landowners to protect threatened and endangered species and species of special concern and
maximize the beneficial uses of scarce water supplies,
including through employment of voluntary agreements to secure in-stream flows, relocation of members
of those species, or through other measures. (AR 5938
et seq.)
The Proclamation directs the Water Board to adopt
and implement emergency regulations pursuant to
Water Code Section 1058.5, as deemed necessary to
prevent the waste or unreasonable use of water. As before, the Governor’s Proclamation suspended the application of CEQA, to the extent it otherwise would have
applied, to allow the actions described in the Proclamation to take place as quickly as possible. (Ibid.)
In a memorandum dated May 7, 2014, the National
Marine Fisheries Service (NMFS) recommended the
State Water Board adopt minimum in-stream flows
for Mill, Deer, and Antelope Creeks to address drought

App. 60
impacts on ESA-listed fish species in these creeks. The
memorandum recommended minimum in-stream
flows of 50 cfs in Mill and Deer Creek and 35 cfs in
Antelope Creek for the protection of adult salmon migration April 1 through June 30 and October 1 through
November 30, and for the protection of steelhead migration October 1 through March 30. The memorandum also recommended minimum in-stream flows of
20 cfs in all three creeks for the protection of juvenile
fish outmigration October 1 through June 30. The
memorandum also recommended pulse flows of 100 cfs
in Mill and Deer Creek and 70 cfs in Antelope Creek
for the protection of adult spring-run salmon and steelhead during April 1 to June 30. (AR 8475.)
On May 13, 2014, pursuant to the authority granted to
it by the Legislature and the Governor, the State Water
Board initiated the process of promulgating regulations to establish minimum flow requirements on Deer,
Mill, and Antelope Creeks for the purpose of protecting
migrating anadromous fish. (AR 7710 et seq.) The proposed minimum flows were substantially the same as
the recommendations of the NMFS.
On May 21, 2014, after receiving oral and written comments, the State Water Board adopted the regulations
at a public meeting. (See former 23 C.C.R. §§ 877879.2.) The regulations established “drought emergency minimum” flow levels in Mill, Deer, and Antelope
Creeks, and specified that it is a “waste and unreasonable use” of water to continue diversions that cause
or threaten to cause flows to fall beneath the
drought emergency minimum flows. The regulations

App. 61
authorized accompanying curtailment orders to implement the minimum in-stream flow requirements.
Once the regulations were finalized and approved by
the Office of Administrative Law, the State Water
Board implemented the regulations through curtailment orders. The Board implemented the regulations
on Deer Creek through State Water Board Order WR
2014-0022-DWR. (AR 8777 et seq.) Through the curtailment order, the Board ordered Deer Creek water
right holders to immediately cease or reduce their diversions from Deer Creek to ensure the drought emergency minimum flow requirements would be met.
On June 24, 2014, the Board issued a notice that the
curtailment order for Deer Creek was suspended due
to the lack of presence of juvenile or adult juvenile
salmon or steelhead. (AR 8828-38.)
On October 14, 2014, the curtailment order was re-implemented by State Water Board Order WR 2014-0029DWR. (AR 9561.) The order imposed flow requirements
virtually identical to those in the original order except
that it omitted the pulse flow requirement. The order
stated that curtailment was necessary to meet drought
emergency minimum flows through February 28, 2015.
Facing similar curtailment orders, most water right
holders on Mill, Deer, and Antelope Creeks entered
into agreements to voluntarily comply with the minimum flow requirements. Stanford Vina complied with
the curtailment orders under protest and flied this action on October 22, 2014.

App. 62
On December 22, 2014, in light of the continued lack of
rain, the Governor issued Executive Order B-28-14, extending the CEQA suspension for issuance of drought
emergency regulations through May 31, 2016 (among
other actions).
The 2015 Curtailment Regulations
On March 12, 2015, the State Water Board initiated
the process to re-establish (renew) the emergency regulations imposing minimum in-stream flow requirements on Mill, Deer, and Antelope Creeks. The 2015
emergency regulations had the same purpose as the
2014 emergency regulations. As before, the Board
made a finding of emergency, identified evidence of a
drought-related emergency, and identified evidence
that established a need to prevent “waste and unreasonable use” of water and protect native chinook
salmon and steelhead populations in light of the
drought.
Once the 2015 emergency regulations were finalized
and approved by the Office of Administrative Law, the
Board implemented the regulations on Deer Creek
through the issuance of State Water Board Order WR
2015-0019-DWR. (AR 11514.) The order imposed flow
requirements virtually identical to those Imposed the
year before in Order WR 2014-0022-DWR. As before,
Stanford Vina was named as a party to the order, along
with other riparian, pre-1914, and post-1914 appropriative rights holders.

App. 63
Due to continuing drought conditions, on October 22,
2015, the State Water Board issued another curtailment order for Deer Creek (State Water Board Order
WR 2015-0036-DWR), imposing flow requirements virtually identical to those in Order WR 2014-0029-DWR,
to ensure drought emergency minimum flows would be
satisfied from October 23, 2015, through March 31,
2016. (AR 11921.)
Due to increased rainfall and snow accumulations, the
Board did not readopt the emergency regulations in
2016 or 2017. The 2015 emergency regulations expired
by their terms on December 29, 2015.
In this writ proceeding, Stanford Vina challenges the
emergency drought regulations adopted by the State
Water Board. Stanford Vina’s First Amended Verified
Petition and Complaint alleges that promulgation of
the emergency regulations and issuance of the curtailment orders prevented Stanford Vina from exercising
the vested water rights it administers, leaving Stanford Vina landowners without water to irrigate their
crops and livestock during critical irrigation periods in
2014 and 2015.
The petition/complaint includes five Causes of Action.
The First Cause of Action seeks damages for inverse
condemnation. The Second Cause of Action seeks a
declaratory judgment that the Board’s actions violated
the law because the Board took water rights without
due process of law or just compensation; improperly
asserted a public trust interest in Mexican Land Grant

App. 64
lands; and applied the public trust to modify Stanford
Vina water rights without affording Stanford Vina an
evidentiary due process hearing. The Third, Fourth,
and Fifth Causes of Action seek a peremptory writ of
mandate directing the Board to set aside the emergency regulations (and implementing curtailment orders), and enjoining the Board from adopting similar
orders unless and until the Board complies with the
requirements of due process, including notice and opportunity to respond at evidentiary hearings, and,
where applicable, reasonable compensation for any
taking of vested water rights.
Prior to the hearing on the merits, Defendants filed a
motion to bifurcate and separately try the “writ”
causes of action before any trial on the inverse condemnation and declaratory relief causes of action. The
court granted the motion to bifurcate and separately
try the writ claims.
Requests for Judicial Notice
Stanford Vina has filed a request for judicial notice of
documents related to (i) its Mexican Land Grant
claims, and (ii) historical efforts by federal and state
agencies to obtain additional in-stream flows on Deer
Creek. The Water Board objects to the request for judicial notice, arguing that the documents are not relevant, are extra-record evidence, and cannot be used to
prove the truth of the matters asserted therein.

App. 65
Although evidence outside the administrative record
generally is not admissible to challenge a quasi-legislative regulation, the Court in Western States Petroleum Association acknowledged an exception when the
evidence could not be produced at the administrative
level in the exercise of reasonable diligence. (Western
States Petroleum Assn. v. Superior Court (1995) 9
Cal.4th 559, 575-76.) The Court also noted other potential exceptions to the general rule, such as when the
evidence is relevant to (1) issues other than the validity of the agency’s quasi-legislative decision, such as
the petitioner’s standing or affirmative defenses, (2)
the accuracy of the administrative record, (3) procedural unfairness, or (4) agency misconduct. (Id. at
p.575, fn.5.)
Here, given the “emergency” nature of the regulations,
and the very limited opportunity of Stanford Vina to
prepare for the “workshop” and to present comments
and materials to the Board, the court refuses to deny
the request for judicial notice on the grounds the materials are “extra-record” evidence. The court also does
not find the documents to be “irrelevant.”
The court agrees with the Board that the court cannot
take judicial notice of the truth of hearsay statements
of findings of fact asserted in the documents. However,
the court may take judicial notice of the existence and
content of each document and, if there is no genuine
dispute about the document’s authenticity, its legal effect. (See Ragland v. U.S. Bank National Assn. (2012)
209 Cal.App.4th 182, 194; Poseidon Development, Inc.
v. Woodland Lane Estates, LLC (2007) 152 Cal.App.4th

App. 66
1106, 1117-18; Herrera v. Deutsche Bank National
Trust Co. (2011) 196 Cal.App.4th 1366, 1375.)
The court grants the request for judicial notice.
Discussion
In this writ proceeding, Stanford Vina challenges the
State Water Board’s adoption of emergency drought
regulations and issuance of curtailment orders limiting diversions from Deer Creek in 2014 and 2015.
Stanford Vina contends the Board abused its discretion and acted contrary to law by (1) taking Stanford
Vina’s water, without just compensation; (2) depriving
Stanford Vina of the use of its water without an evidentiary hearing; (3) providing insufficient notice of
the proposed regulations; (4) unlawfully declaring that
Stanford Vina’s use of water for agricultural irrigation
is “unreasonable;” (5) applying the public trust doctrine to Stanford Vina’s water rights; (6) violating the
water rights priority system; (7) ignoring the judicial
water rights adjudication decree; (8) unlawfully exercising “emergency” powers to take Stanford Vina’s water; and (9) unlawfully amending the emergency
regulations without proper notice.
Mootness
The court takes judicial notice that Northern California experienced significant rainfall during the 2016
calendar year. Many communities in Northern California experienced their best rainfall totals in five years.

App. 67
To date, rainfall totals in 2017 have been prodigious,
and the northern Sierra Nevada is on pace for its alltime wettest “water year.”
The emergency regulations at issue In this case expired by their terms on December 29, 2015. Due to the
increased rainfall and snow accumulations, the Board
did not readopt similar emergency drought regulations
in 2016 or 2017. it follows that Stanford Vina’s writ
claims, seeking to compel the Water Board to set aside
the emergency regulations and associated curtailment
orders, are moot. (Genser v. McElvy (1969) 276
Cal.App.2d 709, 711; Clementine v. Board of Civil Service Commis (1941) 47 Cal.App.2d 112, 114.)
However, there are recognized discretionary exceptions to the mootness rule. Exceptions to the mootness
rule exist when (1) the case presents an issue of broad
public interest that is likely to recur; (2) there may be
a recurrence of the controversy between the parties;
or (3) a material question remains for the court’s determination. (Cucamongans United far Reasonable
Expansion v. City of Rancho Cucamonga (2000) 82
Cal.App.4th 473, 479-480.) In this case, at least two of
those exceptions apply. The case presents an issue of
broad public interest that is likely to recur and there
is a substantial likelihood of recurrence of the same
controversy between the parties. Accordingly, the court
exercises its discretion to resolve the substantive issues properly raised by the petition.

App. 68
Taking of Private Property Without Compensation
Many of Stanford Vina’s arguments center on its claim
that the emergency regulations constitute an unconstitutional taking of Stanford Vina’s vested property
rights in Deer Creek water. The Water Board argues
that Stanford Vina’s takings claim is not properly before the court due to the court’s bifurcation order,
which bifurcated the “writ” causes of action from the
inverse condemnation causes of action.
Stanford Vina responds that, while it respects the
court’s bifurcation order, there is “overlap” between its
inverse condemnation claim and the writ claims. In
particular, Stanford Vina alleges that the Water Board
abused its discretion and failed to proceed in the manner required by law by promulgating regulations that
had the effect of taking Stanford Vina’s water without
just compensation.
The court agrees with the Water Board that the issue
of whether the emergency regulations violated the
Takings Clause is not before the court at this time.
Nevertheless, the court recognizes that there is overlap
between the writ and takings claims, notably on the
issue of whether Stanford Vina has been deprived of a
legally protected property interest. While the court
discusses this issue below in the context of Stanford
Vina’s due process claims, the court’s findings and conclusions also apply to Stanford Vina’s takings claims.

App. 69
Deprivation of Property without Due Process of Law
Both the state and federal Constitutions prohibit the
government from depriving a person of property without due process of law. (Kavanou v. Santo Monica Rent
Control Bd. (1997) 16 Cal.4th 761, 771; see also Cal.
Const., art. 1, §§ 7, 15; U.S. Const., 14th Amend., § 1.)
Here, the Water Board exercised its authority to prevent “waste or unreasonable use” of water by enacting
regulations establishing drought emergency minimum
flows in Mill, Deer, and Antelope Creeks, and declaring
unreasonable any diversion that would cause (or
threaten to cause) flows to drop below the specified
minimum. Stanford Vina argues that the Water Board
violated its procedural due process rights by declaring
its diversions and uses of water to be “unreasonable”
and ordering them curtailed, without adequate notice
or opportunity to be heard.
The first inquiry in any due process challenge is to determine whether the plaintiff has been deprived of a
protected liberty or property interest. (Today’s Fresh
Start, Inc. v. Los Angeles County Office of Education
(2013) 57 Cal.4th 197, 214.) Only after finding a deprivation of a protected interest do courts look to see
whether the State’s procedures comport with due process. (ibid.)
In this case, Stanford Vina argues that the Due Process
Clause3 was violated because the Water Board’s
3

In light of the virtually identical language of the federal
and state due process guarantees, and the substantial overlap In
how they are interpreted, the court shall refer to the state and

App. 70
emergency regulations deprived it of a vested property
right to divert and use Deer Creek Water. Stanford
Vina argues that the Board may not declare an existing use unreasonable without an evidentiary hearing
at which the affected owner may appear and contest
whether their particular uses of water are reasonable
under the circumstances. Thus, Stanford Vina argues,
the Water Board was required to hold an evidentiary
hearing before curtailing Stanford Vina’s diversions
and use of Deer Creek water.
The Water Board disagrees. It argues that Stanford
Vina’s water rights are usufructuary and limited by
the reasonable use and public trust doctrines, which
prevent any party including Stanford Vina – from acquiring a vested right to use water in an unreasonable
manner or in a manner that harms the public trust.
(See Joslin v. Marin Municipal Water Dist. (1967) 67
Cal.2d 132, 143-46 [there is no legally protectable
property right in an unreasonable use of water], superseded by statute on unrelated grounds, as stated in
City of Emeryville v. Superior Court (1991) 2
Cal.App.4th 21, 24.) Thus, the Water Board contends,
Stanford Vina suffered no significant deprivation of
property which would invoke a constitutional right to
an evidentiary hearing.
Further, the Water Board argues that only governmental decisions which are adjudicative in nature are subject to the due process requirements of notice and
federal clauses collectively as the “Due Process Clause.” (Today’s
Fresh Start, supra, 57 Cal.4th at p.212.)

App. 71
opportunity for a hearing; quasi-legislative acts are not
subject to such requirements. Because the emergency
regulations are quasi-legislative in nature, the Water
Board contends there was no constitutional requirement for an evidentiary hearing.
The Water Board is correct that Stanford Vina cannot
acquire a protected right to use water in an unreasonable manner or in a manner that is harmful to the public trust. Although Stanford Vina may have a vested
right to divert and use Deer Creek Water,4 this does not
mean that Stanford Vina owns the water in the stream.
In California, water rights are usufructuary rights
(from latin, ususfructus), which means that the holder
merely has a legal right to use and enjoy (uses) the
fruits or profits (fructus) of the water.5 (United States
v. State Water Resources Control Bd. (1986) 182
Cal.App.3d 82, 100-101 [hereafter, the “Racanelli Decision”]; City of Santa Maria v. Adam (2012) 211
Cal.App.4th 266, 302; State of California v. Superior
4

As such, they cannot be infringed by others or taken by governmental action without due process and just compensation.
(United States v. State Water Resources Control Bd. (1986) 182
Cal.App.3d 82, 101; State of California v. Superior Court (Underwriters at Lloyd’s of London, et al.) (2000) 78 Cal.App.4th
1019.1027; Schimmel v. Martin (1923) 190 Cal. 429, 432; see also
County of Siskiyou v. Superior Court (2013) 217 Cal.App.4th 83,
94.)
5
The holder of a usufructuary right is known as a usufructuary. Usufructuary also is an adjective meaning of, or relating
to, or of the nature of a usufruct. The word is sometimes spelled
usufructory by courts, although nearly all major dictionaries spell
the word usufructuary. (See http://www.onelook.comnweusufructuary8da.) This court shall use the accepted spelling.

App. 72
Court (Underwriters at Lloyd’s of London, et al.) (2000)
78 Cal.App.4th 1019, 1025 (“Lloyd’s of London”]; see
also Cal. Wat. Code §§ 102, 1001.)
While the right to use water is a legally protectable interest,6 the right is limited and uncertain. (People v.
Murrison (2002) 101 Cal.App.4th 349, 359.) Just as a
real property owner does not have an unfettered right
to develop property in any manner he or she sees fit,
an owner of a water right may be similarly restricted
by the State’s police power. (Morrison, supra, 101
Cal.App.4th at p.361.) Case law establishes that water
rights are not exempt from reasonable regulation.
(ibid.) Indeed, they have been the subject of pervasive
regulation. (Id. at p.360.)
Among other things, all water rights – riparian and appropriative – are subject to the overriding constitutional limitation that water use must be reasonable.7
(Racanelli Decision, supra, 182 Cal.App.3d at p.105;
Cal. Const., art. X, § 2.) This “rule of reasonable use” is
6

The right to use water has been described as a possessory
right. (See City of Santa Maria v. Adam (2012) 211 Cal.App.4th
266, 302.) It also Is sometimes described as a right “appurtenant
to” an interest in real property, or as possessing indicia of property rights, entitling the holder to judicial protection against infringement. (See, e.g., United States v. State Water Resources
Control Bd. (1986) 182 Cal.App.3d 82, 104; Schimmel v. Martin
(1923) 190 Cal. 429, 432; Lux v. Noggin (1886) 69 Cal. 255, 390,
391-392.)
7
Although it is not entirely clear whether pueblo rights are
subject to the constitutional limitation of article X, section 2, the
pueblo right itself is subject to the rule of reasonable use, so application of the constitutional amendment is unnecessary. (See
Los Angeles v. Glendale (1943) 23 Cal.2d 68, 74.)

App. 73
now the cardinal principle of California’s water law.
(Racanelli Decision, supra, 182 Cal.App.3d at p.105;
Cal. Wat. Code § 100.) Courts have construed this rule
as a valid exercise of the police power to regulate the
use and enjoyment of water for the public benefit.
(Racanelli Decision, supra, 182 Cal.App.3d at p.106.)
Due to the enactment of article X, § 2, “ ‘there can no
longer be any property right In the unreasonable use
of water:” (Light v. State Water Resources Control Bd.
(2014) 226 Cal.App.4th 1463, 1488 [quoting in re Waters of Long Valley Creek Stream System (1979) 25
Cal.3d 339, 354]; see also People ex rel. State Water Resources Control Bd. v. Forni (1976) 54 Cal.App.3d 743,
753 [no compensable property right to the unreasonable use of water].)
In addition to the reasonable use doctrine, in National
Audubon Society v. Superior Court (1983) 33 Cal.3d
419, the California Supreme Court recognized another
significant limitation on water rights: the “public
trust.8 (Racanelli Decision, supra, 182 Cal.App.3d at
p.106.) In National Audubon, plaintiffs filed suit to enjoin the City of Los Angeles Department of Water and
Power from exercising its long-standing appropriative
right to divert water from non-navigable tributaries to
Mono Lake. The water was being withdrawn to serve
the city’s growing domestic, municipal, and industrial
8

The claim that the reasonable use doctrine itself was a
taking of riparian rights was rejected in Gin S. Chow v. City of
Santa Barbara (1933) 217 Cal. 673, 700.01 (See Cal. Trout v.
State Water Resources Control Bd. (1989) 207 Cal.App.3d 585,
623.)

App. 74
demands, but the diversions were having dramatic,
deleterious effects on the lake, decreasing its surface
level and increasing its salinity, endangering the organisms that inhabit the lake and the birds (particularly gulls) that depend on those organisms as a
primary food source. As support for the injunction, the
plaintiffs argued the city’s diversions were violating
the public trust by diverting most of the flow into the
lake.
The trial court entered summary judgment against petitioners, concluding that the public trust doctrine offered no independent basis for challenging the city’s
diversions. On petition for review, the California Supreme Court granted a writ commanding the trial
court to vacate its judgment. The Supreme Court held
that the State’s navigable waters are subject to a public trust and that the State, as trustee, has an affirmative duty to protect public trust uses “whenever
feasible.” (National Audubon, supra, 33 Cal.3d at
p.446.)
The public trust doctrine imposes a duty of continuing
supervision over the taking and use of that water even
after the State has approved an appropriation. Indeed,
the State has the power to reconsider allocation decisions even if past allocation decisions were made after
consideration of the public trust. (National Audubon,
supra, 33 Cal.3d at pp.446-47.)
In National Audubon, because the Water Board had
failed to consider the public trust before granting the
city’s permit, the Court ordered the State to reconsider

App. 75
the allocation of the waters of the Mono Basin. (Ibid.)
The Court acknowledged that the State has the power
to grant appropriations despite foreseeable harm to
the public trust. However, the Court ruled that the
State is not confined by past allocation decisions
“which may be incorrect in light of current knowledge
or inconsistent with current needs.” (Id. at p.447.) The
Court held that no one may acquire a “vested right to
appropriate water in a manner harmful to the interests protected by the public trust.” (Id. at p.445; see
also Racanelli Decision, supra, 182 Cal.App.3d at
pp.106, 149-50.)
The First Appellate District Court of Appeal made a
similar ruling in People ex rel. State Water Resources
Control Bd. v. Forni,
[T]here is a well recognized distinction between a “taking” or “damaging” for public use
and the regulation of the use and enjoyment
of a property right for the public benefit. The
former falls within the realm of eminent domain, the latter within the sphere of the police
power. (People ex ref. State Water Resources
Control Bd. v. Forni (1976) 54 Cal.App.3d 743,
753.)
It follows that, despite possessing indicia of property
rights, water rights are not inviolable. They are subject
to regulation under the police power of the state. Parties acquiring rights in trust properties hold those
rights subject to the trust, and can assert no vested
right to use those rights in a manner harmful to the
trust. (National Audubon, supra, 33 Cal.3d at p.437;

App. 76
see also id. at p.440.) Thus, a water right holder cannot
acquire a protected right to use water in an unreasonable manner or in a manner that is harmful to the public trust.
While the Water Board is correct that Stanford Vina
cannot acquire a protected right to use water in an unreasonable manner or in a manner that is harmful to
the public trust, this does not necessarily resolve the
question of whether Stanford Vina was entitled to a
due process hearing. There is a “chicken and egg” problem because it is the Water Board’s actions, challenged
In this case, which ostensibly established Stanford
Vina’s use was unreasonable and contrary to the public
trust.
In essence, the Water Board argues that Stanford Vina
was not deprived of a constitutionally protected interest because the Water Board determined Stanford Vina
did not have a constitutionally protectable interest.
Stanford Vina objects that the Water Board’s assertion
of “unreasonable use” does not necessarily make it so.
The Water Board cannot make a determination of unreasonable use without first affording Stanford Vina a
due process hearing. In other words, even if Stanford
Vina has no constitutionally protected right in an unreasonable use of water, it may have a right to a due
process hearing to determine whether its use is, in fact,
unreasonable.
Courts have reached similar conclusions in the context
of abating public nuisances. (See Leppo v. City of Petaluma (1971) 20 Cal.App.3d 711.) In Leppo, the court

App. 77
held a city was liable for destroying a dilapidated
building under its power to abate a public nuisance
without first affording the owner due process to contest
whether the building was, in fact, a nuisance. The court
ruled:
Although it is elementary that an owner of
property has no constitutional right to maintain it as a public nuisance, it is equally elementary that he has a clear constitutional
right to have it determined by due process
whether in fact and law it is a nuisance. (id.
at p.717.)
Likewise, in Alta-Dena Dairy, the Court of Appeal
ruled that a county director of public health unlawfully
ordered a dairy to discontinue its production of contaminated milk without first affording the dairy a due
process hearing to contest the factual basis for the order. (Alta-Dena Dairy v. County of San Diego (1969)
271 Cal.App.2d 66, 77.)
The Water Board argues that different rules apply
when the government acts in a legislative capacity. For
example, the legislature may, when necessary, define a
nuisance per se and authorize seizure and destruction
without previous notice to the owner and an opportunity for a hearing. (See Thain v. Palo Alto (1962) 207
Cal.App.2d 173, 189-190.) Similarly, the Legislature
may establish general standards governing the reasonable use of water, (Cal. Trout, supra, 207 Cal.App.3d at
p.624.) And case law further establishes that if the
Legislature has the power to enact general standards

App. 78
governing reasonable use, the Water Board does too.
(Light, supra, 226 Cal.App.4th at p.1484.)
The court does not disagree, but this raises a different
issue, which is whether the Water Board’s actions were
quasi-legislative or quasi-adjudicative. Unlike governmental decisions which are adjudicative in nature, procedural due process does not guarantee a right to a
hearing when a person’s property interests are curtailed by a legislative or quasi-legislative act. (See
California Gilinetters Assn. v. Department of Fish &
Game (1995) 39 Cal.App.4th 1145, 1160; see also Beck
Development Co. v. Southern Pacific Transportation Co.
(1996) 44 Cal.App.4th 1160, 1188; Horn v. County of
Ventura (1979) 24 Cal.3d 605, 612-614; California
Optometric Assn. v. Lackner (1976) 60 Cal.App.3d 500,
505-506.) There is no constitutional requirement for
any hearing or notice of hearing in a quasi-legislative
proceeding.
In this case, the Water Board contends it acted in a
quasi-legislative manner by promulgating the emergency
regulations. And because it acted in a quasi-legislative
manner, it contends there was no constitutional requirement for a due process hearing.
Stanford Vina contends the emergency regulations, despite being labeled “quasi-legislative,” were, in fact,
quasi-adjudicatory because they applied general principles of law – involving questions of “reasonable use”
and “public trust” – to a relatively small group of
named water right holders, based on specific factual
circumstances. Stanford Vina also argues that

App. 79
California law requires an adjudicative hearing when
a specific diversion or use of water is declared “unreasonable.”
In determining whether the challenged regulations
are quasi-legislative or quasi-adjudicatory, the court
agrees with Stanford Vina that the regulations and
curtailment orders should be evaluated collectively, as
part of a single consolidated proceeding. The regulations themselves determined that diversions would be
curtailed to meet minimum flow requirements. (See,
e.g., AR 8687-700, 7710-12, 8471-91, 8439-42.) The curtailment orders simply notified affected water right
holders that the regulatory provisions were put into effect.
Stanford Vina objected to the emergency regulations
and the curtailment orders and requested an evidentiary hearing to contest, among other things, whether
the mandated minimum flows would prevent significant harm to fishery resources, the amount and timing
of water necessary to prevent significant harm to fishery resources, and the relative weight of the potential
harm to fishery resources when balanced against competing agricultural interests. In particular, Stanford
Vina argued that only a very small number of fish may
benefit from the regulations; that the fish could be adequately protected with much less than 50 cfs; that the
minimum flow requirements were imposed too soon
and for too long; that the mandatory flows may do
more harm than good; and that the regulations will
have a devastating impact on agricultural interests

App. 80
that is grossly out of proportion to the regulation’s environmental benefits.
The Water Board acknowledged Stanford Vina’s request for an evidentiary hearing and conceded its own
“preference for undertaking adjudicative water right
proceedings to assign responsibility for meeting instream flows.” (AR 8442.) However, citing “the need for
prompt action,” the Water Board concluded that “the
vehicle of adopting emergency regulations to identify a
minimum flow requirement . . . is an appropriate approach in these limited circumstances. . . .” (Ibid.)
Based on the evidence, the emergency regulations and
the curtailment orders are properly treated as one consolidated action. Thus, the question is whether the Water Board violated constitutional due process
principles by refusing to hold an evidentiary hearing
prior to adopting the regulations that curtailed Stanford Vina’s right to divert water from Deer Creek.
The answer to this question turns on whether the
emergency regulations and curtailment orders – collectively defined by Stanford Vina as the “Curtailment
Regulations” – are a quasi-adjudicative or quasi-legislative act.
The classification of administrative action as quasilegislative or quasi-adjudicative contemplates the
“function performed.” (20th Century Ins. Co. v. Garamendi (1994) 8 Cal.4th 216, 275.) Generally speaking,
a legislative action is the formulation of a rule to be
applied to all future cases, while an adjudicatory act
involves the actual application of such a rule to a

App. 81
specific set of existing facts. (Ibid; see also Strumsky v.
San Diego County Employees Ret. Assn (1974) 11
Cal.3d 28, 34, fn. 2.)
Legislative decisions involve the adoption of broad,
generally applicable rules of conduct based upon considerations of public policy, while adjudicatory decisions determine the rights of an individual under
existing laws, based upon specific facts peculiar to the
individual case. (See Horn v. County of Ventura (1979)
24 Cal.3d 605, 613; Joint Council of Interns & Residents v. Bd. of Supervisors (1989) 210 Cal.App.3d 1202,
1209; McKlnny v. Board of Trustees (1982) 31 Cal.3d
79, 98-99.) One determines what the law is, and what
the rights of the parties are, with reference to transactions already had, and the other prescribes what the
law shall be in future cases arising under it. (East Bay
Municipal Utility Dist. v. Department of Public Works
(1934) 1 Cal.2d 476, 479-480.)
In sum, a decision is considered quasi-legislative if it
involves the formulation of a broad, generally-applicable rule to be applied in the future. A decision is considered quasiadjudicatory if It involves the application
of an existing rule to specific facts peculiar to an individual case.
The Water Board’s regulations could be construed as
involving both quasi-legislative and quasiadjudicatory
functions. On one hand, the regulations could be characterized as quasiadjudicatory because they applied
general principles of “reasonable use” and “public
trust” to specific waterways, and established specific

App. 82
minimum flow requirements for a relatively small
number of water right holders.9 On the other hand, the
regulations are quasi-legislative because they involved
the formulation of a fundamental rule, based on considerations of public policy, to be applied in the future
to all water right holders on the affected creeks.
On balance, the court is persuaded that adoption of the
regulations was a quasi-legislative act. The regulations involve the formulation of a fundamental rule or
policy governing use of water in the creeks during
unique and extreme drought conditions. The Water
Board adopted a rule that mandates sufficient minimum flows remain in the streams to ensure passage of
threatened and endangered salmonid species during
critical migration periods, and thereby (hopefully) preserve the survival of the species. The enactment of the
regulations was a quasi-legislative act because it involved the adoption of a general, policy-based rule, to
be applied In the future to all landowners within the
area.
In reaching this conclusion, the court draws guidance
from Light v. State Water Resources Control Bd. (2014)
226 Cal.App.4th 1463, 1488. In Light, as here, the Water Board adopted a regulation to protect young
salmon from low water levels caused by diversions of
water for frost protection of crops in the Russian River
9

In its Opposition Brief, the Water Board concedes that Issuance of the curtailment orders may Involve quasi-adjudicative
decision-making. (Opposition, p.22; see also El Dorado Irrig. Dist.
v. State Water Resources Control Bd. (2006) 142 Cal.App.4th 937,
960.)

App. 83
stream system. The problem addressed by the regulation was the sudden and abrupt drop in stream levels
that occurs when a large number of users (primarily
vineyards) simultaneously activate sprinklers to prevent crop frost damage. While using water to prevent
crop frost damage is a beneficial use, and individually
harmless, the Board concluded that when a large number of users draw water at the same time it has the
potential to inflict long-lasting damage on the fragile
salmon population.
To address this problem, the Board adopted a quasilegislative regulation declaring any frost protection diversion unreasonable unless it conforms to a locallydeveloped water demand management program
(WDMP), which must be approved by the Board. In effect, the regulation requires water right holders to curtail diversions of water from the stream system for
frost protection under circumstances when water is
scarce.
Plaintiff water users filed an action seeking to invalidate the regulation, arguing that the Board lacked authority to enact broad rules governing the reasonable
(unreasonable) use of water. The First Appellate District upheld the validity of the regulation. In so doing,
it rejected the argument that the Board lacks power to
adopt general rules governing the reasonable use of
water to protect the public trust. (Light, supra, 226
Cal.App.4th at pp.1479-85.)
The emergency regulations at issue here are similar to
the regulation at issue in Light in that they seek to

App. 84
protect public trust fishery resources from low water
levels caused by (otherwise reasonable and beneficial)
diversions of water. The primary difference between
Light and this case is that the regulation in Light did
not directly regulate (curtail) any diversions of water,
delegating this task to the governing bodies of the
WDMPs. Here, the Board’s emergency regulations expressly require water right holders to reduce their curtailments to meet the minimum flow requirements.
Nevertheless, the effect of the regulations is the same:
to require water right holders to curtail diversions to
meet minimum flow requirements deemed necessary
to protect public trust fishery resources.
If the regulation at issue in Light did not require a
quasi-adjudicative hearing, the court sees no reason
why the emergency regulations at issue here should
require one. Thus, treating the emergency regulations
and curtailment orders as a single, consolidated proceeding does not alter the court’s conclusion that the
Board’s actions were quasi-legislative, and therefore
not subject to procedural due process requirements.
The court also draws support from land use cases. In
McKinny v. Board of Trustees, the court held that development of a school district desegregation plan Is a
quasi-legislative function because it affects the community within the District’s boundaries in a generalized manner. (McKinny v. Board of Trustees (1982) 31
Cal.3d 79, 98.) In Santa Ma Tustin Community Hospital v. Board of Supervisors, the court held that the
county board of supervisors was engaged in a quasilegislative function when it designated, as part of its

App. 85
paramedic program, five acute care hospitals as
“trauma centers.” (Santa Ana Tustin Community Hospital v. Board of Supervisors (1982) 127 Cal.App.3d
644, 646.) Similarly, courts have concluded that a decision on a zoning/rezoning application is a legislative
act because it because it involves the adoption of a rule
to be applied to all landowners within the area. (See
Toso v. City of Santa Barbara (1980) 101 Cal.App.3d
934, 942; Ensign Bickford Realty Corp. v. City Council
(1977) 68 Cal.App.3d 467, 473.)
The regulations do not cease to be quasi-Legislative because a relatively small number of landowners are affected by them. It is the nature of the agency’s action
which controls, not the number of individuals affected
by it. (See Karlson v. Camarillo (1980) 100 Cal.App.3d
789, 799.) Case law is rife with examples of quasilegislative actions that are relatively narrow in application and effect. For example, courts hold that a
public entity’s award of a contract, and all of the acts
leading up to the award, are legislative in character,
because the letting of contracts necessarily requires an
exercise of discretion guided by considerations of the
public welfare. (Mike Moore’s 24-Hour Towing v. City of
San Diego (1996) 45 Cal.App.4th 1294, 1303; Marshall
v. Pasadena Unified School Dist. (2004) 119
Cal.App.4th 1241, 1253; Joint Council of Interns &
Residents v. Bd. of Supervisors (1989) 210 Cal.App.3d
1202, 1205.)
An act also does not cease to be legislative merely because public officials are required to exercise some
discretion. In East Bay Municipal Utility Dist. v.

App. 86
Department of Public Works, the court held that issuing a conditional permit to use water is a quasilegislative act. (East Bay Municipal Utility Dist. v. Department of Public Works (1934) 1 Cal.2d. 476, 479-81.)
In so ruling, the court rejected the argument that the
Department was exercising a judicial function because
it exercised Judgment and discretion in the performance of its duties. (id at. p.479.)
The Second District Court of Appeal reached a similar
conclusion in Joint Council of Interns & Residents v.
Board of Supervisors, which held that awarding a contract to hire county physicians was a quasi-legislative
act. The Court ruled that an act does not cease to be
legislative merely because public officials are required
to “exercise their judgment,” noting that the judgment
exercised by the members of the city council was not a
“determination of the rights of an individual under existing laws,” but a conclusion or opinion formed in the
exercise of the discretionary power . . . upon a consideration of the public welfare. . . .” (Joint Council of Interns & Residents, supra, 210 Cal.App.3d at p.1211.)
Like a zoning decision or school desegregation plan,
the Water Board’s action in adopting the emergency
regulations is a policy-based decision that adopts a
rule to be applied to all diverters within the affected
community. The emergency regulations establish
emergency minimum flows necessary to maintain fish
passage in the streams during critical migration periods, and establish that any diversion that would reduce the flow of the streams below the minimum flows
is contrary to the “public trust” and, therefore,

App. 87
“unreasonable?’ The regulations do not cease to be
quasi-legislative because only a limited number of
streams and diverters are impacted by them, nor do
they cease to be quasi-legislative because the Board
exercised some judgment in determining the minimum
flows necessary to ensure successful fish migration.
Because the Water Board acted in a quasi-legislative
manner, there was no constitutional requirement for a
due process hearing.10
The court finds no merit in Stanford Vina’s argument
that a reasonable use determination always requires
an adjudicative hearing. While reasonable use is “ordinarily a question of fact,” case law establishes that the
Legislature has the authority to enact general legislative standards governing the reasonable use of water,
in the same way that the Legislature may, by statute,
define a standard of care for negligence actions. (Cal.
Trout, supra, 207 Cal.App.3d at p.624.) The Water

10

Even if procedural due process requirements applied, the
court is not persuaded that Stanford Vina would be entitled to a
full evidentiary hearing. Due process is flexible and calls for such
procedural protections as the particular situation demands, depending on the relative weights of the competing government and
private interests. (Mathews v. Eldridge (1976) 424 U.S. 319, 33435, 348-49.) The requirement of prior notice and heaping is subject to exceptions where summary action is necessary in the public interest. (See Pollack v. Department of Motor Vehicles (1985)
38 Cal.3d 367, 380; Goldberg v. Kelly (1970) 397 US. 254, 263; see
also Leppo v. City of Petaluma (1971) 20 Cal.App.3d 711, 718; Bergeron v. Department of Health Services (1999) 71 Cal.App.4th 17,
27; Leslie’s Pool Mart v. Deportment of Food & Agriculture (1990)
223 Cal.App.3d 1524, 1531-32.)

App. 88
Board has similar regulatory authority. (Light, supra,
226 Cal.App.4th at p.1484.)
The court also rejects Stanford Vina’s argument that it
did not receive due process because it did not get sufficient advance notice of the proposed regulations. The
Water Board’s notices – 5 business days for the 2014
regulations and 7 business days for the 2015 regulations – satisfied the timing requirements of Government Code section 11346.1(a)(2).11
The Reasonableness of Stanford Vina’s Water Uses
Stanford Vina alleges that the Water Board unlawfully
declared Stanford Vina’s diversions and uses of Deer
Creek water to be “unreasonable.” Stanford Vina argues that this was an abuse of discretion because (1)
the reasonable use doctrine does not authorize the
Board to consider public trust values, (2) agricultural
irrigation is a reasonable beneficial use, and the reasonable use doctrine does not permit the Water Board
to favor one beneficial use over another for policy reasons, and (3) the Board declared Stanford Vina’s diversions and uses to be unreasonable in order to take its
water without compensation.
The Water Board defends use of the reasonable use
doctrine to protect public trust uses. It argues that the
reasonableness of a use depends on the totality of the
11

Although the parties did not raise the Issue, the court
questions whether 23 C.C.R. § 767 applied, which would have required seven days’ notice.

App. 89
circumstances, including the competing beneficial uses
of the water and the State’s interest in protecting the
water’s function as natural habitat for fish and wildlife
resources. (See Cal. Wat. Code § 1243.) The court
agrees. (See Center for Biological Diversity, supra, 166
Cal.App.4th at p.1369; see also National Audubon, supra, 33 Cal.3d at p.443 (all uses of water, including
public trust uses, must conform to the standard of reasonableness); in re Water of Hallett Creek Stream Sys.
(1988) 44 Cal.3d 448, 472, fn.16.)
It matters not whether agricultural irrigation ordinarily is a reasonable and beneficial use. As the court
noted in Light:
What may be a reasonable beneficial use,
where water is present in excess of all needs,
would not be a reasonable beneficial use in an
area of great scarcity and great need. What is
a beneficial use at one time may, because of
changed conditions, become a waste of water
at a later time. (Light, supra, 226 Cal.App.4th
at p.1479, quoting Tulare Dist. v. LindsayStrathmore Dist. (1935) 3 Cal.2d 489, 567.)
Under the unique circumstances present in this case –
persistent and extreme drought conditions threatening to dewater high priority streams during critical migration periods for threatened and endangered fish
species, and a lack of feasible alternatives to increase
in-stream flows by other means – the Water Board rationally determined that allowing diversions to reduce
flows below the minimum, “belly-scraping” amounts

App. 90
necessary for fish migration and survivability would be
“unreasonable.”12
Stanford Vina argues that the Water Board cannot declare a beneficial use of water to be unreasonable to
protect a public trust interest to which it ascribes a
higher priority. The court does not agree. The Board
has been granted broad authority to control water use
and exercise regulatory functions in the field of water
resources. (Light, supra, 226 Cal.App.4th at pp.148182.) Among its other functions, the Board is empowered and directed to “take all appropriate proceedings
or actions before executive, legislative, or judicial agencies to prevent waste, unreasonable use, unreasonable
method of use, or unreasonable method of diversion of
water in this state.” (Ibid; see also Cal. Wat. Code
§ 275.) This authority includes protection of the environment by means of the public trust. (Light, supra,
226 Cal.App.4th at p.1485.)
The public trust is “more than an affirmation of state
power to use public property for public purposes.” (See
National Audubon, supra, 33 Cal.3d at p.441.) It is an
affirmative duty to preserve and protect the public’s
interest in common natural resources. (Center for
12

A distinction can and should be made between the minimum base flows necessary for passage and the pulse flows Implemented to aid migration and provide the “necessary cues” for fish
to move. While the court does not find the mandated pulse flows
to be “arbitrary or capricious,” this is because Stanford Vina failed
to adequately brief or argue this point. Had Stanford Vina done
so, the court well may have reached a different conclusion, as it is
unclear whether pulse flows are “necessary” or merely “helpful”
to fish migration.

App. 91
Biological Diversity, supra, 166 Cal.App.4th at p.1363;
see also Cal. Fish & G. Code §§ 711.7, 1600.) The Water
Board unquestionably possesses legal authority to exercise its police powers to protect fish as public trust
resources. (See, e.g., Cal. Trout, supra, 207 Cal.App.3d
585; see also Racanelli Decision, supra, 182 Cal.App.3d
82.)
Because the emergency regulations are quasi-legislative acts, the court’s review of the emergency regulations is limited. In reviewing the legality of a quasilegislative regulation, the judicial function is limited to
determining whether the regulations are (1) “within
the scope of the authority conferred” and (2) “reasonably necessary to effectuate the purpose of the statute.”
Both of these issues come to the court freighted with a
strong presumption of regularity. (Yamaha Corp. of
America v. State Bd. of Equalization (1998) 19 Cal.4th
1, 11.)
When a regulation is challenged on the ground that it
is not reasonably necessary to effectuate the purpose
of the statute, the court’s review is confined to whether
the rule is arbitrary, capricious, or without rational basis, and whether substantial evidence supports the
agency’s determination that the rule is reasonably necessary. (Light, supra, 226 Cal.App.4th at p.1495.) In determining whether an agency’s decision is supported
by substantial evidence, the court resolves all conflicts
in favor of the agency, indulging all legitimate and reasonable inferences from the record. When two or more
inferences can be reasonably deduced from the facts,

App. 92
the reviewing court has no power to substitute its deductions for those of the agency. (Ibid.)
In light of the extreme pressures on threatened and
endangered salmonids during the drought, and the
lack of alternative water supplies, the Water Board
reasonably determined that diverting flows below the
minimum amount needed for migration of salmonids
would be “unreasonable.” This was not arbitrary or capricious, and so it was not unlawful.
Stanford Vina’s argument that the Board declared its
diversions and uses to be unreasonable in order to take
its water without compensation fails for lack of proof.
The court will not ascribe a nefarious intent to the
Board’s actions based merely on evidence that other
agencies previously had endeavored to negotiate
agreements for minimum in-stream flows.
Application of the Public Trust Doctrine to Mexican
Land Grant Lands
Stanford Vina argues that the Water Board abused its
discretion by applying the public trust doctrine to
Stanford Vina and Deer Creek water rights. Relying on
Summa Corp. v. California State Lands Commission
(1984) 466 U.S. 198, Stanford Vina argues that the public trust doctrine does not apply to former Mexican
Land Grant lands and waters annexed under the
Treaty of Guadalupe Hidalgo, unless the State of California expressly reserved public trust interests at the
federal patent proceeding. Stanford Vina argues that
Deer Creek and the Stanford Vina lands are former

App. 93
Mexican Land Grant lands, confirmed by patent in
1862, and that there is no evidence that the State expressly reserved public trust interests at the patent
proceeding. Accordingly, Stanford Vina contends the
public trust doctrine does not apply to Stanford Vina
and Deer Creek water rights.
And even if the public trust doctrine applies, Stanford
Vina contends the Water Board failed to conduct the
required balancing, or pay the required compensation,
when it “re-appropriated” Stanford Vina’s water for instream public trust purposes.
The Water Board contends that Stanford Vina has
failed to show the public trust doctrine does not apply
to Stanford Vina and Deer Creek water rights. The
court agrees. First, the evidence offered by Stanford
Vina fails to establish an unbroken chain of title leading back to a Mexican Land Grant. It also fails to establish the State did not reserve a public trust interest
at the patent proceeding. (As a general matter, the documents submitted to the court are largely unreadable.
Beyond that problem, Stanford Vina has failed to “connect the dots” between its arguments and the documents presented.)
Second, even if Stanford Vina could establish an unbroken chain of title, Stanford Vina’s reliance on
Summa is misplaced. Summa concerns a particular
application of the public trust doctrine, in the context
of tidal lands.
In Summa, the city of Los Angeles brought suit against
the fee owner of the Ballona Lagoon, a narrow body of

App. 94
water connected to Marina del Rey, a manmade harbor,
claiming that the lots underlying a lagoon were tidelands subject to a public trust easement. The city
wanted to dredge the lagoon and construct improvements in the lagoon without exercising its power of eminent domain. At issue in the case was whether the city
could assert a public trust easement in land which was
part of a Mexican land grant, patented by the United
States government pursuant to the Land Act of 1851.
The trial court ruled in favor of the city, finding that
the lagoon was subject to a public trust easement. The
Supreme Court of California affirmed the ruling of the
trial court, but the United States Supreme Court reversed. The United States Supreme Court held that
the public trust easement only exists over lands to
which California acquired title by virtue of its sovereignty upon admission to the Union. Under the Land
Act of 1851, California did not acquire title to lands
which were the subject of a prior Mexican land grant,
unless the State expressly reserved public trust interests at the federal patent proceedings. Having failed to
do so, California could not assert a public trust easement over the property. (Summa Corp., supra, 466 U.S.
198, 209; see also City of LA. v. Venice Peninsula Properties (1988) 205 Cal.App.3d 1522, 1526 [on remand].)
Stanford Vina relies on Summa for the proposition
that the public trust does not apply to waters overlying
Mexican Land Grant lands unless the State expressly
reserved such interests at the patent proceedings.
However, what Summa actually held is that the State
acquires no public trust easement in lands to which

App. 95
title was confirmed under the Land Act of 1851, unless
such interest was asserted in the patent proceedings.
(Summa Corp., supra, 466 U.S. at p.209; City of L.A. v.
Venice Peninsula Properties (1988) 205 Cal.App.3d
1522, 1529.)
Underlying Stanford Vina’s argument is its mistaken
assumption that the public trust doctrine is limited to
tidal and navigable bodies of water. The doctrine is not
so limited. (Center for Biological Diversity, Inc. v. FPL
Group, Inc. (2008) 166 Cal.App.4th 1349, 1360.) In National Audubon, the California Supreme Court held
that the public trust applies to certain natural resources that are not “owned” by the State of California
in the same sense as tidelands and the beds of navigable waterways. (National Audubon, supra, 33 Cal.3d
435-37; see also People v. Sweetser (1977) 72
Cal.App.3d 278, 283.)
Whatever its historical derivation, it has long been recognized that the public trust doctrine extends beyond
the right to use tidal and submerged lands and inland
navigable waterways for traditional public trust uses
(navigation, commerce, fishing). In People v. Truckee
Lumber Ca., the court found that a public trust fishery
interest sufficient to enjoin a lumber company from
polluting the Truckee River, even though the river was
not navigable. In rejecting the argument that the public trust applies only to navigable waters, the California Supreme Court ruled:
The dominion of the state for the purposes of
protecting its sovereign rights In the fish

App. 96
within its waters, and their preservation for
the common enjoyment of its citizens, is not
confined . . . [to] navigable or otherwise public
waters. It extends to all waters within the
state, public or private, wherein these animals
are habited or accustomed to resort for spawning or other purposes, and through which they
have freedom of passage to and from the public fishing grounds of the state. To the extent
that waters are the common passageway for
fish, although flowing over lands entirely subject to private ownership, they are deemed for
such purposes public waters, and subject to all
laws of the state regulating the right of fishery. (People v. Truckee Lumber Co. (1897) 116
Cal. 397, 400-401.)
This language in People v. Truckee Lumber is cited with
approval in California Trout, Golden Feather, and Center for Biological Diversity. (Cal. Trout, supra, 207
Cal.App.3d at pp.629-30; Golden Feather, supra, 209
Cal.App.3d at p.1286; Center for Biological Diversity,
supra, 166 Cal.App.4th at p.1363.)
In Center for Biological Diversity, the Court of Appeal
explicitly recognized that the public trust doctrine “is
not just a set of rules about tidelands.” (Id. at p.1360.)
Fish and wildlife resources also are protected by the
public trust. (Id. at pp.1361, 1363; see also Betchart v.
Department of Fish & Game (1984) 158 Cal.App.3d
1104, 1106.) And the State’s responsibility to preserve
and protect the public’s interest in fish and wildlife resources is not confined to tidelands and navigable waters. It extends to all state waters, public or private.

App. 97
(Truckee Lumber Co., supra, 116 Cal. at pp.400-01; see
also Cal. Trout, supra, 207 Cal.App.3d at p.630.)
In California Trout, the Third Appellate District Court
of Appeal recognized that “[t]he consequences of characterizing an interest of the state as a trust interest
are not uniform.” (Ibid.) The fact that there is a public
fishery interest in a non-navigable stream does not
mean that all of the public trust consequences applicable to navigable waters also apply to the non-navigable
stream. (Ibid.)
The Court used similar language in Golden Feather,
stating:
In the final analysis the public trust doctrine
cannot be divorced from the particular circumstances involved. In short, the circumstances which will warrant application of the
term “public trust” and the consequences of
characterizing an interest of the state as a
trust interest are not uniform. Where it is necessary to protect public trust interests the
state may have power over properties which
are not themselves within the public trust,
but this does not mean that such properties
are deemed to be added to the public trust, nor
that all incidents of the public trust are applicable to such properties. In all cases, the application of the public trust doctrine depends
upon the interest for which protection is
sought and the manner in which that interest
is to be protected. (Golden Feather, supra, 209
Cal.App.3d at pp.1285-1286 [citations omitted].)

App. 98
Thus, case law establishes that a variety of public trust
interests extend beyond the navigable waters and the
lands lying beneath them. (Center for Biological Diversity, supra, 166 Cal.App.4th at pp.1361, 1363.) Where
public trust interests are involved, the state has broad
powers to protect those interests, even if the affected
properties are not themselves within the public trust.
(Golden Feather, supra, 209 Cal.App.3d at p.1286.)
Summa represents an exception to the traditional application of the public trust to tidal and submerged
lands. It is based on the notion that any public interest
claimed in the tidelands was forfeited by the State’s
failure to assert it during the federal patent proceedings.
In this case, both the public trust interest sought to be
protected, and the manner in which it is to be protected, are different than Summa. The Water Board
did not seek to assert a public right to swim, bathe,
fish, hunt, or travel on Deer Creek. Nor did the Water
Board assert a navigational, commercial, or recreational easement, or any other interest, in the submerged bed of the creek. Rather, the Water Board has
asserted a public trust interest in the fish within the
creek and, as necessary, the waters within which the
fish live and migrate for reproduction.
Given the nature of the public trust interest at stake,
it makes no difference whether the State reserved a
public trust easement in the Stanford Vina lands. Failure to do so may prevent the State from asserting
certain public trust interests relating to title of the

App. 99
submerged lands covered by the Mexican Land Grants,
but it does not prevent the State from asserting public
trust interests in the fish within the creek. The Supreme Court’s decision in Summa Corp. simply does
not apply here.
The court also rejects, for lack of evidence, Stanford
Vina’s claim that the Water Board failed to take into
account the competing beneficial uses served by Deer
Creek water. The Board simply concluded that the
needs of the fish prevail over the competing other uses.
Although the Board also could have reached a contrary
conclusion, the court does not find that the Board’s decision was an abuse of discretion.
Stanford Vina’s claim that the State nevertheless is required to pay “just compensation” for curtailing Stanford Vina’s water use is a reiteration of its “takings”
claim, which, as discussed above, is not before the court
at this time.
Violation of the Water Rights Priority System
Stanford Vina argues that the emergency regulations
are unlawful because they violate the water rights priority system by elevating public trust uses of water to
a super-senior priority, ahead of all competing beneficial uses. Stanford Vina contends that the Water Board
does not have authority to restructure California water
law to grant public trust interests a super-senior priority.

App. 100
Stanford Vina argues that the Board further violated
the water rights priority system by curtailing all diversions necessary to ensure the minimum in-stream
flows would be met, without accounting for the relative
priorities of the water rights holders. Stanford Vina argues that, to the extent curtailment of water diversions
was necessary to meet minimum in-stream flows, the
Water Board was required to curtail water rights in the
order of their respective priorities. Neither claim has
merit under California’s rule of priority.
California operates under a “dual” or hybrid system of
water rights, which recognizes both riparian and appropriation rights.13 The riparian right confers upon
the owner of land the right to divert water flowing by
his land for reasonable and beneficial use upon his
land. Riparians have no rights to a specific amount of
water. Rather, they enjoy, as an incident of common
ownership with other riparians, a correlative share of
the natural flow. (Racanelli Decision, supra, 182
Cal.App.3d at pp.101, 104.) In times of shortage, all riparians must reduce their usage proportionately. (id.
at p.101.)
An appropriative water right is founded on and measured by the amount of water that is used for a reasonable and beneficial purpose. It applies to any diversion
of water for other than riparian or overlying uses.
13

In addition to riparian and appropriative rights, the State
recognizes “pueblo” rights of communities which succeeded to
public water rights granted to pueblos (communities or towns) by
the Spanish and Mexican governments. (Olmstead v. Son Diego
(1932) 124 CalApp. 14, 16.)

App. 101
(National Audubon, supra, 33 Cal.3d at p.441,) Unlike
riparians, appropriators need not own land contiguous
to the watercourse and may divert water for use on
noncontiguous lands. (Racanelli Decision, supra, 182
Cal.App.3d at pp.101-02; Siskiyou County Farm Bureau v. Department of Fish & Wildlife (2015) 237
Cal.App.4th 411, 423.)
Initially, appropriation rights were acquired by the actual diversion and use (i.e., appropriation) of the water.
(id. at pp.752-53; Racanelli Decision, supra, 182
Cal.App.3d at p.102.) Later, they were acquired by the
posting and recordation of notice. (Murrison, supra,
101 Cal.App.4th at p.359.) Beginning in 1914, by statute, the California Legislature established a permit
system, which has become the exclusive means of acquiring appropriative rights. (Racanelli Decision, supra, 182 Cal.App.3d at p.102.)
Under the permit scheme, a prospective appropriator
must apply to the Water Board for a permit authorizing the diversion and use of a specified quantity of water. If an appropriative water right permit is issued,
the permit holder has the right to take and use the water according to the terms of the permit.14 (ibid.)
Appropriative rights acquired prior to 1914 were
“grandfathered” into the statutory scheme, without
14

After the water has been put to beneficial use, the permittee may apply for a license confirming the right. If the license
holder violates any terms or conditions of the license, or fails to
apply the water to a beneficial purpose, the Board may revoke the
license.

App. 102
any requirement to apply for a permit. These rights are
commonly referred to as “pre-1914 rights.” (Murrison,
supra, 101 Cal.App.4th at p.359 fn.6.) The Water Board
has no permitting or licensing authority over pre-1914
rights, but it does have the authority to prevent illegal
diversions and to prevent waste or unreasonable use of
water by holders of pre-1914 water rights. (California
Farm Bureau Federation v. State Water Resources Control Bd. (2011) 51 Cal.4th 421, 429.)
In general, the appropriation doctrine is premised on
the rule of “first In time, first in right.” Under the prior
appropriation doctrine, a person who diverts or appropriates water from a watercourse and puts it to a reasonable and beneficial use acquires a right to that use
which is superior to the rights of later appropriators.
The senior appropriator is entitled to fulfill its needs
before a junior appropriator is entitled to use any water. (Racanelli Decision, supra, 182 Cal.App.3d at
pp.101-02.)
However, appropriation rights are subordinate to riparian rights. Thus, in times of shortage, riparians are
entitled to fulfill their needs before appropriators are
entitled to any water use. (ibid.) And because a riparian right extends to future reasonable beneficial uses
of water, an expanded riparian use has the potential to
preempt an inferior appropriative right where the supply of water originally was sufficient to satisfy both
uses. (See Pleasant Valley Canal Co. v. Borror (1998) 61
Cal.App.4th 742, 777; cf. In re Waters of Long Volley
Creek Stream Sys. (1979) 25 Cal.3d 339, 359.)

App. 103
Thus, under California’s “rule of priority,” the rights of
riparian users are paramount. Riparians are entitled
to satisfy their reasonable needs first, before appropriators can divert any water. As between appropriators,
the rule of priority is “first in time, first in right.’ Subject
to the terms and conditions of any permit/license, senior
appropriators are entitled to satisfy their reasonable
needs, up to their full appropriation, before more junior
appropriators are entitled to any water. (Light, supra,
226 Cal.App.4th at p.1478.)
Water right priority has long been a “central principle”
in California water law. (El Dorado frit. Dist. v. State
Water Resources Control Bd. (2006) 142 Cal.App.4th
937, 961.) In general, “[e]very effort . . . must be made
to respect and enforce the rule of priority.” (Id. at
p.966.) However, case law establishes that the rule of
priority is not absolute; a competing principle or interest may justify the Water Board taking action inconsistent with a strict application of the rule of priority.
(Id. at p.955.)
The reasonable use doctrine and public trust doctrine
are two examples of principles that may compete
against the rule of priority. In El Dorado Irrigation
District, the Third Appellate District Court of Appeal
ruled that when the rule of priority clashes with the
rule against unreasonable use of water or the public
trust, the rule of priority must yield. (Id. at p.966.)
Nevertheless, before the Board subverts the rule of priority, the Board first must make “every effort” to enforce the rule of priority “if possible.” (Id. at pp.966-67,

App. 104
970-71.) In other words, In such circumstances the
subversion of a water right priority is justified only if
enforcing that priority will in fact lead to the unreasonable use of water or result in harm to values protected by the public trust.” (Id. at p.967.)
In El Dorado, the Court considered whether the Water
Board’s decision to include a term in a senior appropriator’s permit, requiring the appropriator to curtail its
diversions to meet water quality objectives, violated
the rule of priority because the Board did not impose
the same term on junior appropriators. The Court held
that subversion of the senior appropriator’s priority
was not justified by the Board’s interest in protecting
Delta water quality. While the Board has a legitimate
interest in requiring the senior appropriator to “contribute” toward the improvement of water quality, this
did not justify the Board including the term in the senior appropriator’s permit without including the same
term in the licenses and permits of more junior appropriators. (id. at p.972.)
In Light v. State Water Resources Control Bd. (2014)
226 Cal.AppAth 1463, the plaintiffs argued that the
Board violated the rule of priority by adopting a regulation that “redefined” an existing beneficial use (use
of water to prevent frost damage to crops) as “unreasonable,” to protect another beneficial use to which the
Board ascribed a higher priority (maintaining stream
levels to avoid salmonid deaths). The First Appellate
District Court of Appeal held that the Board’s regulation did not on Its face violate the rule of priority. The
Court held that the Water Board has authority to

App. 105
allocate water in a manner inconsistent with the rule
of priority when doing so is necessary to prevent an
unreasonable use of water or a use of water that is
harmful to the public trust’s15 (Light, supra, 226
Cal.App.4th at pp.1489-90.)
The same court reached a similar conclusion in the
Racanelli Decision (United States v. State Water Resources Control Board). In that case, the plaintiffs
sought to invalidate a water quality plan establishing
new water quality standards for the protection of fish
and wildlife, and an accompanying water rights decision modifying permits to compel operators to meet the
new standards. The Court upheld the Board’s actions,
concluding that the Board has the power to modify permits to protect the public interest and give a higher
priority to “a more preferred beneficial use even
though later in time.” (Raconelli Decision, supra, 182
Cal.App.3d at p.132 [citing East Bay M. U. Dist. v. Dept.
of P. Wks. (1934) 1 Cal.2d 476].)

15

In reaching its holding, the Court noted that the regulation
did not declare any specific diversion of water unreasonable; the
regulation delegated to “water demand management programs”
(“WDMPs”) the task of managing and reducing frost protection
diversions to prevent salmonid strandings. Although the regulation requires WDMPs to respect the rule of priority, the court
acknowledged the possibility that Implementation of the regulation may result in priority rule violations. However, the Court
found such concerns “premature” until “specific regulatory
measures” are put into effect by the WDMPs. (Light, supra, 226
Cal.App.4th at p.1490.)

App. 106
Established case law makes clear that the Board has
the authority to deviate from the rule of priority to protect public trust interests. Implementation of the minimum in-stream flows in this case may require
deviation from the rule of priority. Upstream diverters
– which, in this case, hold senior water rights – must
curtail their diversions to allow sufficient water to pass
to meet the minimum in-stream flows. Downstream diverters – holding more junior water rights – may be
allowed to divert water. However, this is necessary to
meet the minimum in-stream flows which the Board
imposed to protect the public trust. Thus, the emergency regulations are not unlawful because they “elevate” the public trust above Stanford Vina’s competing
agricultural irrigation uses.
Under the emergency regulations, the Water Board
purportedly would curtail diverters in the order of priority, as necessary to meet minimum flow requirements. It is certainly possible that, in implementing
the emergency regulations through curtailment orders, the Board could violate the rule of priority by failing to curtail water rights in the order of their
respective priorities, where it is possible to do so. However, the court is unable to reach any conclusions on
this issue based on the record presently before the
court.
Violation of the Judicial Water Rights Decree
Stanford Vina argues that the Tehama County Superior Court Judgment adjudicated all of the water rights

App. 107
on Deer Creek and that the emergency regulations unlawfully ignored and contradicted the court’s Judgment. Citing Water Code section 2773, Stanford Vina
argues that the Tehama County court’s decree is conclusive as to the rights of all existing claimants upon
the stream system, and cannot be changed except by
another court order.
The Water Board argues, persuasively, that while the
court’s judgment settled questions of apportionment
among the parties to the litigation, it does not bind or
preclude the Board from exercising jurisdiction to prevent illegal diversions, unreasonable use of water, or
harm to the public trust. (See California Farm Bureau,
supra, 51 Cal.4th at p.429; National Audubon, supra,
33 Cal.3d at p.447; see also In re Waters of Long Valley
Creek Stream Sys. (1979) 25 Cal.3d 339, 359-360.)
Further, as the Water Board points out, the 1923 consent decree predated the adoption of Article X, section
2, establishing the “reasonable use” doctrine, which is
applicable to all water rights. Under that constitutional provision, no one can obtain a vested right to an
unreasonable use of water.
Unlawful Exercise of “Emergency” Powers under Water Code Section 1058.5
Stanford Vina argues that the emergency regulations
were not lawful exercises of emergency authority because the conditions in Deer Creek did not constitute
a “true emergency.” As support, Stanford Vina cites to

App. 108
California’s Administrative Procedures Act (APA),16
which prohibits a finding of emergency based only
upon “expediency, convenience, best interest, general
public need, or speculation.” (Cal. Gov. Code § 11346.1.)
The APA also provides that if the situation identified
in a finding of emergency existed and was known by
the agency in sufficient time to have been addressed
through nonemergency regulations, the finding of
emergency “shall include facts explaining the failure to
address the situation through nonemergency regulations.” (Ibid.) Stanford Vina argues that no such findings were made by the Water Board.
Stanford Vina also cites case law defining an emergency for purposes of the requirement to pay “Just
compensation” for a taking of private property. Such
cases define an emergency as an “unforeseen situation”
of “grave character and serious moment,” presenting
an Imminent and substantial threat to public health
or safety,” and “calling for immediate action. (Los Osos
Valley Associates v. City of San Luis Obispo (1994) 30
Cal.App.4th 1670, 1681; see also Odell Bros. v. County
of Monterey (1998) 63 Cal.App.4th 778, 789; Rose v.
City of Coalinga (1987) 190 Cal.App.3d 1627, 1634.)
In addition, Stanford Vina points to the Legislature’s
definition of emergency for purposes of the Emergency
16

The Administrative Procedures Act provides that a regulation may be declared invalid for a substantial failure to comply
with the procedural requirements of the act, including, in the case
of an emergency regulation, that the facts recited in a finding of
emergency do not constitute an emergency within the provisions
of Section 11346.1. (Cal. Gov. Code § 11350.)

App. 109
Services Act: “‘Emergency’ means a situation that calls
for immediate action to avoid serious harm to the public peace, health, safety, or general welfare.” (Cal. Gov.
Code § 11342.545.)
Stanford Vina contends that the Water Board cannot
reasonably argue that there was a true “emergency”
since drought is a regular occurrence in California, the
dry conditions in Deer Creek were foreseeable, there
was no imminent and substantial threat to public
health or safety, and there was sufficient time to address the conditions in Deer Creek through nonemergency regulations, especially for the 2015 regulations.
Stanford Vina also argues that the Board’s actions
were a pretext for implementing a long-term plan to
increase in-stream flows.
The court finds no unlawful exercise of emergency
powers. Although Stanford Vina focuses on the emergency authority of the APA, the water board acted under the emergency authority of California Water Code
section 1058.5. That section authorizes the broad to
adopt emergency regulation to, among other things,
prevent “waste, unreasonable use, unreasonable
method of use, or unreasonable method of diversion.”
(Cal. Wat. Code § 1058(a)(1).) Under Section 1058.5, an
emergency regulation may be adopted in response to
conditions which exits, or are threatened to exist, in a
“critically dry year immediately preceded by two or
more consecutive below normal, dry, or critically dry
years,” or “during a period for which the Governor has
issued a proclamation of a state of emergency under

App. 110
the California Emergency Services Act . . . based on
drought conditions.” (Cal. Wat. Code § 1058.5(A)(2).)
Here, because California was in the third year of a severe drought, the Governor issued a proclamation of
the state of emergency under the California Emergency Services Act based on drought conditions. The
Board properly relied on the Governor’s proclamation
as authority to enact the emergency regulations to prevent the “waste and unreasonable use of water” in priority water bodies for threatened and endangered
anadromous fish species.
While Stanford Vina may not agree that the conditions
in the state rose to the level of an “emergency” under
the California Emergency Services Act, it was the Governor, not the Water Board, who declared an “emergency” under the Act. Stanford Vina did not challenge
the Governor’s proclamation, and the Board had no independent duty to determine whether it was correct.
In any event, the evidence in the record is sufficient to
establish that, when the emergency regulations were
enacted, California was in the midst of its third consecutive dry year, which, by itself, authorizes the Board to
act.
When the Board proceeds under Section 1058.5, it is
somewhat unclear whether the Board is required to
make the findings of emergency typically required by

App. 111
section 11346.1 of the APA.17 Section 1058.5 is clear
that any findings of emergency adopted by the Board
are not subject to review by the Office of Administrative Law. (Cal. Wat. Code § 1058.5(b).)
In this case, whether required by the APA or not, the
Board made a specific Finding of Emergency for the
regulations. (See AR 7729-55, 8471-81,10535-46.) The
Board’s findings documented the extreme drought conditions and the need for an emergency regulation to
maintain minimum stream flows for anadromous fish
during critical migration periods. The Board’s findings
are supported by substantial evidence.18
Stanford Vina argues Water Code section 1058.5 only
authorizes emergency regulations to prevent waste or
unreasonable use, not for the purpose of protecting
public trust fishery resources. Stanford Vina argues
17

While the court would tend to agree that a finding of emergency was required, it is not clear whether the APA’s definition of
‘emergence applies.
18
The court acknowledges that the Board had sufficient time
between the adoption of the 2014 and 2015 emergency regulations
to address the problem through nonemergency regulations. However, it was not clear until early 2015 whether the drought would
persist through 2015. The Fishery Agencies formally requested
the 2015 regulations on February 2, 2015, and the emergency regulations were adopted one month later, in March. The court expresses no opinion on whether similar regulations would be
justified under the Board’s “emergency” authority, in light of the
Board’s acknowledgement, in 2014, that such measures are
likely” to be required in the future. If the Board knows that minimum instream flow requirements will be necessary during
“drought conditions,” it would seem prudent for the Board to
adopt those requirements now, rather than wait for the “emergency” conditions.

App. 112
that diversion and use of water for agricultural irrigation is not waste or an unreasonable use of water, even
if public trust fishery resources would benefit from
leaving the water in-stream. However, as described
above, in light of the unique circumstances present
here, it was not an abuse of discretion for the Water
Board to conclude that diversions which would reduce
flows below the minimum, “belly-scraping” amount
needed for fish are “unreasonable.”
Unlawful Amendment of the Regulations on the Day
of Adoption
Government Code section 11346.1(a)(2) states that an
agency adopting an emergency regulation must give a
notice of the specific language proposed to be adopted
at least five working days before submitting the emergency regulation to the Office of Administrative Law.
Stanford Vina argues that the Water Board violated
this statute by amending the language of the proposed
regulations on the day they were adopted, without giving the required the five days’ notice. The court is not
persuaded.
As an initial matter, the court notes that the requirement to provide notice of changes to regulatory language ordinarily does not apply when the changes are
either (1) nonsubstantial or grammatical in nature, or
(2) sufficiently related to the original text that the public was adequately placed on notice that the change
could result from the originally proposed regulatory
action. (Cal. Gov. Code § 11346.8.) Stanford Vina has

App. 113
failed to show that the changes at issue here were “substantial” or not “sufficiently related” to trigger the renotice requirements under Section 11346.8.19
In any event, Section 11346.1 of the APA, governing
emergency regulations, provides that the adoption,
amendment, or repeal of an emergency regulation is
not subject to any provision of Article 5 or 6 of the APA
except for Sections 11346.1, 11349.5, and 11349.6.
(Cal. Gov. Code § 11346.1(a)(1).) Although Section
11346.1, subdivision (a)(2) requires an agency to provide at least five business days’ notice of the “specific
language proposed to be adopted,” subdivision (0(3)
provides that an agency is not required to provide the
notice required by paragraph (2) if the emergency situation poses such an immediate, serious harm that delaying action to allow public comment would be
inconsistent with the public interest. Stanford Vina
has failed to address this provision in any manner. For
these reasons, the court rejects the claim that the
Board unlawfully amended the regulations in violation
of the APA.

19

Although Stanford Vina cites numerous pages of the record – AR 8340-48, 8394-97, 8402-15, 8417.19, 8457518, 8685-700,
8751-34, 10272-73, 10499-620 – Stanford Vina falls to articulate
what the precise changes were and explain why they were “significant.” This by itself is grounds to deny the claim, as a reviewing court is not required to consider points not adequately argued
or supported with citation to authority. The court has no duty to
construct an argument on a petitioner’s behalf.

App. 114
Disposition
Stanford Vina’s writ claims (and the related requests
for declaratory relief ) are DENIED. This ruling shall
serve as the court’s statement of decision with regard
to such claims. Counsel for the State Water Board is
directed to prepare a formal interlocutory judgment on
the bifurcated claims; submit it to opposing counsel for
approval as to form; and thereafter submit it to the
court for signature and entry of judgment in accordance with Rule of Court 3.1312.
Dated: August 2, 2017

/s/ Timothy M. Frawley
Timothy M. Frawley
Superior Court Judge
County of Sacramento
[SEAL]

[CERTIFICATE OF SERVICE
BY MAILING OMITTED]

App. 115
APPENDIX E
PAUL R. MINASIAN (SBN 040692)
JACKSON A. MINASIAN (SBN 311031)
MINASIAN, MEITH, SOARES,
SEXTON & COOPER, LLP
1681 Bird Street
P.O. Box 1679
Oroville, California 95965-1679
Telephone: (530) 533-2885
Facsimile: (530) 533-0197
Email: pminasian@minasianlaw.com
iminasian@minasianlaw.com
Attorneys for: Plaintiff-Petitioner
IN THE SUPERIOR COURT OF
THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF SACRAMENTO
STANFORD VINA RANCH
IRRIGATION COMPANY,
Plaintiff-Petitioner,
v.
STATE OF CALIFORNIA,
STATE WATER
RESOURCES CONTROL
BOARD, STATE WATER
RESOURCES CONTROL
BOARD MEMBERS
FELICIA MARCUS,

)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.
34-2014-80001957
[proposed]
JUDGMENT
Hearing Date:
March 24, 2017
Time: 10:00 a.m.
Department: 29
Judge: Hon Timothy
M. Frawley
(Filed Sep. 6, 2017)

App. 116
DOREEN D’ADAMO,
FRANCES SPIVY-WEBER,
STEVEN MOORE, AND
TAM DODUC; and DOES 1
THROUGH 20,

)
)
)
)
)
Defendants-Respondents )
)

The Court does hereby enter Judgment in favor of
Defendants-Respondents STATE OF CALIFORNIA,
STATE WATER RESOURCES CONTROL BOARD,
STATE WATER RESOURCES CONTROL BOARD
MEMBERS FELICIA MARCUS, DOREEN D’ADAMO,
FRANCES SPIVY-WEBER, STEVEN MOORE, AND
TAM DODUC; and DOES 1 THROUGH 20, and
against Plaintiff-Petitioner STANFORD VINA RANCH
IRRIGATION COMPANY on all Causes of Action. This
Judgment is entered on all Causes of Action despite
the Bifurcation of proceedings, because the Court’s
findings in the Amended Statement of Decision preclude Stanford Vina Ranch Irrigation Company from
prevailing on any of the Causes of Action presented in
the First Amended Complaint, and therefore all of
Stanford Vina Ranch Irrigation Company’s claims are
hereby denied.

App. 117
The Defendants-Respondents are awarded their
costs.
Dated: Sept. 6, 2017
By /s/ Timothy M. Frawley
TIMOTHY M. FRAWLEY
Judge of the Superior Court
APPROVED AS TO FORM:
Dated:

ATTORNEY GENERAL OF THE
STATE OF CALIFORNIA:
By: __________________________________
CAROLYN NELSON ROWAN
Attorneys for Defendants-Respondents
STATE OF CALIFORNIA,
STATE WATER RESOURCES
CONTROL BOARD, STATE WATER
RESOURCES CONTROL BOARD
MEMBERS FELICIA MARCUS,
DOREEN D’ADAMO, FRANCES
SPIVY-WEBER, STEVEN MOORE,
AND TAM DODUC; and DOES I
THROUGH 20

App. 118
APPENDIX F
Court of Appeal, Third Appellate District –
No. C085762
S263378
IN THE SUPREME COURT OF CALIFORNIA
En Banc
(Filed Sept. 23, 2020)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

STANFORD VINA RANCH IRRIGATION COMPANY,
Plaintiff and Appellant,
v.
STATE OF CALIFORNIA et al.,
Defendants and Respondents.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

The petition for review is denied.
The requests for an order directing depublication
of the opinion are denied.
CANTIL-SAKAUYE
_____________________
Chief Justice

App. 119
APPENDIX G
Cal. Const. Art. 10, § 2
§ 2. Conservation of water resources; restriction on
riparian rights
Sec. 2. It is hereby declared that because of the conditions prevailing in this State the general welfare requires that the water resources of the State be put to
beneficial use to the fullest extent of which they are
capable, and that the waste or unreasonable use or unreasonable method of use of water be prevented, and
that the conservation of such waters is to be exercised
with a view to the reasonable and beneficial use
thereof in the interest of the people and for the public
welfare. The right to water or to the use or flow of water
in or from any natural stream or water course in this
State is and shall be limited to such water as shall be
reasonably required for the beneficial use to be served,
and such right does not and shall not extend to the
waste or unreasonable use or unreasonable method of
use or unreasonable method of diversion of water. Riparian rights in a stream or water course attach to, but
to no more than so much of the flow thereof as may be
required or used consistently with this section, for the
purposes for which such lands are, or may be made
adaptable, in view of such reasonable and beneficial
uses; provided, however, that nothing herein contained
shall be construed as depriving any riparian owner of
the reasonable use of water of the stream to which the
owner’s land is riparian under reasonable methods of
diversion and use, or as depriving any appropriator of
water to which the appropriator is lawfully entitled.

App. 120
This section shall be self-executing, and the Legislature may also enact laws in the furtherance of the policy in this section contained.

App. 121
APPENDIX H
CORRECTED VERSION
CERTIFICATION DATE INCORRECT
STATE WATER RESOURCES CONTROL BOARD
RESOLUTION NO. 2014-0023
TO ADOPT EMERGENCY REGULATIONS FOR
CURTAILMENT OF DIVERSIONS DUE TO
INSUFFICIENT FLOW FOR SPECIFIC FISHERIES
*

*

*

5.

The National Marine Fisheries Service, in
conversation with Department of Fish and
Wildlife and United States Fish and Wildlife
Service, has identified the Sacramento River
tributaries Mill, Deer and Antelope creeks
as priority watersheds for sustaining the CV
SR Salmon and the CCV Steelhead. These
streams contain migration, spawning, and
rearing habitat for some of the last remaining
naturally-produced populations of threatened
CV SR Salmon and the CCV Steelhead. The
National Marine Fisheries Service has identified minimum flows in Mill, Deer and Antelope creeks below which significant harm to
the species would occur. These flows establish
a minimum flow needed for passage of migrating fish to and from spawning and rearing
grounds in the watersheds above major diversions in the lower watersheds;

6.

The importance of Deer, Mill, and Antelope
creeks to the survival and recovery of salmon
and steelhead in the Northern California’s
Central Valley is significant. Of the 19

App. 122
independent spring-run Chinook salmon populations that historically occurred in the Central Valley, the Deer, Mill, and Antelope creek
populations are among the last of a small
group of naturally-produced populations. Mill
and Deer creeks are identified in the National
Marine Fisheries’ Services’ Draft Central Valley Salmon and Steelhead Recovery Plan as
Core 1 populations for CV SR Salmon and
CCV Steelhead. Antelope Creek is a Core 1
population for CCV Steelhead and a Core 2
population for CV SR Salmon. Preserving and
restoring Core 1 populations is the foundation
of the recovery strategy because Core 1 populations are considered to have the greatest
potential to support independent viable populations. Core 2 populations are assumed to
have the potential to meet the moderate risk
of extinction criteria and protecting these populations is also a priority of the recovery plan;
7.

These three streams are unique in the Central Valley because they support naturallyproduced populations of CV SR Salmon and
CCV Steelhead, yet have no upstream water
storage facilities that can be managed to
buffer the effects of drought on stream flow
and water temperature requirements for
these fish species. Instead, all of the water
management facilities and water use occur on
downstream reaches near the confluence with
the Sacramento River, and their careful management is needed this year to ensure CV
SR Salmon and CCV Steelhead are able to
successfully migrate upstream to spawning

App. 123
habitat and downstream to the Sacramento
River;
8.

The State Water Resources Control Board
(State Water Board) has a duty to protect,
where feasible, the state’s public trust resources, including fisheries. (National Audubon Society v. Superior Court (1983) 33 Cal.3d
419.);

9.

The State Water Board also has the authority
under article X, section 2 of the California
Constitution and Water Code section 100 to
prevent the waste or unreasonable use, unreasonable method of use, or the unreasonable
method of diversion of all waters of the State.
Water Code section 275 directs the State Water Board to “take all appropriate proceedings
or actions before executive, legislative, or judicial agencies . . . ” to enforce the constitutional and statutory prohibition against
waste, unreasonable use, unreasonable
method of use, or unreasonable method of diversion, commonly referred to as the reasonable use doctrine. The reasonable use doctrine
applies to the diversion and use of both surface water and groundwater, and it applies irrespective of the type of water right held by
the diverter or user. (Peabody v. Vallejo (1935)
2 Cal.2d 351.) What constitutes reasonable
water use is dependent upon not only the entire circumstances presented but varies as the
current situation changes. (Environmental
Defense Fund, Inc. v. East Bay Mun. Untility
Dist. (1980) 26 Cal.3d 183, 194.);

App. 124
10. The State Water Board has determined, based
on the best available information that certain
minimum flows are necessary in the identified
watersheds, below which levels serious harm
and endangerment to the species may occur.
The State Water Board recognizes that these
drought emergency minimum flows do not
represent optimal passage conditions for CV
SR Salmon and CCV Steelhead. The State
Water Board has identified the need for these
drought emergency minimum flows during
this drought period due to the lack of developed alternative water supplies to meet these
emergency water supply conditions. Application of the reasonable use doctrine under
these circumstances requires particularized
consideration of the benefits of diverting water for current uses from the identified water
bodies and the potential for harm to the protected species from such diversions under the
current drought conditions. Having considered the available information, the Board
finds that, during the current drought conditions, curtailment of diversions that would
cause flows in these creeks to drop below
these minimum passage levels is necessary to
prevent the waste, unreasonable use, unreasonable method of use or unreasonable
method of diversion, of water. This finding is
narrowly targeted only to diversions of water,
under the current extraordinary drought conditions, needed to afford minimal protection to
migrating CV SR Salmon and CCV Steelhead,
and should not be construed as a finding

App. 125
concerning the reasonableness of these diversions in general;
*

*

*

13. The regulation would provide that diversions
from Mill, Deer and Antelope creeks are unreasonable if those diversions would cause
flows to drop below the specified minimums.
Under the regulation, such diversions would
be curtailed as appropriate to maintain those
minimum flows, with the exception of diversions necessary for minimum health and
safety needs. Diversions for minimum health
and safety needs may not be curtailed, notwithstanding a lower seniority than other,
curtailed rights. The diversion or use of water
in violation of this regulation would be an unreasonable diversion or use and a violation of
Water Code section 100;
14. On May 13 and 14, 2014, the State Water
Board issued public notice that the State Water Board would consider the adoption of the
regulation at the Board’s regularly-scheduled
May 20, 2014 public meeting, in accordance
with applicable State laws and regulations.
The State Water Board also distributed for
public review and comment a Finding of
Emergency that complies with State laws and
regulations;
*

*

*

18. As discussed above, the State Water Board is
adopting emergency regulations because of
the emergency drought conditions, the need
for prompt action, and the unique attributes

App. 126
of these three tributaries. The vehicle of
adopting emergency regulations to identify a
minimum flow requirement for fisheries protection and health and safety requirements is
an appropriate approach in these limited circumstances, but this approach is not the
Board’s preferred alternative to identify, balance, and implement instream flow requirements. The Board reaffirms its preference for
undertaking adjudicative water right proceedings to assign responsibility for meeting
instream flows;
19. Pursuant to Water Code section 7, the State
Water Board is authorized to delegate authority to the Executive Director and to the Division of Water Rights Deputy Director. The
State Water Board has delegated authority to
the Executive Director and to the Division of
Water Rights Deputy Director; and
THEREFORE BE IT RESOLVED THAT:
1.

The State Water Resources Control Board
adopts Title 23, Division 3, Chapter 2, Article
24, Sections 877 through 879.2 as appended to
this resolution as an emergency regulation;

2.

The State Water Board staff submit the regulation to the Office of Administrative Law
(OAL) for final approval;

3.

If, during the approval process, State Water
Board staff, the State Water Board, or OAL
determines that minor corrections to the
language of the regulation or supporting
documentation are needed for clarity or

App. 127
consistency, the State Water Board Executive
Director or designee may make such changes;
and
4.

The State Water Board delegates to the Division Deputy Director the authority to act on
requests for approvals pursuant to the regulation.
CERTIFICATION

The undersigned Clerk to the Board does hereby certify that the foregoing is a full, true, and correct copy
of a resolution duly and regularly adopted at a meeting
of the State Water Resources Control Board held on
May 21, 2014.
AYE:

Chair Felicia Marcus
Vice Chair Frances Spivy-Weber
Board Member Tam M. Doduc
Board Member Steven Moore
Board Member Dorene D’Adamo

NAY:

None

ABSENT:

None

ABSTAIN:

None
/s/ Jeanine Townsend
Jeanine Townsend
Clerk to the Board

App. 128
In Title 23, Division 3, Chapter 2, add Article 24, Sections 877 through 879.2 to read:
Article 24. Curtailment of Diversions Based
on Insufficient Flow to Meet All Needs
§ 875 [reserved]
§ 876 [reserved]
§ 877 Emergency Curtailment Where Insufficient
Flows are Available to Protect Fish in Certain
Watersheds
The State Water Resources Control Board has
determined that it is a waste and unreasonable use under Article X, section 2 of the California Constitution to continue diversions
that would cause or threaten to cause flows to
fall beneath the drought emergency minimum
flows listed in subdivision (c), except as provided in section 878.1.
(a) For the protection of threatened and endangered fish, no water shall be diverted from the
streams listed below during the effective period of a curtailment order under this article,
except as provided under sections 878, 878.1
or 878.2.
(b) The Deputy Director for the Division of Water
Rights (Deputy Director) may issue a curtailment order upon a determination that without curtailment of diversions flows are likely
to be reduced below the drought emergency
minimum flows specified in subdivision (c).
Curtailment orders shall be effective the day

App. 129
after issuance. Except as provided in sections
878, 878.1, and 878.2, where flows are sufficient to support some but not all diversions,
curtailment orders shall be issued in order of
priority.
In determining which diversions should be
subject to curtailment, the Deputy Director
shall take into account the need to provide
reasonable assurance that the actual drought
emergency minimum flows will be met.
*

*

*

(c) The State Board has authority to ensure the
protection and preservation of streams ad to
limit diversions to protect critical flows for
species, including for state and federally
threatened and endangered salmon and steelhead species. To prevent the waste and unreasonable use of water, the Deputy Director may
issue curtailment orders as described in subdivision (b). The flows described in this subdivision may be less than otherwise desirable
minimum flows for fisheries protection, but
have been developed to ensure a bare minimum instream flows for migratory passage
during the drought emergency, given the unprecedented nature of the current drought
and the drought impacts to these fisheries.
This section shall only go into effect if the Executive Director determines that any agreements in any applicable watersheds entered
into by diverters, National Marine Fisheries
Service and California Department of Fish
and Wildlife either do not cover substantially

App. 130
all of the water diverted in the watershed or
that the agreements are no longer in effect.
(1) Mill Creek. Mill Creek enters the Sacramento River at Army Corps of Engineers
river mile 230 from the east near Los Molinos and approximately one mile north of
the town of Tehama. All water right holders in the Mill Creek watershed are
subject to curtailment pursuant to subdivision (b) and responsible to meet the
drought emergency minimum flows identified in this subdivision. For purposes of
this article, the following flows are the
drought emergency minimum flows necessary for migratory passage of state and
federally listed Central Valley spring-run
Chinook salmon (CV SR Salmon) and federally listed California Central Valley
steelhead (CCV Steelhead) through the
Sacramento Valley floor stream reaches
in Mill Creek:
(A) April 1 up to June 30, if Adult CV SR
Salmon are present (i)

Base Flows – 50 cfs or full flow
without diversions, whichever is
less.

(ii) Pulse Flows – 100 cfs or full flow
without diversions, whichever is
less. Pulse flows may be required
when Adult CV SR Salmon are
observed between Ward dam and
the Sacramento River. When required, pulse flows are in lieu of,

App. 131
not in addition to, base flow requirements. The pulse flow will
last a minimum of 24 hours to a
maximum of 72 hours, and will
be determined based on the presence of fish observed and desired
migration movements upstream.
*

*

*

(B) June 1 up to June 30, if Juvenile CV
SR Salmon or Juvenile CCV Steelhead are present –
(i)

*

Pulse Flows – 100 cfs or full inflow without diversions, whichever is less. Pulse flows may be
required when juvenile CV SR
Salmon or CCV Steelhead are
observed in the lower reaches of
Mill Creek. When required,
pulse flows are in lieu of, not in
addition to, base flow requirements. The pulse flow will last a
minimum of 24 hours to a maximum of 48 hours, and will be determined by the presence of fish
observed and desired migration
movements downstream into the
Sacramento River.
*

*

(2) Deer Creek. Deer Creek enters the Sacramento River at Army Corps of Engineers
river mile 220 from the east approximately 1 mile west of the two of the town
of Vina. All water right holders in the

App. 132
Deer Creek watershed are subject to curtailment pursuant to subdivision (b) and
responsible to meet the drought emergency minimum flows identified in this
subdivision. For purposes of this article,
the following flows are the drought emergency minimum flows necessary for migratory passage of state and federally
listed CV SR Salmon and federally listed
CCV Steelhead through the Sacramento
Valley floor stream reaches in Deer
Creek:
(A) April 1 up to June 30, if Adult CV SR
Salmon are present –
(i)

Base Flows – 50 cfs or full flow
without diversions, whichever is
less.

(ii) Pulse Flows – 100 cfs or full flow
without diversions, whichever is
less. Pulse flows may be required
when Adult CV SR Salmon are
observed between Vina Dam and
the Sacramento River. When required, pulse flows are in lieu of,
not in addition to, base flow requirements. The pulse flow will
last a minimum of 24 hours to a
maximum of 72 hours, and will
be determined by the presence of
fish observed and desired migration movements upstream. The
duration will be determined by

App. 133
the Deputy Director in consultation with California Department
of Fish and Wildlife or the National Marine Fisheries Services.
*

*

*

(B) June 1 up to June 30, if Juvenile CV
SR Salmon or Juvenile CCV Steelhead are present –
(i)

*

Pulse Flows – 100 cfs or full flow
without diversions, whichever is
less. Pulse flows may be required
when juvenile CV SR Salmon or
CCV Steelhead are observed in
the lower reaches of Deer Creek.
When required, pulse flows are
in lieu of, not in addition to, base
flow requirements. The pulse
flow will last a minimum of 24
hours to a maximum of 48 hours,
and will be determined by the
presence of fish observed and desired migration movements
downstream into the Sacramento River. The duration will
be determined by the Deputy Director in consultation with California Department of Fish and
Wildlife or the National Marine
Fisheries Service.
*

*

App. 134
(C) October 1- March 31, if Adult CCV
Steelhead are present – (i) Base
Flows – 50 cfs or full flow without diversions, whichever is less.
(D) November 1 – June 30, if Juvenile CV
SR Salmon or Juvenile CCV Steelhead are present and adult CV SR
Salmon or Adult CCV Steelhead are
not present(i) Base Flows – 20 cfs or
full flow without diversions, whichever is less.
(E) The California Department of Fish
and Wildlife and/or the National Marine Fisheries Service may conduct
field surveys and notify the Deputy
Director when the pertinent migration periods have ended. The Deputy
Director shall, no later than the next
business day, suspend curtailment
orders that are based on the need for
a particular flow volume when presence of adult or juvenile CV SR
Salmon and CCV Steelhead or hydrologic conditions no longer support the
need for the required flows.
(F) The California Department of Fish
and Wildlife and/or the National Marine Fisheries Service may conduct
field surveys and notify the Deputy
Director that the pertinent the
migration periods have not yet begun. The Deputy Director may choose
not to issue curtailment orders for

App. 135
purposes of meeting the drought
emergency minimum flows identified
in this subdivision if these agencies
have not determined that fish are
present and in need of the identified
flows.
(3) Antelope Creek. Antelope Creek enters
the Sacramento River at Army Corps of
Engineers river mile 235 from the east
approximately nine miles southeast of
the town of Red Bluff. All water right
holders in the Antelope Creek watershed
are subject to curtailment pursuant to
subdivision (b) and responsible to meet
the drought emergency minimum flows
identified in this subdivision. For purposes of this article, the following flows
are the drought emergency minimum
flows necessary for migratory passage of
state and federally listed CV SR Salmon
and federally listed CCV Steelhead
through the Sacramento Valley floor
stream reaches in Antelope Creek:
(A) April 1 up to June 30, if Adult CV SR
Salmon are present –
(i)

Base Flows – 35 cfs or full flow
without diversions, whichever is
less.

(ii) Pulse Flows – 70 cfs or full flow
without diversions, whichever is
less.

App. 136
Pulse flows may be required
when Adult CV SR Salmon are
observed between the Edwards/
Los Molinos Mutual diversion
dam and the Sacramento River.
When required, pulse flows are
in lieu of, not in addition to, base
flow requirements. The pulse
flow will last a minimum of 24
hours to a maximum of 72 hours,
and will be determined by the
presence of fish observed and desired migration movements upstream. The duration will be
determined by the Deputy Director in consultation with California Department of Fish and
Wildlife and/or the National Marine Fisheries Service.
*

*

*

(B) June 1 up to June 30, if Juvenile CV
SR Salmon or Juvenile CCV Steelhead are present –
(i)

Pulse Flows – 70 cfs or full flow
without diversions, whichever is
less. Pulse flows may be required
when juvenile CV SR Salmon or
CCV Steelhead are observed in
the lower reaches of Antelope
Creek. When required, pulse
flows are in lieu of, not in addition to, base flow requirements.
The pulse flow will last a minimum of 24 hours to a maximum

App. 137
of 48 hours, and will be determined by the presence of fish observed and desired migration
movements downstream into the
Sacramento River. The duration
will be determined by the Deputy Director in consultation with
California Department of Fish
and Wildlife or the National Marine Fisheries Service.
*

*

*

(4) The drought emergency minimum flows
identified in subdivision (c)(1) through
(c)(3) shall extend through the confluences with the Sacramento River. Compliance with the drought emergency minimum flows will be determined by the
Deputy Director, measured at the most
downstream gauge available. The Deputy
Director may require additional compliance points as needed.
(d) (1) Initial curtailment orders will be mailed
to each water right holder or the agent of record on file with the Division of Water Rights.
The water right holder or agent of record is
responsible for immediately providing notice
of the order(s) to all diverters exercising the
water right.
(2) Within 7 days of the effective date of
this regulation, the State Board will establish an email distribution list that water right holders may join to receive
drought notices and updates regarding

App. 138
curtailments. Notice provided by email or
by posting on the State Board’s drought
web page shall be sufficient for all purposes related to drought notices and updates regarding curtailments.
*

*

*

§ 878.2. Local cooperative solutions
If the National Marine Fisheries Service and the California Department of Fish and Wildlife enter into an
agreement with a diverter, or diverters, that the Service or Department determines provides watershedwide protection for the fishery that is comparable to or
greater than that provided by this article, the diverter
or diverters may request approval from the Deputy Director to implement the agreement in place of State
Board-issued curtailment orders under this article.
The Deputy Director shall approve the request so long
as other users of water will not be injured.
The Deputy Director’s approval may be subject to any
conditions, including reporting requirements, that the
Deputy Director determines to be appropriate. If the
Deputy Director does not act on a request within one
week of receipt, the request will be deemed approved.
Other local cooperative solutions may also be proposed
to the Deputy Director as an alternative means of reducing water use to preserve drought emergency
minimum flows. Requests to implement voluntary
agreements to coordinate diversions or share water in
place of State Board-issued curtailment orders under
this article may be submitted to the Deputy Director

App. 139
at any time. The Deputy Director may approve a request, or approve it subject to any conditions including
reporting requirements that the Deputy Director determines to be appropriate, if the Deputy Director determines:
(a) the continued diversion is reasonable;
(b) that other users of water will not be injured; and
(c) that the relevant minimum flows identified in this
article will be met.
*

*

*

§ 879. Reporting
(a) All water users or water right holders issued a curtailment order under this article are required
within five days to submit under penalty of perjury a certification of the following actions taken
in response to the curtailment order, certifying, as
applicable, that:
(1) Diversion under the water right identified has
been curtailed;
(2) Continued use is under other water rights not
subject to curtailment, specifically identifying
those other rights, including the basis of right
and quantity of diversion;
(3) Diversions continue only to the extent that
they are direct diversions for hydropower;
(4) A petition has been filed as authorized under
section 878.1, that the diversion will be authorized if the petition is approved, that the
subject water right authorizes the diversion

App. 140
in the absence of a curtailment order, and that
diversion and use will comply with the conditions for approval of the petition, except that
approval by other authorities may still be
pending;
(5) A certification has been filed as authorized
under section 878, subdivision (b) or section
878.1, subdivision (b)(1), that the subject water right authorizes the diversion in the absence of a curtailment order; or
(6) The only continued water use is for instream
purposes.
*

*

*

§ 879.1. Conditions of permits, licenses and
registrations
Compliance with this article, including any conditions
of approval of a petition under this article, shall constitute a condition of all water right permits, licenses, certificates and registrations.
§ 879.2 Compliance and Enforcement
Diversion or use in violation of this article constitutes
an unauthorized diversion or use. A diverter must comply with a curtailment order issued under any section
of this article, including any conditions of approval of
a petition under this article and any water right condition under this article, notwithstanding receipt of more
than one curtailment order based on more than one
section or water right condition. To the extent of any

App. 141
conflict between the requirements of applicable orders
or conditions of approval, the diverter must comply
with the requirements that are most stringent. Violations of this article shall be subject to any applicable
penalties pursuant to Water Code sections 1052, 1831,
1845 and 1846.

App. 142
APPENDIX I
STATE WATER RESOURCES
CONTROL BOARD
RESOLUTION NO. 2015-0014
TO UPDATE AND READOPT A DROUGHTRELATED EMERGENCY REGULATION FOR
CURTAILMENT OF DIVERSIONS DUE TO
INSUFFICIENT FLOW FOR SPECIFIC FISHERIES
WHEREAS:
*
3.

*

On May 21, 2014, the State Water Board adopted
an emergency regulation for curtailment of diversions due to insufficient flow for specific fisheries
for Mill, Deer and Antelope Creeks. The emergency regulation became effective on June 2, 2014
and expired on February 28, 2015 (effective for 270
days);
*

6.

*

*

*

The National Marine Fisheries Service, in consultation with the California Department of Fish and
Wildlife and the United States Fish and Wildlife
Service, has identified the Sacramento River tributaries Deer, Mill, and Antelope Creeks as priority
watersheds for sustaining the CV SR Salmon and
the CCV Steelhead. These streams contain migration, spawning, and rearing habitat for some of the
last remaining naturally-produced populations of
threatened CV SR Salmon and the CCV Steelhead. The National Marine Fisheries Service has
identified minimum flows in Mill, Deer and Antelope Creeks below which significant harm to the

App. 143
species would occur. These flows establish a minimum flow needed for passage of migrating fish to
and from spawning and rearing grounds in the watersheds above major diversions in the lower watersheds;
7.

The importance of Deer, Mill, and Antelope Creeks
to the survival and recovery of salmon and steelhead in the Northern California’s Central Valley is
significant. Of the 19 independent CV SR Salmon
populations that historically occurred, the populations in Deer, Mill, and Antelope Creeks are among
the last of a small group of naturally-produced
populations. Mill and Deer Creeks are identified
in the National Marine Fisheries Services’ Final
Central Valley Salmon and Steelhead Recovery
Plan as Core 1 populations for CV SR Salmon and
CCV Steelhead. Antelope Creek is a Core 1 population for CCV Steelhead and a Core 2 population
for CV SR Salmon. Preserving and restoring Core
1 populations is the foundation of the recovery strategy because Core 1 populations are considered to
have the greatest potential to support independent
viable populations. Core 2 populations are assumed to have the potential to meet the moderate
risk of extinction criteria and protecting these
populations is also a priority of the recovery plan;

8.

These three streams are unique in the Central
Valley because they support naturally-produced
populations of CV SR Salmon and CCV Steelhead,
yet have no upstream water storage facilities that
can be managed to buffer the effects of drought on
stream flow and water temperature requirements
for these fish species. Instead, all of the water
management facilities and water use occur on

App. 144
downstream reaches near the confluence with the
Sacramento River, and their careful management
is needed this year to ensure CV SR Salmon and
CCV Steelhead are able to successfully migrate
upstream to spawning habitat and downstream to
the Sacramento River;
9.

The State Water Resources Control Board (State
Water Board) has a duty to protect, where feasible,
the state’s public trust resources, including fisheries, to the extent reasonable. (National Audubon
Society v. Superior Court (1983) 33 Cal.3d 419.);

10. The State Water Board also has the authority under article X, section 2 of the California Constitution and Water Code section 100 to prevent the
waste or unreasonable use, unreasonable method
of use, or the unreasonable method of diversion of
all waters of the State. Water Code section 275 directs the State Water Board to “take all appropriate
proceedings or actions before executive, legislative, or judicial agencies . . . ” to enforce the constitutional and statutory prohibition against waste,
unreasonable use, unreasonable method of use, or
unreasonable method of diversion, commonly referred to as the reasonable use doctrine. The reasonable use doctrine applies to the diversion and
use of both surface water and groundwater, and it
applies irrespective of the type of water right held
by the diverter or user. (Peabody v. Vallejo (1935) 2
Cal.2d 351.) What constitutes reasonable water
use is dependent upon not only the entire circumstances presented but varies as the current situation changes. (Environmental Defense Fund, Inc.
v. East Bay Mun. Untility Dist. (1980) 26 Cal.3d
183, 194.);

App. 145
11. The State Water Board has determined, based on the
best available information that certain minimum
flows are necessary in the identified watersheds,
below which levels serious harm and endangerment to the species may occur. The State Water
Board recognizes that these drought emergency
minimum flows do not represent optimal passage
conditions for CV SR Salmon and CCV Steelhead.
The State Water Board has identified the need for
these drought emergency minimum flows during
this drought period due to the lack of developed
alternative water supplies to meet these emergency water supply conditions. Application of the
reasonable use doctrine under these circumstances requires particularized consideration of
the benefits of diverting water for current uses
from the identified water bodies and the potential
for harm to the protected species from such diversions under the current drought conditions.
Having considered the available information, the
State Water Board finds that, during the current
drought conditions, curtailment of diversions that
would cause flows in these creeks to drop below
these minimum passage levels is necessary to prevent the waste, unreasonable use, unreasonable
method of use and unreasonable method of diversion, of water. This finding is narrowly targeted
only to diversions of water, under the current extraordinary drought conditions, needed to afford
minimal protection to migrating CV SR Salmon
and CCV Steelhead, and should not be construed
as a finding concerning the reasonableness of these
diversions in general;
*

*

*

App. 146
14. Drought emergency minimum instream flow requirements were required under California Code
of Regulations, title 23, section 877 in Deer Creek
from June 2 through June 30, 2014 and October 1,
2014 through February 28, 2015. A curtailment order was issued to water right holders in Deer
Creek on June 5, 2014, for the period of June 5
through June 24, 2014 to provide for the required
minimum flows for CV SR Salmon and CCV Steelhead. Gauge data shows that the minimum flows
were not met in Deer Creek until June 11, 2014.
Fish passage data provided by the California Department of Fish and Wildlife suggests the instream flows in Deer Creek during this time
period were inadequate and did not provide for
successful fish passage. Mill Creek and Deer
Creek are similar watersheds. If the required instream flows had been provided, fish passage in
Deer Creek during this time period would likely
have been similar to that in Mill Creek (i.e., it
would of provided adequate passage). A curtailment order was issued to water right holders in
Deer Creek on October 14, 2014, which required
water right holders to provide for the required instream flows for CV SR Salmon and CCV Steelhead from October 15, 2014 through February 28,
2015. These flows were met, and fish passage data
provided by the California Department of Fish and
Wildlife suggests the instream flows provided in
Deer Creek from October 15, 2014 through February 28, 2015 provided for successful fish passage;
15. The drought emergency minimum flow requirements
in the 2015 drought-related emergency regulation
for curtailment of diversions due to insufficient flow
for specific fisheries are similar to those adopted

App. 147
in 2014, with clarifications and edits to the regulation and minor adjustments to the minimum
flows and flow periods based on an assessment of
last year’s implementation of the regulation. In
summary, the 2015 minimum flow requirements
on Mill and Deer Creeks remain unchanged, and
the 2015 minimum baseflow requirements for juvenile Spring-run Chinook salmon and steelhead
decreased in Antelope Creek. Except in one case,
the flow periods required under the 2015 regulation are shorter than the flow periods required in
the 2014 regulation. The one case when the flow
period was extended, rather than shortened, in
the 2015 regulation is for the initiation of the
juvenile Spring-run Chinook and steelhead minimum baseflow in Mill and Deer Creeks, which
would begin on October 15, rather than November
1;
16. The regulation would provide that diversions from
Mill, Deer and Antelope Creeks are unreasonable
if those diversions would cause flows to drop below
the specified minimums. Under the regulation,
such diversions would be curtailed as appropriate
to maintain those minimum flows, with the exception of diversions necessary for minimum health
and safety needs. Diversions for minimum health
and safety needs may not be curtailed, notwithstanding a lower seniority than other, curtailed
rights. The diversion or use of water in violation of
this regulation would be an unreasonable diversion or use and a violation of Water Code section
100;
*

*

*

App. 148
19. On March 6, 2015, the State Water Board provided
public notice, including a copy of the proposed regulation, that the State Water Board would consider adoption of the regulation at the Board’s
regularly scheduled March 17, 2015 public meeting. On March 13, 2015, the State Water Board
also distributed for public review and comment a
Notice of Proposed Rulemaking and Emergency
Regulation Digest that comply with State laws
and regulations;
20. The State Water Board proposes to adopt the
emergency regulation in accordance with title 2,
division 3, chapter 3.5 of the Government Code
(commencing with section 11340). The State Water
Board has the authority to adopt emergency regulations pursuant to Water Code section 1058.5, as
it deems necessary to prevent the waste, unreasonable use, unreasonable method of use, or unreasonable method of diversion of water, to promote
water recycling or water conservation, and to require curtailment of diversions when water is not
available under the diverter’s priority of right;
*

*

*

22. As discussed above, the State Water Board is adopting this emergency regulation because of the emergency drought conditions, the need for prompt
action, and the unique attributes of these three
tributaries. The vehicle of adopting an emergency
regulation to identify a minimum flow requirement for fisheries protection and health and safety
needs is an appropriate approach in these limited
circumstances; and

App. 149
23. Pursuant to Water Code section 7, the State Water
Board is authorized to delegate authority to the
Executive Director and to the Deputy Director.
The State Water Board has delegated authority to
the Executive Director and to the Deputy Director.
THEREFORE BE IT RESOLVED THAT:
1.

The State Water Board adopts Title 23, Division 3, Chapter 2, Article 24, Sections 877;
878; 878.1, subdivisions (b) and (c); 878.2; 879,
subdivisions (a) and (b); 879.1 and 879.2, as
appended to this resolution as an emergency
regulation;

2.

State Water Board staff shall submit the regulation to the Office of Administrative Law
(OAL) for final approval;

3.

If, during the approval process, State Water
Board staff, the State Water Board, or OAL determines that minor corrections to the language
of the regulation or supporting documentation
are needed for clarity or consistency, the State
Water Board Executive Director or designee
may make such changes; and

4.

The State Water Board delegates to the Deputy Director the authority to act on requests
for approvals pursuant to the regulation.

CERTIFICATION
The undersigned Clerk to the Board does hereby certify that the foregoing is a full, true, and correct copy
of a resolution duly and regularly adopted at a meeting

App. 150
of the State Water Resources Control Board held on
March 17, 2015.
AYE:

Chair Felicia Marcus
Vice Chair Frances Spivy-Weber
Board Member Tam M. Doduc
Board Member Steven Moore

NAY:

Board Member Dorene D’Adamo

ABSENT:

None

ABSTAIN:

None
/s/ Jeanine Townsend
Jeanine Townsend
Clerk to the Board

Curtailment of Diversions due to
Insufficient Flow for Specific Fisheries
Emergency Regulation Digest
In Title 23, Division 3, Chapter 2, Article 24, add Sections 877, 878, 878.1, subdivisions (b) though (f ); 878.2;
879, subdivisions (a) and (b); 879.1 and 879.2 to read:
Article 24. Curtailment of Diversions Based
on Insufficient Flow to Meet All Needs
§ 876

[reserved]

§ 877 Emergency Curtailment Where Insufficient Flows are Available to Protect Fish in
Certain Watersheds
The State Water Resources Control Board (State
Board) has determined that it is a waste and

App. 151
unreasonable use under Article X, section 2 of the
California Constitution to continue diversions that
would cause or threaten to cause flows to fall beneath the drought emergency minimum flows
listed in subdivision (c), except as provided in section 878.1.
(a) For the protection of threatened and endangered fish, no water shall be diverted from the
streams listed below during the effective period of a curtailment order under this article,
except as provided under sections 878, 878.1
or 878.2.
(b) The Deputy Director for the Division of Water
Rights (Deputy Director) may issue a curtailment order upon a determination that without curtailment of diversions flows are likely
to be reduced below the drought emergency
minimum flows specified in subdivision (c).
Curtailment orders shall be effective the day
after issuance. Except as provided in sections
878, 878.1, and 878.2, where flows are sufficient to support some but not all diversions,
curtailment orders shall be issued in order of
priority.
In determining which diversions should be
subject to curtailment, the Deputy Director
shall take into account the need to provide
reasonable assurance that the actual drought
emergency minimum flows will be met.
If maintaining the flows described in subdivision (c) would require curtailment of uses described in section 878.1, then the Executive
Director may decide whether or not those

App. 152
diversions should be allowed to continue
based on the most current information available regarding fish populations, health and
safety needs and the alternatives available to
protect both public health and safety and
threatened or endangered fish.
(c) The State Board has authority to ensure the
protection and preservation of streams and to
limit diversions to protect critical flows for species, including for state and federally threatened and endangered salmon and steelhead
species. To prevent the waste and unreasonable use of water, the Deputy Director may
issue curtailment orders as described in subdivision (b). The flows described in this subdivision may be less than otherwise desirable
minimum flows for fisheries protection, but
have been developed to ensure bare minimum
instream flows for migratory passage during
the drought emergency, given the unprecedented nature of the current drought and the
drought impacts to these fisheries.
This section shall only go into effect if the Executive Director determines that any agreements in any applicable watersheds entered
into by diverters, National Marine Fisheries
Service and California Department of Fish
and Wildlife either do not cover substantially
all of the water diverted in the watershed or
that the agreements are no longer in effect.
(1) Mill Creek. Mill Creek enters the Sacramento
River at Army Corps of Engineers river mile
230 from the east near Los Molinos and

App. 153
approximately one mile north of the town of
Tehama. All water right holders in the Mill
Creek watershed are subject to curtailment
pursuant to subdivision (b) and responsible to
meet the drought emergency minimum flows
identified in this subdivision. For purposes of
this article, the following flows are the drought
emergency minimum flows necessary for migratory passage of state and federally listed
Central Valley spring-run Chinook salmon
(CV SR salmon) and federally listed California Central Valley steelhead (CCV steelhead)
through the Sacramento Valley floor stream
reaches in Mill Creek:
(A) April 1 up to June 15, if Adult CV SR
Salmon are present –
(i)

Base Flows – 50 cubic feet per second
(cfs) or full flow without diversions,
whichever is less. (ii) Pulse Flows –
100 cfs or full flow without diversions, whichever is less.
*

*

*

(B) June 1 up to June 15, if Juvenile CV SR
Salmon or Juvenile CCV Steelhead are
present –
(i)

Pulse Flows – 100 cfs or full inflow
without diversions, whichever is less.
*

*

*

(2) Deer Creek. Deer Creek enters the Sacramento River at Army Corps of Engineers river
mile 220 from the east approximately one

App. 154
mile west of the town of Vina. All water right
holders in the Deer Creek watershed are subject to curtailment pursuant to subdivision (b)
and responsible to meet the drought emergency
minimum flows identified in this subdivision.
For purposes of this article, the following flows
are the drought emergency minimum flows
necessary for migratory passage of state and
federally listed CV SR salmon and federally
listed CCV steelhead through the Sacramento
Valley floor stream reaches in Deer Creek:
(A) April 1 up to June 15, if Adult CV SR
Salmon are present –
(i)

Base Flows – 50 cfs or full flow without diversions, whichever is less.

(ii) Pulse Flows – 100 cfs or full flow
without diversions, whichever is less.
A flow ramp down period at the end
of a pulse flow may be included if requested by California Department of
Fish and Wildlife or National Marine
Fisheries Service. Pulse flows may be
required when adult CV SR salmon
are observed between Vina Dam and
the Sacramento River. When required,
pulse flows are in lieu of, not in addition to, base flow requirements. Pulse
flows will last a minimum of 24 hours
to a maximum of 72 hours, and will
be determined based on the presence
of fish observed and desired migration
movements upstream. Pulse flow duration will be determined by the Deputy

App. 155
Director in consultation with California Department of Fish and Wildlife
or the National Marine Fisheries
Services.
*

*

*

(B) June 1 up to June 15, if Juvenile CV SR
Salmon or Juvenile CCV Steelhead are
present –
(i)

Pulse Flows – 100 cfs or full flow
without diversions, whichever is less.
A flow ramp down period at the end
of a pulse flow may be included if requested by California Department of
Fish and Wildlife or National Marine
Fisheries Service. Pulse flows may be
required when juvenile CV SR salmon
or CCV steelhead are observed in the
lower reaches of Deer Creek. When
required, pulse flows are in lieu of,
not in addition to, base flow requirements. Pulse flows will last a minimum of 24 hours to a maximum of 48
hours, and will be determined based
on the presence of fish observed and
desired migration movements downstream into the Sacramento River.
Pulse flow duration will be determined
by the Deputy Director in consultation with California Department of
Fish and Wildlife or the National Marine Fisheries Service.
*

*

*

App. 156
(3) Antelope Creek. Antelope Creek enters the
Sacramento River at Army Corps of Engineers
river mile 235 from the east approximately
nine miles southeast of the town of Red Bluff.
All water right holders in the Antelope Creek
watershed are subject to curtailment pursuant to subdivision (b) and responsible to meet
the drought emergency minimum flows identified in this subdivision. For purposes of this
article, the following flows are the drought
emergency minimum flows necessary for migratory passage of state and federally listed
CV SR salmon and federally listed CCV steelhead through the Sacramento Valley floor
stream reaches in Antelope Creek:
(A) April 1 up to May 15, if Adult CV SR
Salmon are present –
(i)

Base Flows – 35 cfs or full flow without diversions, whichever is less.

(ii) Pulse Flows – 70 cfs or full flow without diversions, whichever is less. A
flow ramp down period at the end of
a pulse flow may be included if requested by California Department of
Fish and Wildlife or National Marine
Fisheries Service. Pulse flows may be
required when adult CV SR salmon
are observed between the Edwards/
Los Molinos Mutual diversion dam
and the Sacramento River. When required, pulse flows are in lieu of, not
in addition to, base flow requirements.
Pulse flows will last a minimum of 24

App. 157
hours to a maximum of 72 hours, and
will be determined based on the presence of fish observed and desired migration movements upstream. Pulse
flow duration will be determined by
the Deputy Director in consultation
with California Department of Fish
and Wildlife or the National Marine
Fisheries Service.
*

*

*

Authority: Sections 1058, 1058.5, Water Code
Reference: Cal. Const., Art., X § 2; Sections 100, 100.5,
104, 105, 275, 1058.5, Water Code; National Audubon
Society v. Superior Court (1983) 33 Cal.3d 419; Light
v. State Water Resources Control Board (2014) 226
Cal.App.4th 1463.
*

*

*

§ 879.1. Conditions of permits, licenses and registrations
Compliance with this article, including any conditions of approval of a petition under this article,
shall constitute a condition of all water right permits, licenses, certificates and registrations.
Authority: Sections 1058, 1058.5, Water Code
Reference: Sections 100, 187, 275, 348, 1051, 1058.5,
Water Code

App. 158
§ 879.2. Compliance and Enforcement
Diversion or use in violation of this article constitutes an unauthorized diversion or use. A diverter
must comply with a curtailment order issued under any section of this article, including any conditions of approval of a petition under this article
and any water right condition under this article,
notwithstanding receipt of more than one curtailment order based on more than one section or water right condition. To the extent of any conflict
between the requirements of applicable orders or
conditions of approval, the diverter must comply
with the requirements that are most stringent. Violations of this article shall be subject to any applicable penalties pursuant to Water Code sections
1052, 1831, 1845 and 1846.
Authority: Sections 1058, 1058.5, Water Code
Reference: Sections 1052, 1055, 1058.5, 1825, 1831,
Water Code; National Audubon Society v. Superior
Court (1983) 33 Cal.3d 419.

App. 159
APPENDIX J
STATE OF CALIFORNIA
CALIFORNIA ENVIRONMENTAL
PROTECTION AGENCY
STATE WATER RESOURCES CONTROL BOARD
DIVISION OF WATER RIGHTS
ORDER WR 2014-0022-DWR
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

CURTAILMENT ORDER
In the Matter of Diversion of Water from
DEER CREEK TRIBUTARY
TO THE SACRAMENTO RIVER
IN
TEHAMA COUNTY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

*
4.

*

*

On November 27, 1923 the Superior Court of Tehama County entered a judgment (Adjudication)
granting 100% of the flow in Deer Creek (as
measured at USGS gauge 11383500) to the predecessors in interest of the Stanford Vina Ranch
Irrigation Company (approximately 65%) and
Deer Creek Irrigation District (approximately
35%). The Adjudication designated that the average amount of water naturally flowing in Deer
Creek, during the irrigation season, as 150 second
feet or 6000 miner’s inches and allocated 100% of
that flow as previously provided. At times when
the natural flow in Deer Creek is less than, or
more than, 150 second feet or 6000 miner’s inches,

App. 160
then the Adjudication diminishes, or augments
the flow allocations proportionally. (Adjudication,
Articles XI and XIII, pp. 10, 11.) Stanford Vina
Ranch Irrigation Company’s points of diversion
are downstream of the point of diversion for Deer
Creek Irrigation District. (Adjudication, Articles
XI and XIII, pp. 10, 11.) The Adjudication was
amended in 1926 to grant approximately 66 percent of the Deer Creek flows below USGS gauge
11383500 to Stanford Vina Ranch Irrigation Company, 33 percent of the Deer Creek flows to Deer
Creek Irrigation District and 1 percent to Sheep
Camp Ditch for stock watering.
5.

Attachment A attached hereto is a summary of
available water rights data on Deer Creek that
was assembled from the State Water Board’s electronic water rights information management system (eWRIMS) and Report Management System
(RMS) queries.

6.

On May 21, 2014, the State Water Board adopted
emergency regulations for Curtailment of Diversions due to Insufficient Flow for Specific Fisheries (California Code of Regulations, title 23,
sections 877 through 879.21) (Regulations). The
Regulations were reviewed by the Office of Administrative Law and went into effect on June 2, 2014.
The Regulations establish drought emergency
minimum flow requirements for the protection of
specific runs of federal- and state-listed anadromous fish in Mill Creek, Deer Creek and Antelope
Creek. The Regulations provide that diversions
1

All further section references are to California Code of Regulations, title 23 unless otherwise indicated.

App. 161
from Mill, Deer and Antelope creeks are unreasonable if those diversions will cause flows to drop below the specified minimum flows. Under the
Regulations, diversions will be curtailed as appropriate to maintain those minimum flows, with the
exception of diversions necessary for minimum
health and safety needs. The diversion or use of
water in violation of the Regulations is an unreasonable diversion or use and a violation of Water
Code section 100.
7.

Pursuant to section 877, the State Water Board
has determined that it is a waste and unreasonable use under Article X, section 2 of the California
Constitution to continue diversions that would
cause or threaten to cause flows to fall beneath the
drought emergency minimum flows provide in
subdivision (c) of section 877, except as provided
for minimum health and safety needs in accordance with section 878.1.
*

*

*

10. Pursuant to section 877, subdivision (b), the Deputy Director for the Division of Water Rights has
delegated authority to issue a curtailment order
upon a determination that without curtailment of
diversions flows are likely to be reduced below the
drought emergency minimum flows specified in
section 877, subdivision (c).
*

*

*

FINDINGS:
1.

Section 877, subdivision (c)(2) of title 23 of the California Code of Regulations establishes drought
emergency minimum flows for Deer Creek under

App. 162
certain conditions. Those minimum flows went
into effect upon determination by the Executive
Director on June 4, 2014 that voluntary agreements in the Deer Creek Watershed do not cover
substantially all of the water diverted in the watershed.
2.

The conditions under which the drought emergency minimum flows identified in section 877,
subdivision (c) apply are now in effect and threatened species, such as Adult and juvenile CV SR
salmon and juvenile CCV steelhead are present at
this time.

3.

The Deputy Director for the Division of Water
Rights has determined that without curtailment
of diversions from Deer Creek the flows in Deer
Creek have been, and are likely to continue to be
reduced below the drought emergency minimum
flows specified in section 877 subdivision (c)(2).
*

*

*

IT IS HEREBY ORDERED:
1.

All water rights holders in the Deer Creek watershed, including but not limited to those identified
in Attachment A, are subject to curtailment pursuant to California Code of Regulations, title 23,
sections 877 through 879.22 and shall immediately
cease or reduce their diversions from Deer Creek
to ensure the drought emergency minimum flows
specified in section 877, subdivision (c)(2) are satisfied through June 30, 2014 or until the Deputy
2

All further section references are to California Code of Regulations, title 23 unless otherwise indicated.

App. 163
Director suspends the curtailment order under
section 877, subdivision (c)(2)(E), as follows:
(A) All post-1914 appropriative rights holders, in
addition to being curtailed under the Notice
of Unavailability of Water and Immediate
Curtailment issued by the State Water Board
on May 27, 2014, are curtailed under this order except as provided in sections 878 (nonconsumptive uses), 878.1 (minimum health
and safety needs, and 878.2 (local co-operative
solutions).
(B) All diverters on Deer Creek shall bypass 50
cfs or full natural flow without diversion,
whichever is less, in order to obtain/maintain
base flows for adult CV SR salmon migration.
Flows in excess of the 50 cfs base flow can be
taken in accordance with priority and basis of
right, except for those post-1914 appropriative right holders referenced in paragraph
1(A), above.
(C) Upon notification to the Deputy Director from
the California Department of Fish and Wildlife and/or the National Marine Fisheries Service that adult CV SR salmon migration has
ended but that juvenile CV SR salmon or Juvenile CVV stealhead are present, base flow
requirements will be reduced to 20 cfs pursuant to section 877, subdivision (c)(2)(D). At
that time all diverters on Deer Creek shall bypass 20 cfs or full natural flow without diversion, whichever is less, in order to maintain
base flows for juvenile CV SR salmon or juvenile CCV steelhead migration. Flows in excess

App. 164
of the 20 cfs base flow can be diverted by water
rights holders in accordance with priority and
basis of right, except for those post-1914 appropriative right holders referenced in paragraph 1(A), above.
(D) When a pulse flow is required under section
877, subdivision (c)(2)(A)(ii) or (c)(2)(B)(i), all
diverters on Deer Creek are curtailed and
must cease diverting to ensure that the pulse
flow of 100 cfs or full flow without diversions,
whichever is less, is bypassed at their point of
diversion. If full natural flows exceed 100 cfs
at a time when pulse flows are required, then
flows in excess of 100 cfs can be diverted by
water right holders in accordance with water
right priority and basis of right, except for
those post-1914 appropriative right holders
referenced in paragraph 1(A), above.
3.

This curtailment order shall be effective beginning
on June 6, 2014.

4.

In accordance with section 877 subdivision (d), water rights holders or agents of record who receive
this order are responsible for immediately providing notice of this order to all diverters exercising a
water right on Deer Creek. Stanford Vina Ranch
Irrigation Company and Deer Creek Irrigation
District are responsible for immediately providing
notice of this curtailment order to all water rights
holders to which they provide water under the curtailed water rights.

5.

All water users or water right holders receiving
this order are required, within five days of issuance of this order, to submit under penalty of

App. 165
perjury a certification in accordance with section
879. Post-1914 water rights holder that have recently filed a certification in response to receiving
the Notice of Unavailability of Water and Immediate Curtailment issued by the State Water Board
on May 27, 2014 do not need to file an additional
certification.
6.

In accordance with section 879.2, diversion or use
in violation of this curtailment order constitutes
an unauthorized diversion or use. Violations of
this order shall be subject to further enforcement
and any applicable penalties pursuant to Water
Code sections 1052, 1831, 1845 and 1846. To the
extent of any conflict between the requirements of
this curtailment order and any other applicable orders or conditions of approval, the diverter must
comply with the requirements that are most stringent.
*

*

*

STATE WATER RESOURCES CONTROL BOARD
Sincerely,
/s/ Barbara Evoy
Barbara Evoy, Deputy Director
Division of Water Rights
Dated: JUN 05 2014

App. 166
Attachment A
Riparian Rights and Federal Filings
Application ID

License ID

F003439S
F003440S
S001308
S001309
S001310
S001311
S001312
S001313
S001314
S007869
S008305
S010775
S012359
S012360
S012361
S012374
S012375
S012376
S012377
S012396
S013587
S013594
S013595
S013596
S013597
S013598
S013599
S013600
S013601
S013602
S013603
S016163
S016808
S018670
S019663
S023166

Status
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed

pre-1914

Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed

Primary Owner
U S LASSEN NATL FOREST
U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
JOSEPH A BENATAR
CALIF DEPT OF FORESTRY & FIRE
PROTECTION
Grant Leininger
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION
U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
Rumiano Farms
SIERRA PACIFIC INDUSTRIES
Rumiano Farms

Face Value
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
4,300
0.95
0
0.92
0

Reported
Report Date
Use (AF)
NR
NR
0.06
2010
0
2010
0
2010
0
2010
0
2010
1.36
2011
0
2010
60
2010
NR
56
0
0
0
0
0
0
0
0
0
0
1.93
0
0
0
0
0
0
0
0
4440
0
NR
0
NR

2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2010
2011
2010
2010

Season

Year of First
Use

year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
May-Nov

1900
1900
1900
1900
1900
1900
1900
1893

year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
April-Nov
April-Nov
year-round
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
year-round

1893
1945
1945
1945
1945
1945
1945
1945
1945
1900
1900
1905
1900
1900
1900
1900
1900
1900
1900
1900
1905

Beneficial
Use
D,FP,R
D,FP,R
DA
DA
DA
DA
DA
DA
DA
I,D,O
D

Acres
Irrigated

I,S
FP
FP
FP
FP
FP
FP
FP
FP
FP
FP
DA
FP
DA
DA
FP
DA
FP
DA
DA
RAH
DA
D
FP
O

192

40

App. 167
Adjudicated pre-1914 Appropriative Rights
Application ID

License ID

S000729
S000730
S000731

Status
Claimed
Claimed
Claimed

Primary Owner

Face Value

STANFORD VINA RANCH IRRIGATION CO
STANFORD VINA RANCH IRRIGATION CO
DEER CREEK IRRIGATION DISTRICT

0
0
0

Reported
Use (AF)
17066
1264
20400

Report Date

Season

2011
2011
2010

04/01-10/31
04/01-10/31
year-round

Year of First
Use
1900
1900
1923

Season

Filing Date

05/01-10/01
06/61-10/15
year-round
year-round
04/01-12/31
year-round
year-round
04/01-12/31
year-round
11/01-5/01
year-round

8/5/1918
10/11/1935
9/19/1947
6/29/1954
1/31/1955
1/31/1955
2/15/1955
1/19/1959
6/6/1961
8/8/1985
1/5/1988

Beneficial
Use
I,S
I,S
I,S

Acres
Irrigated
5700
5700
1900

Beneficial
Use
I,S
R
D,P
P
D
D
D
D
D
S
S

Acres
Irrigated
5700

Post-1914 Appropriative Rights
Application ID

License ID

Status

A001041
A008469
A012096
A015933
A016224
A016223
A016238
A018477
A020250
C003886
C005299

485
2385
4976
5462
6088
5702
7247
7356
9007
3886
5299

Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Certified
Certified

Primary Owner

Face Value

STANFORD VINA RANCH IRRIGATION CO
U S LASSEN NATL FOREST
KEN C WILLIS
DEER CREEK LODGE INC
JOSEPH JAMES TREMARI
THOMAS T DENNEY
WALTER ALBERT
DOROTHY ANNE TREMARI
DEER CREEK LODGE INC
EDWIN L GAULT
RICHARD D SUMMERS

*Reported use under A001041 is a duplication of the use reported under S000729
I= Irrigation

DA= Dust Abatement

S= Stockwatering

FP= Fire Protection

RAH= Riparian and Aquatic Habitat
D= Domestic
O= Other

R= Recreational
P= Power

4,582
1
2,172
2,896
0.8
0.1
2.6
1.7
9
0
1.5

Reported
Report Date
Use (AF)
17066*
2011
0.55
2010
NR
48
2012
2.41
2012
0.1
2010
1.96
2010
2.41
2010
0.29
2010
NR
NR

App. 168
APPENDIX K
STATE OF CALIFORNIA
CALIFORNIA ENVIRONMENTAL
PROTECTION AGENCY
STATE WATER RESOURCES CONTROL BOARD
DIVISION OF WATER RIGHTS
ORDER WR 2014-0031-DWR
CURTAILMENT ORDER
In the Matter of Diversion of Water from
DEER CREEK TRIBUTARY TO THE
SACRAMENTO RIVER
IN
TEHAMA COUNTY
*
6.

*

*

On May 21, 2014, the State Water Board adopted
emergency regulations for Curtailment of Diversions due to Insufficient Flow for Specific Fisheries (California Code of Regulations, title 23,
sections 877 through 879.21) (Regulations). The
Regulations were reviewed by the Office of Administrative Law and went into effect on June 2,
2014. The Regulations establish drought emergency minimum flow requirements for the protection of specific runs of federal- and state-listed
anadromous fish in Mill Creek, Deer Creek and
1

All further section references are to California Code of
Regulations, title 23 unless otherwise indicated.

App. 169
Antelope Creek. The Regulations provide that diversions from Mill, Deer and Antelope creeks are
unreasonable if those diversions will cause flows
to drop below the specified minimum flows. Under
the Regulations, diversions will be curtailed as appropriate to maintain those minimum flows, with
the exception of diversions necessary for minimum
health and safety needs. The diversion or use of
water in violation of the Regulations is an unreasonable diversion or use and a violation of Water
Code section 100.
7.

Pursuant to section 877, the State Water Board
has determined that it is a waste and unreasonable use under Article X, section 2 of the California
Constitution to continue diversions that would
cause or threaten to cause flows to fall beneath the
drought emergency minimum flows provide in
subdivision (c) of section 877, except as provided
for minimum health and safety needs in accordance with section 878.1.
*

*

*

FINDINGS:
1.

Section 877, subdivision (c)(2) of title 23 of the
California Code of Regulations establishes
drought emergency minimum flows for Deer
Creek under certain conditions. Those minimum
flows went into effect upon determination by the
Executive Director on June 4, 2014 that voluntary
agreements in the Deer Creek Watershed do not
cover substantially all of the water diverted in the
watershed.

App. 170
2.

In a memo dated October 10, 2014, the California
Department Fish and Wildlife informed the State
Water Board that adult CCV steelhead are present
and currently migrating in the Sacramento River
in the vicinity of Deer Creek. The conditions under
which the drought emergency minimum flows
identified in section 877, subdivision (c) apply and
are now in effect. Threatened species, such as
Adult CCV steelhead are present at this time. Additionally, juvenile CV salmon and CCV steelhead
are potentially present based on historic life stage
emigration timing and based on historic life stage
migration timing, adult CV SR salmon are anticipated to be present as early as February.

3.

The Deputy Director for the Division of Water
Rights has determined that without curtailment
of diversions from Deer Creek the flows in Deer
Creek have been, and are likely to continue to be,
reduced below the drought emergency minimum
flows specified in section 877 subdivision (c)(2).

IT IS HEREBY ORDERED:
1.

All water rights holders in the Deer Creek watershed, including but not limited to those identified
in Attachment A, are subject to curtailment pursuant to California Code of Regulations, title 23,
sections 877 through 879.22 and shall immediately
cease or reduce their diversions from Deer Creek
to ensure the drought emergency minimum flows
specified in section 877, subdivision (c)(2) are
satisfied through February 28, 2015, or until the
2

All further section references are to California Code of
Regulations, title 23 unless otherwise indicated.

App. 171
Deputy Director suspends the curtailment order
under section 877, subdivision (c)(2)(E), as follows:
(A) All post-1914 appropriative rights holders, in
addition to being curtailed under the Notice of
Unavailability of Water and Immediate Curtailment issued by the State Water Board on
May 27, 2014, are also curtailed under this order except as provided in sections 878 (nonconsumptive uses), 878.1 (minimum health
and safety needs, and 878.2 (local co-operative
solutions). Curtailment under the notice and
this order must be complied with and considered separately.
(B) All diverters on Deer Creek shall bypass 50
cfs or full natural flow without diversion,
whichever is less, in order to obtain/maintain
base flows for adult CCV steelhead migration.
Flows in excess of the 50 cfs base flow can be
taken in accordance with priority and basis
of right, except for those post-1914 appropriative right holders referenced in paragraph
1(A), above.
(C) Upon notification to the Deputy Director from
the California Department of Fish and Wildlife and/or the National Marine Fisheries Service that adult CCV steelhead migration has
ended but that juvenile CV SR salmon or juvenile CCV steelhead are present, base flow
requirements will be reduced to 20 cfs pursuant to section 877, subdivision (c)(2)(D). At
that time, the Deputy Director will inform all
diverters on Deer Creek that bypass conditions are reduced from 50 cfs to 20 cfs, or full

App. 172
natural flow, whichever is less. This reduced
flow without diversions, is necessary to maintain base flows for juvenile CV SR salmon or
juvenile CCV steelhead migration. Flows in
excess of the 20 cfs base flow can be diverted
by water rights holders in accordance with
priority and basis of right, except for those
post-1914 appropriative right holders referenced in paragraph 1(A), above.
2.

This curtailment order shall be effective beginning
on October 15, 2014 at 5:00 pm.
*

7.

*

*

In accordance with section 879.2, diversion or use
in violation of this curtailment order constitutes
an unauthorized diversion or use. Violations of
this order shall be subject to further enforcement
and any applicable penalties pursuant to Water
Code sections 1052, 1831, 1845 and 1846. To the
extent of any conflict between the requirements of
this curtailment order and any other applicable orders or conditions of approval, the diverter must
comply with the requirements that are most stringent.
*

*

*

STATE WATER RESOURCES CONTROL BOARD
/s/ Barbara Evoy
Barbara Evoy, Deputy Director
Division of Water Rights
Dated:

OCT 14 2014

App. 173
Attachment A
Riparian Rights and Federal Filings
Application ID
F003439S
F003440S
S001308
S001309
S001310
S001311
S001312
S001313
S001314
S007869
S010775
S012359
S012360
S012361
S012374
S012375
S012376
S012377
S012396
S013587
S013594
S013595
S013596
S013597
S013598
S013599
S013600
S013601
S013602
S013603
S016163
S016808
S018670
S019663
S023166

License ID

pre-1914

Status
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed

Primary Owner
U S LASSEN NATL FOREST
U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
JOSEPH A BENATAR
Grant Leininger
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION
U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
Rumiano Farms
SIERRA PACIFIC INDUSTRIES
Rumiano Farms

Face Value
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
4,300
0.95
0
0,92
0

Reported
Report Date
Use (AF)
NR
NR
0.06
2010
0
2010
0
2010
0
2010
0
2010
1.36
2011
0
2010
60
2010
56
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
1.93
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
0
2010
4440
2011
0
2010
NR
0
2010
NR

Season

Year of First
Use

year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
April-Nov
April-Nov
year-round
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
year-round

1900
1900
1900
1900
1900
1900
1900
1893
1893
1945
1945
1945
1945
1945
1945
1945
1945
1900
1900
1905
1900
1900
1900
1900
1900
1900
1900
1900
1905

Beneficial
Use
D,FP,R
D,FP,R
DA
DA
DA
DA
DA
DA
DA
I,D,O
I,S
FP
FP
FP
FP
FP
FP
FP
FP
FP
FP
DA
FP
DA
DA
FP
DA
FP
DA
DA
RAH
DA
D
FP
O

Acres
Irrigated

40
192

App. 174
Adjudicated pre-1914 Appropriative Rights
Application ID

License ID

S000729
S000730
S000731

Status
Claimed
Claimed
Claimed

Primary Owner

Face Value

STANFORD VINA RANCH IRRIGATION CO
STANFORD VINA RANCH IRRIGATION CO
DEER CREEK IRRIGATION DISTRICT

0
0
0

Reported
Use (AF)
17066
1264
20400

Report Date

Season

2011
2011
2010

04/01-10/31
04/01-10/31
year-round

Year of First
Use
1900
1900
1923

Season

Filing Date

05/01-10/01
06/61-10/15
year-round
year-round
04/01-12/31
year-round
year-round
04/01-12/31
year-round
11/01-5/01
year-round

8/5/1918
10/11/1935
9/19/1947
6/29/1954
1/31/1955
1/31/1955
2/15/1955
1/19/1959
6/6/1961
8/8/1985
1/5/1988

Beneficial
Use
I,S
I,S
I,S

Acres
Irrigated
5700
5700
1900

Beneficial
Use
I,S
R
D,P
P
D
D
D
D
D
S
S

Acres
Irrigated
5700

Post-1914 Appropriative Rights
Application ID

License ID

Status

A001041
A008469
A012096
A015933
A016224
A016223
A016238
A018477
A020250
C003886
C005299

485
2385
4976
5462
6088
5702
7247
7356
9007
3886
5299

Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Certified
Certified

Primary Owner

Face Value

STANFORD VINA RANCH IRRIGATION CO
U S LASSEN NATL FOREST
KEN C WILLIS
DEER CREEK LODGE INC
JOSEPH JAMES TREMARI
THOMAS T DENNEY
WALTER ALBERT
DOROTHY ANNE TREMARI
DEER CREEK LODGE INC
EDWIN L GAULT
RICHARD D SUMMERS

*Reported use under A001041 is a duplication of the use reported under S000729
I= Irrigation

DA= Dust Abatement

S= Stockwatering

FP= Fire Protection

RAH= Riparian and Aquatic Habitat
D= Domestic
O= Other

R= Recreational
P= Power

4,582
1
2,172
2,896
0.8
0.1
2.6
1.7
9
0
1.5

Reported
Report Date
Use (AF)
17066*
2011
0.55
2010
NR
48
2012
2.41
2012
0.1
2010
1.96
2010
2.41
2010
0.29
2010
NR
NR

App. 175
APPENDIX L
STATE OF CALIFORNIA
CALIFORNIA ENVIRONMENTAL
PROTECTION AGENCY
STATE WATER RESOURCES CONTROL BOARD
DIVISION OF WATER RIGHTS
ORDER WR 2015-0019-DWR
CURTAILMENT ORDER
In the Matter of Diversion of Water from
DEER CREEK TRIBUTARY TO THE
SACRAMENTO RIVER
IN
TEHAMA COUNTY
*

*

*

5. On March 17, 2015, the State Water Board adopted
an emergency regulation for Curtailment of Diversions
due to Insufficient Flow for Specific Fisheries for Mill,
Deer, and Antelope Creeks (California Code of Regulations, title 23, sections 877 through 879.21) (Regulation). The Office of Administrative Law reviewed and
approved the Regulation. The Regulation is effective
March 30, 2015 to December 29, 2015. The Regulation
establishes drought emergency minimum flow requirements for the protection of specific runs of federal- and
1

All further section references are to California Code of
Regulations, title 23, unless otherwise indicated.

App. 176
state-listed anadromous fish in Mill Creek, Deer
Creek, and Antelope Creek. The Regulation provides
that diversions from Mill Creek, Deer Creek, and Antelope Creek are unreasonable if those diversions will
cause flows to drop below specified minimum flows.
Under the Regulation, diversions will be curtailed as
appropriate to maintain those minimum flows, with
the exception of diversions necessary for minimum
health and safety needs. The diversion or use of water
in violation of the Regulation is an unreasonable diversion or use and a violation of Water Code section 100.
6. Pursuant to section 877, the State Water Board
has determined that it is a waste and unreasonable
use under Article X, section 2 of the California Constitution to continue diversions that would cause or
threaten to cause flows to fall beneath the drought
emergency minimum flows provided in subdivision (c)
of section 877, except as provided for minimum health
and safety needs in accordance with section 878.1.
*

*

*

FINDINGS:
1.

Section 877, subdivision (c)(2) of title 23 of the California Code of Regulations establishes drought
emergency minimum flows for Deer Creek under
certain conditions.

2.

The conditions under which the drought emergency minimum flows identified in section 877,
subdivision (c) apply are now in effect, and threatened species, such as adult and juvenile CV SR

App. 177
salmon and juvenile CCV steelhead are present at
this time.
3.

The Deputy Director for the Division of Water
Rights has determined that without curtailment
of diversions from Deer Creek, the flows in Deer
Creek have been, and are likely to continue to be,
reduced below the drought emergency minimum
flows specified in section 877 subdivision (c)(2).

IT IS HEREBY ORDERED:
1.

All water rights holders in the Deer Creek watershed, including but not limited to those identified
in Attachment A, are subject to curtailment pursuant to California Code of Regulations, title 23,
sections 877 through 879.2 and shall immediately
cease or reduce their diversions from Deer Creek
to ensure the drought emergency minimum flows
specified in section 877, subdivision (c)(2) are satisfied through June 30, 2015 or until the Deputy
Director suspends the Curtailment Order under
section 877, subdivision (c)(2)(E), as follows:
(A) All post-1914 appropriative rights holders are
curtailed under this Order except as provided
in sections 878 (non-consumptive uses), 878.1
(minimum health and safety needs), and
878.2 (local co-operative solutions), and upon
approval of the Deputy Director for the Division of Water Rights.
(B) All diverters on Deer Creek shall bypass 50
cfs or full natural flow without diversion,
whichever is less, in order to obtain/maintain
base flows for adult CV SR salmon migration.
Flows in excess of the 50 cfs base flow can be

App. 178
taken in accordance with priority and basis of
right, except for those post-1914 appropriative right holders referenced in paragraph
1(A), above. The base flows for adult CV SR
salmon migration shall be satisfied through
June 15, 2015 unless the Deputy Director suspends the Curtailment Order or the Deputy
Director receives notification from the California Department of Fish and Wildlife and/or
the National Marine Fisheries Service that
adult CV SR salmon migration has ended.
(C) Upon notification to the Deputy Director from
the California Department of Fish and Wildlife and/or the National Marine Fisheries Service that adult CV SR salmon migration has
ended but that juvenile CV SR salmon or juvenile CVV steelhead are present, base flow
requirements will be reduced to 20 cfs pursuant to section 877, subdivision (c)(2)(D). At
that time, all diverters on Deer Creek shall
bypass 20 cfs or full natural flow without diversion, whichever is less, in order to maintain base flows for juvenile CV SR salmon or
juvenile CCV steelhead migration. Flows in
excess of the 20 cfs base flow can be diverted
by water rights holders in accordance with
priority and basis of right, except for those
post-1914 appropriative right holders referenced in paragraph 1(A) above.
(D) When a pulse flow is required under section
877, subdivision (c)(2)(A)(ii) or (c)(2)(B)(i), all
diverters on Deer Creek are curtailed and
must cease diverting to ensure that the pulse
flow of 100 cfs or full flow without diversions,

App. 179
whichever is less, is bypassed at their point of
diversion. If full natural flows exceed 100 cfs
at a time when pulse flow is required, then
flows in excess of 100 cfs can be diverted by
water right holders in accordance with water
right priority and basis of right, except for
those post-1914 appropriative right holders
referenced in paragraph 1(A) above.
2.

This Curtailment Order shall be effective beginning on April 18, 2015.

3.

In accordance with section 877 subdivision (d), water rights holders or agents of record who receive
this Order are responsible for immediately providing notice of this Order to all diverters exercising
a water right on Deer Creek. Stanford Vina Ranch
Irrigation Company and Deer Creek Irrigation
District are responsible for immediately providing
notice of this curtailment order to all water rights
holders to which they provide water under the curtailed water rights.

4.

All water users or water right holders receiving
this Order are required, within five (5) days of issuance of this Order, to submit under penalty of
perjury a certification in accordance with section
879.

5.

In accordance with section 879.2, diversion or use
in violation of this Curtailment Order constitutes
an unauthorized diversion or use. Violations of
this Order shall be subject to further enforcement
and any applicable penalties pursuant to Water
Code sections 1052, 1831, 1845, and 1846. To the
extent of any conflict between the requirements of
this Curtailment Order and any other applicable

App. 180
Orders, notices of curtailment or conditions of approval, the diverter must comply with the requirements that are most stringent.
*

*

*

STATE WATER RESOURCES CONTROL BOARD
/s/ Barbara Evoy
Barbara Evoy, Deputy Director
Division of Water Rights
Dated:

April 17, 2015

App. 181
ATTACHMENT A
ORDER WR 2015-0019-DWR
DEER CREEK WATER RIGHTS
eWRIMS Application Search Results: 2/20/2015
Riparian Rights and Federal Filings
Application ID
F003439S
F003440S
S001308
S001309
S001310
S001311
S001312
S001313
S001314
S007869
S010775
S012359
S012360
S012361
S012374
S012375
S012376
S012377
S012396
S013587
S013594
S013595
S013596
S013597
S013598
S013599
S013600
S013601
S013602
S013603

License ID

pre-1914

Status

Primary Owner

Face Value

Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed

U S LASSEN NATL FOREST
U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
JOSEPH A BENATAR
Grant Leininger
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION

0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0

2010-2014
Average Reported
Demand (acre-ft)
NR
NR
0.03
0
0
0
0
0.68
0
60
56
0
0
0
0
0
0
0
0
0.00
0
0.6905
0.0460
0.0460
0.0000
0.0767
0
0
0
0

Season

Year of First
Use

Beneficial
Use

1900
1900
1900
1900
1900
1900
1900
1893
1893
1945
1945
1945
1945
1945
1945
1945
1945
1900
1900
1905
1900
1900
1900
1900
1900
1900
1900
1900

D,FP,R
D,FP,R
DA
DA
DA
DA
DA
DA
DA
I,D,O
I,S
FP
FP
FP
FP
FP
FP
FP
FP
FP
FP
DA
FP
DA
DA
FP
DA
FP
DA
DA

year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
April-Nov
April-Nov
year-round
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov

Acres
Irrigated

40
192

App. 182
S016163
S016808
S018670
S019663
S023166

Claimed
Claimed
Claimed
Claimed
Claimed

U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
Rumiano Farms
SIERRA PACIFIC INDUSTRIES
Rumiano Farms

4,300
0.95
0
0,92
0

4044
0
NR
0
NR

year-round

1905

RAH
DA
D
FP
O

Season

Year of First
Use

Beneficial
Use

04/01-10/31
04/01-10/31
year-round

1900
1900
1923

I,S
I,S
I,S

5700
5700
1900

Season

Filing Date

Beneficial
Use

Acres
Irrigated

05/01-10/01
06/61-10/15
year-round
year-round
04/01-12/31
year-round
year-round
04/01-12/31
year-round
11/01-5/01
year-round

8/5/1918
10/11/1935
9/19/1947
6/29/1954
1/31/1955
1/31/1955
2/15/1955
1/19/1959
6/6/1961
8/8/1985
1/5/1988

I,S
R
D,P
P
D
D
D
D
D
S
S

5700

Adjudicated pre-1914 Appropriative Rights
Application ID

License ID

S000729
S000730
S000731

Status

Primary Owner

Face Value

Claimed
Claimed
Claimed

STANFORD VINA RANCH IRRIGATION CO
STANFORD VINA RANCH IRRIGATION CO
DEER CREEK IRRIGATION DISTRICT

0
0
0

2010-2014
Average Reported
Demand (acre-ft)
16779
900
11201

Acres
Irrigated

Post-1914 Appropriative Rights
Application ID

License ID

Status

Primary Owner

Face Value

A001041
A008469
A012096
A015933
A016224
A016223
A016238
A018477
A020250
C003886
C005299

485
2385
4976
5462
6088
5702
7247
7356
9007
3886
5299

Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Certified
Certified

STANFORD VINA RANCH IRRIGATION CO
U S LASSEN NATL FOREST
KEN C WILLIS
DEER CREEK LODGE INC
JOSEPH JAMES TREMARI
THOMAS T DENNEY
WALTER ALBERT
DOROTHY ANNE TREMARI
DEER CREEK LODGE INC
EDWIN L GAULT
RICHARD D SUMMERS

4,582
1
2,172
2,896
0.8
0.1
2.6
1.7
9
0
1.5

I= Irrigation

DA= Dust Abatement

S= Stockwatering

FP= Fire Protection

RAH= Riparian and Aquatic Habitat
D= Domestic
O= Other

R= Recreational
P= Power

2010-2014
Average Reported
Demand (acre-ft)
17066*
0.55
NR
48
2.41
0.1
1.96
2.41
0.29
NR
NR

App. 183
APPENDIX M
STATE OF CALIFORNIA
CALIFORNIA ENVIRONMENTAL
PROTECTION AGENCY
STATE WATER RESOURCES CONTROL BOARD
DIVISION OF WATER RIGHTS
ORDER WR 2015-0036-DWR
CURTAILMENT ORDER
In the Matter of Diversion of Water from
DEER CREEK TRIBUTARY TO THE
SACRAMENTO RIVER
IN
TEHAMA COUNTY
*
5.

*

*

On March 17, 2015, the State Water Board
adopted an emergency regulation for Curtailment
of Diversions due to Insufficient Flow for Specific
Fisheries for Mill, Deer, and Antelope Creeks (California Code of Regulations, title 23, sections 877
through 879.21) (Regulation). The Office of Administrative Law reviewed and approved the Regulation on March 30, 2015. The Regulation is effective
March 30, 2015 to December 29, 2015. The Regulation establishes drought emergency minimum
flow requirements for the protection of specific
1

All further section references are to California Code of
Regulations, title 23, unless otherwise indicated.

App. 184
runs of federal-and state-listed anadromous fish
in Mill Creek, Deer Creek, and Antelope Creek.
The Regulation provides that diversions from Mill
Creek, Deer Creek, and Antelope Creek are unreasonable if those diversions will cause flows to drop
below specified minimum flows. Under the Regulation, diversions will be curtailed as appropriate
to maintain those minimum flows, with the exception of diversions necessary for minimum health
and safety needs. The diversion or use of water in
violation of the Regulation is an unreasonable diversion or use and a violation of Water Code section 100.
6.

Pursuant to section 877, the State Water Board
has determined that it is a waste and unreasonable use under Article X, section 2 of the California
Constitution to continue diversions that would
cause or threaten to cause flows to fall beneath the
drought emergency minimum flows provided in
subdivision (c) of section 877, except as provided
for minimum health and safety needs in accordance with section 878.1.
*

*

*

11. On October 9, 2015, the CDFW submitted a memorandum to the Deputy Director confirming the
presence of adult CCV steelhead in the Upper
Sacramento River Basin, and the presence of juvenile CV SR salmon and juvenile CCV steelhead
in Deer and Antelope Creeks. The memorandum
also confirms that current agricultural diversions
on Deer and Antelope Creeks have resulted in
dewatering of stream sections in the lower
reaches of these creeks between the confluence
with the Sacramento River and diversion dams.

App. 185
The conditions created by reduced flows from diversions in Deer Creek prohibit adult CCV steelhead currently migrating in the Sacramento
River from entering Deer Creek and gaining access to spawning habitat upstream of diversion
dams. Juvenile CV SR salmon and juvenile CCV
steelhead are prevented from reaching the Sacramento River. The memorandum notes that historical data and trapping data show that steelhead
migration begins in July and peaks in late September and early October. Pursuant to section 877,
subdivision (a), for the protection of threatened
and endangered fish and due to the ongoing
drought and environmental conditions, the CDFW
and NMFS request that the State Water Board
curtail Deer Creek diversions no later than 8:00
AM on October 23, 2015.
*

*

*

16. On November 27, 1923 the Superior Court of
Tehama County entered a judgment (Adjudication) granting 100 percent of the flow in Deer
Creek (as measured at United States Geological
Survey [USGS] gauge 11383500) to the predecessors in interest of the Stanford Vina Ranch Irrigation Company (approximately 65 percent) and
Deer Creek Irrigation District (approximately 35
percent). The Adjudication designated that the
average amount of water naturally flowing in Deer
Creek, during the irrigation season, as 150 second
feet or 6,000 miner’s inches and allocated 100 percent of that flow as previously provided. At times
when the natural flow in Deer Creek is less than,
or more than, 150 second feet or 6,000 miner’s
inches, then the Adjudication diminishes, or

App. 186
augments the flow allocations proportionally.
(Adjudication, Articles XI and XIII, pp. 10, 11.)
Stanford Vina Ranch Irrigation Company’s points
of diversion are downstream of the point of diversion for Deer Creek Irrigation District. (Adjudication, Articles XI and XIII, pp. 10, 11.) The
Adjudication was amended in 1926 to grant approximately 66 percent of the Deer Creek flows
below USGS gauge 11383500 to Stanford Vina
Ranch Irrigation Company, 33 percent of the Deer
Creek flows to Deer Creek Irrigation District and
one percent of the Deer Creek flows to Sheep
Camp Ditch for stock watering.
*

*

*

FINDINGS
1.

Section 877, subdivision (c)(2) of title 23 of the California Code of Regulations establishes drought
emergency minimum flows for Deer Creek under
certain conditions.

2.

The conditions under which the drought emergency minimum flows identified in section 877,
subdivision (c) apply are now in effect and threatened species, such as adult and juvenile CCV
steelhead and juvenile CV SR salmon, are present
at this time.

3.

The Deputy Director has determined that without
curtailment of diversions from Deer Creek the
flows in Deer Creek have been, and are likely to
continue to be, reduced below the drought emergency minimum flows specified in section 877 subdivision (c)(2).

App. 187
IT IS HEREBY ORDERED
1.

All water rights holders in the Deer Creek watershed, including but not limited to those identified
in Attachment A, are subject to curtailment pursuant to California Code of Regulations, title 23,
sections 877 through 879.2 and shall immediately
cease or reduce their diversions from Deer Creek
to ensure the drought emergency minimum flows
specified in section 877, subdivision (c)(2) are satisfied no later than 8:00 AM on October 23, 2015
through March 31, 2016 or until the Deputy Director suspends the Curtailment Order under section
877, subdivision (c)(2)(E), as follows:
(A) All post-1914 appropriative rights holders are
curtailed under this Order except as provided
in sections 878 (non-consumptive uses), 878.1
(minimum health and safety needs), and
878.2 (local cooperative solutions).
(B) All diverters on Deer Creek shall bypass 50
cfs or full natural flow without diversion,
whichever is less, in order to obtain/maintain
base flows for adult CCV steelhead salmon
migration. Flows in excess of the 50 cfs base
flow can be taken in accordance with priority
and basis of right, except for those post-1914
appropriative right holders referenced in paragraph 1(A), above. The base flows for adult
CCV steelhead migration shall be satisfied
through March 31, 2016 unless the Deputy
Director suspends the Curtailment Order or
the Deputy Director receives notification from
the CDFW or NMFS that adult CCV steelhead migration has ended.

App. 188
*

*

*

2.

This Order shall be effective beginning on October
23, 2015 at 8:00 AM.

3.

In accordance with section 877 subdivision (d), water rights holders or agents of record who receive
this Order are responsible for immediately providing notice of this Order to all diverters exercising
a water right on Deer Creek. Stanford Vina Ranch
Irrigation Company and Deer Creek Irrigation
District are responsible for immediately providing
notice of this Order to all water rights holders to
which they provide water under the curtailed water rights.

4.

All water users or water right holders receiving
this Order are required, within five days of issuance of this Order, to submit under penalty of perjury a certification in accordance with section 879.

5.

In accordance with section 879.2, diversion or use
in violation of this Order constitutes an unauthorized diversion or use. Violations of this Order shall
be subject to further enforcement and any applicable penalties pursuant to Water Code sections
1052, 1831, 1845 and 1846, To the extent of any
conflict between the requirements of this Order
and any other applicable orders, notices of curtailment or conditions of approval, the diverter must
comply with the requirements that are most stringent
*

*

*

App. 189
STATE WATER RESOURCES CONTROL BOARD
/s/ Barbara Evoy
Barbara Evoy, Deputy Director
Division of Water Rights
Dated:

October 22, 2015

App. 190
ATTACHMENT A
ORDER WR 2015-0036-DWR
DEER CREEK WATER RIGHTS
eWRIMS Application Search Results: 2/20/2015
Riparian Rights and Federal Filings
Application ID
F003439S
F003440S
S001308
S001309
S001310
S001311
S001312
S001313
S001314
S007869
S010775
S012359
S012360
S012361
S012374
S012375
S012376
S012377
S012396
S013587
S013594
S013595
S013596
S013597
S013598
S013599
S013600
S013601
S013602
S013603

License ID

pre-1914

Status

Primary Owner

Face Value

Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed
Claimed

U S LASSEN NATL FOREST
U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
JOSEPH A BENATAR
Grant Leininger
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
DIAMOND LANDS CORPORATION
SIERRA PACIFIC INDUSTRIES
DIAMOND LANDS CORPORATION

0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0

2010-2014
Average Reported
Demand (acre-ft)
NR
NR
0.03
0
0
0
0
0.68
0
60
56
0
0
0
0
0
0
0
0
0.00
0
0.6905
0.0460
0.0460
0.0000
0.0767
0
0
0
0

Season

Year of First
Use

Beneficial
Use

1900
1900
1900
1900
1900
1900
1900
1893
1893
1945
1945
1945
1945
1945
1945
1945
1945
1900
1900
1905
1900
1900
1900
1900
1900
1900
1900
1900

D,FP,R
D,FP,R
DA
DA
DA
DA
DA
DA
DA
I,D,O
I,S
FP
FP
FP
FP
FP
FP
FP
FP
FP
FP
DA
FP
DA
DA
FP
DA
FP
DA
DA

year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
year-round
April-Nov
April-Nov
year-round
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov
April-Nov

Acres
Irrigated

40
192

App. 191
S016163
S016808
S018670
S019663
S023166

Claimed
Claimed
Claimed
Claimed
Claimed

U S LASSEN NATL FOREST
SIERRA PACIFIC INDUSTRIES
Rumiano Farms
SIERRA PACIFIC INDUSTRIES
Rumiano Farms

4,300
0.95
0
0,92
0

4044
0
NR
0
NR

year-round

1905

RAH
DA
D
FP
O

Season

Year of First
Use

Beneficial
Use

04/01-10/31
04/01-10/31
year-round

1900
1900
1923

I,S
I,S
I,S

5700
5700
1900

Season

Filing Date

Beneficial
Use

Acres
Irrigated

05/01-10/01
06/61-10/15
year-round
year-round
04/01-12/31
year-round
year-round
04/01-12/31
year-round
11/01-5/01
year-round

8/5/1918
10/11/1935
9/19/1947
6/29/1954
1/31/1955
1/31/1955
2/15/1955
1/19/1959
6/6/1961
8/8/1985
1/5/1988

I,S
R
D,P
P
D
D
D
D
D
S
S

5700

Adjudicated pre-1914 Appropriative Rights
Application ID

License ID

S000729
S000730
S000731

Status

Primary Owner

Face Value

Claimed
Claimed
Claimed

STANFORD VINA RANCH IRRIGATION CO
STANFORD VINA RANCH IRRIGATION CO
DEER CREEK IRRIGATION DISTRICT

0
0
0

2010-2014
Average Reported
Demand (acre-ft)
16779
900
11201

Acres
Irrigated

Post-1914 Appropriative Rights
Application ID

License ID

Status

Primary Owner

Face Value

A001041
A008469
A012096
A015933
A016224
A016223
A016238
A018477
A020250
C003886
C005299

485
2385
4976
5462
6088
5702
7247
7356
9007
3886
5299

Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Licensed
Certified
Certified

STANFORD VINA RANCH IRRIGATION CO
U S LASSEN NATL FOREST
KEN C WILLIS
DEER CREEK LODGE INC
JOSEPH JAMES TREMARI
THOMAS T DENNEY
WALTER ALBERT
DOROTHY ANNE TREMARI
DEER CREEK LODGE INC
EDWIN L GAULT
RICHARD D SUMMERS

4,582
1
2,172
2,896
0.8
0.1
2.6
1.7
9
0
1.5

I= Irrigation

DA= Dust Abatement

S= Stockwatering

FP= Fire Protection

RAH= Riparian and Aquatic Habitat
D= Domestic
O= Other

R= Recreational
P= Power

2010-2014
Average Reported
Demand (acre-ft)
17066*
0.55
NR
48
2.41
0.1
1.96
2.41
0.29
NR
NR

App. 192
APPENDIX N
Court Reporter Transcript of
SWRCB Workshop, May 20, 2014
Administrative Record Bates Nos. 008249, 8253,
8255, Transcript pages 11:16-12:6, 26:24-28:17,
33:5-14 [Emphasis Added]
*

*

*

[Dan Shultz, SWRCB Manager for Public Trust Section of Division of Water Rights]
Currently, for the State Water Board to take an enforcement action in absence of the regulation, curtailment would be based solely upon protecting senior
water rights. Illegal diversion may be investigated and
charged separately and water right holders may request a full evidentiary hearing on issues that include
availability of water under the water right holder’s priority, and the administrative decision is then subject to
review in the Superior Court system. As such, enforcement in the absence of a regulation is cumbersome in
that it is less likely to be effective in time to protect
anadromous salmonids. In the current situation, time
is of the essence. The curtailment in the absence of the
regulation would also not address minimum flows
needed for protection of the threatened anadromous
salmonids.
*

*

*

App. 193
MR. O’LAUGHLIN: Well, no. This is Tim O’Laughlin,
representing Deer Creek Irrigation District. So I’m going to be standing up periodically during this presentation, and probably others, and making certain
comments and statements and then sitting down because we’re going to make a record.
So, my first comment or statement is since this is
a quasi-adjudicatory process, my client’s water rights
are at risk. And since you are doing a waste and unreasonable use determination on their water rights, according to due process we would like to cross-examine
this witness before we move to the other witnesses.
[SWRCB] MEMBER DUDOC: I would like to hear
from counsel. I don’t believe this is a quasi-adjudicatory process.
[SWRCB] VICE CHAIR SPIVY-WEBER: I don’t think
it is either.
[SWRCB Counsel] MR. LAUFFER: Michael Lauffer,
Chief Counsel to the board. I’m not Jonathan Bishop,
chief deputy.
The process Mr. O’Laughlin is referring to is of
course the board’s customary process where we have
conducted adjudicative proceedings in order to establish and allocate flow requirements in an entity or person’s water rights.

App. 194
However, it is not unprecedented for the board to
use waste and unreasonable use authority through a
quasi-legislative proceeding and we have made the determination here that it is appropriate, given the circumstances outlined in the resolution that’s been
prepared for the board for today, to use a quasi-legislative process. As part of that quasi-legislative process,
there is not an opportunity for cross-examination. Certainly, as Mr. O’Laughlin and others go through and
they have questions, either for staff or for the board
that they would like the board to have staff respond to,
that would be helpful in identifying the issues. And certainly I think for the board members in terms of making their determinations, they would like to hear a lot
of those questions answered.
This is an exigent circumstance where, in order to
provide a timely and appropriate mechanism, the
board is – or board staff is proposing that the board
proceed through this quasi-legislative process.
*

*

*

[SWRCB Counsel] MR. LAUFFER: Certainly. And I
understand that Mr. O’Laughlin is making his record
and his clients have a significant interest that he’s interested in preserving for them. And obviously this
isn’t a quasi – Mr. O’Laughlin’s arguments notwithstanding, this is not a quasi-judicial proceeding. We’re
styling this as a quasi-legislative proceeding. That

App. 195
means that the board has considerable flexibility in
terms of how it structures this.
*

*

*

App. 196
APPENDIX O
Administrative Record Bates
Nos. 007815-007816 [Emphasis Added].
Propose Rulemaking Package for May 20, 2014
SWRCB Board Meeting
*

*

*

Description and Effect of Proposed Regulation
The proposed emergency adoption of Article 24 will set
drought emergency minimum flows necessary to maintain fish passage in three priority tributaries for protection of threatened CVSRCS and CCV Steelhead.
Under the proposed regulations, the State Water
Board would curtail diverters in these watersheds in
the order of priority as necessary to maintain a reasonable assurance of meeting the minimally protective
flows, and the needs of senior users. The requirement
to curtail when water above drought emergency minimum flows is unavailable would constitute both a regulatory requirement and a condition of all permits and
licenses in the affected watersheds. The proposed regulation also establishes procedures for important exceptions to priority-based curtailments in order to protect
public health and safety.
Proposed Emergency Regulation Section 877
Proposed Section 877 would establish drought emergency minimum flow levels in Deer Creek, Mill Creek
and Antelope Creek to allow for migratory passage of
adult and juvenile CV SRCS and CCV Steelhead. The

App. 197
description and rationale for the flows is detailed below.
The State Water Board recognizes that the
drought emergency minimum flows described below do
not represent optimal passage conditions for Chinook
salmon and steelhead under these drought conditions
and these minimum passage flows will result in stressful passage conditions for salmonids. The State Water
Board has identified the need for these drought emergency minimum flows during this drought period due
to the lack of developed alternative water supplies to
meet the emergency water supply conditions that exist
during this drought period. All water users should take
measures this year and in future years to develop alternative water supplies, since it is likely more protective
and appropriate minimum flows for similar future
drought conditions will be established in the future.
*

*

*

App. 198
APPENDIX P
Court Reporter Transcript of
SWRCB Workshop, May 20, 2014
Administrative Record Bates No. 008285-8286,
Reporter Transcript pages 156:25 – 157:11 [Emphasis Added]
[SWRCB] MEMBER D’ADAMO: Okay. So the way I
view this – and I’m surprised that nobody brought this
up today – I really think that this waste and unreasonable uses is sort of a back door to reconfiguring the priority of water rights because in effect, if you look at the
curtailment charts that we keep seeing, the supply and
demand curve, the most senior would be fish flows.
They’d be more senior than riparian would just be, you
know, fish flows, riparian, 1914, et cetera. So, it would
be another layer that would go on top of the existing
curtailment charts that you would otherwise have for
those watersheds.
*

*

*

App. 199
APPENDIX Q
Administrative Record Bates
No. 008082-008083 [Emphasis Added]
NOTICE OF PROPOSED EMERGENCY RULEMAKING Curtailment of Diversions due to
Insufficient Flow for Specific Fisheries Addition
of Article 24, Sections 877 through 879.2,
to Division 3 of Title 23 of the
California Code of Regulations
*

*

*

On May 20, 2014, the State Water Board will consider
a proposed resolution adding new article 24 to title 23,
division 3, chapter 2 of the California Code of Regulations. In general, the emergency regulations would
provide the State Water Board with a more streamlined process to curtail diversions of water to prevent
unreasonable diversion or use of water such that appropriate minimum amounts of water are available for:
(1) public trust needs for minimum flows for migration
of state- and federally-listed anadromous fish in Mill
Creek, Deer Creek and Antelope Creek, (2) senior water rights, and (3) minimum health and safety needs.
Under the emergency regulations, the State Water
Board would curtail water diversions on a water right
priority basis except when water is needed for basic
municipal and domestic health and safety needs, or
other critical health and safety needs as determined on
a case-by-case basis . . .

App. 200
APPENDIX R
July 21, 2017, Hon. Timothy Frawley, Judge of the
Superior Court of California, County of Sacramento.
Stanford Vina Ranch Irrigation Company v. State of
California, et al.
Reporters Transcript page 47:15-20
*

*

*

THE COURT: This case does manage to exploit in a
way that, I think, is somewhat unique in my experience, the difference between quasi legislative and
quasi adjudicative. I think I’ve heard enough argument on the point, and I hope you understand that the
Court has wrestled with it quite a bit, but I’ll hear your
next argument, Mr. Minasian.
*

*

*

App. 201
APPENDIX S
Administrative Record Bates No. 008052-008081
[Notices of Regulations]
NOTICE OF PROPOSED EMERGENCY RULEMAKING FOR CURTAILMENT OF DIVERSIONS
DUE TO INSUFFICIENT FLOWS FOR SPECIFIC
FISHERIES
[Twenty-Nine (29) total water right holders from Mill,
Deer, and Antelope Creeks who were notified and targeted by the regulations]
*

*

CANDACE OWENS
13815 TRINITY AVE
RED BLUFF, CA 96080
*

*

*

*
CALIF DEPT OF
TRANSPORTATION
C/O CONTRACT
MANAGER
1490 GEORGE DR
REDDING, CA 96003
*

CRANE MILLS
PO BOX 318
CORNING, CA 96021
*

*

*

*

*

DEER CREEK LODGE
INC
C/O NORMAN
BATEMAN
ROUTE 5, BOX 4000
MILL CREEK, CA 96061
*

*

*

App. 202
DIAMOND LANDS
CORPORATION
PO BOX 496014
REDDING, CA 96049
*

*

*

LOS MOLINOS
MUTUAL WATER CO
PO BOX 211
LOS MOLINOS, CA
96055
*

MILL CREEK/LASSEN
MUTUAL WATER
COMPANY
C/O TERRY NEHER
40286 TAMARACK WAY
MILL CREEK, CA 96061
*

*

*

*

RUMIANO FARMS
5485 HWY 99E
VINA, CA 96092
*

*

*

*

STANFORD VINA RANCH THE NATURE
IRRIGATION CO
CONSERVANCY
11010 FOOTHILL BLVD
PO BOX 248
VINA, CA 96092
LOS MOLINOS, CA
96055
*
*
*
*
*
*
U S LASSEN NATL
FOREST
2550 RIVERSIDE DR
SUSANVILLE, CA 96130
*

*

*

UPPER SWANSTON
RANCH INC
C/O WAGNER AND
BONSIGNORE, CCE
2151 RIVER PLAZA DR.
STE 100
SACRAMENTO, CA
95833
*

*

*

App. 203
KEN WILLIS
C/O FIRE MOUNTAIN
LODGE
PO BOX 1128
CHESTER, CA 96020
*

*

THOMAS DENNEY
44305 STATE HIGHWAY
36 E # 36
MILL CREEK, CA 96061
*

*

*

*

JOSEPH TREMARI
5775 BLOOMFIELD RD
PETALUMA, CA 94952
*
*
*

WALTER ALBERT
PO BOX 305
CHESTER, CA 96020

DOROTHY TREMARI
5775 BLOOMFIELD RD
PETALUMA, CA 94952

EDWIN GAULT
PO BOX 36
LOS MOLINOS, CA
96055

*

*

*

*

*
RICHARD SUMMERS
PO BOX 145
VINA, CA 96092
*

*

*

GRANT LEININGER
PO BOX 82
VINA, CA 96092
*

*

*

DAN MULHOLLAND
12005 FOOTHILL RD
RED BLUFF, CA 96080
*

*

*

*

*

*

*

JOSEPH BENATAR
1445 HONOR OAK LN
YUBA CITY, CA 95993
*

*

*

DOUGLAS REED
12005 FOOTHILL RD
RED BLUFF, CA 96080
*

*

*

JEROME OLIVER
25179 68TH AVE
LOS MOLINOS, CA
96055
*

*

*

App. 204
JOHN REIS
ROBERT MELEEN
2140 SHARON RD
84 BOSTON AVE
MENLO PARK, CA 94025 SAN JOSE, CA 95128
*

*

*

RICHARD O’SULLIVAN
17750 TRAMWAY RD
PAYNES CREEK, CA
96075
*

*

*

*

*

W EDWARDS
13038 HWY 99E
RED BLUFF, CA 96080
*

*

*

*

CANDACE OWENS
13815 TRINITY AVE
RED BLUFF, CA 96080
*

*

*

PETER SEWARD
2485 NOTRE DAME
BLVD STE 370-F
CHICO, CA 95928
*

*

*

App. 205
APPENDIX T
Administrative Record Bates
Nos. 002843-002859 [Emphasis Added]
MEMORANDUM OF AGREEMENT BETWEEN
THE STATE OF CALIFORNIA DEPARTMENT
OF FISH & GAME, DEPARTMENT OF
WATER RESOURCES, AND DEER CREEK
IRRIGATION DISTRICT FOR
CONSTRUCTION, OPERATION,
MAINTENANCE AND MONITORING
OF A FLOW ENHANCEMENT PROGRAM
ON DEER CREEK IN TEHAMA COUNTY
This Memorandum of Agreement (“Agreement”),
made this ___ day of ___ 2007, is between the Department of Fish and Game (DFG) and the Department of
Water Resources (DWR) (collectively “the State”), and
the Deer Creek Irrigation District (DCID).
RECITALS
The State and DCID (collectively “the Parties”)
recognize the need for a long-term solution to fish
transportation issues in Deer Creek. In furtherance of
that mutual goal, the proposed Deer Creek Flow Enhancement Program (“Program”) is intended to augment fish transportation flows in Deer Creek . . .
*

*

*

A. Under the proposed Program, Program Wells (as
defined in § I.1) will be installed and operated to provide DCID with a supplemental agricultural water

App. 206
supply in an amount equal to the quantity of surface
water diversions which DCID may forego in order to
provide fish transportation flows.
B. This Agreement may be amended to include additional water supplies from efficiency improvements to
DCID’s distribution system or new water management
techniques if it can be demonstrated that such improvements or techniques will allow DCID to forego
additional surface water diversions in order to provide
increased fish transportation flows under the proposed
Program . . .
*

*

*

E. In accordance with the initial cost planning and
permitting estimates (set out in Appendix A, attached),
the proposed Program will operate from April 1
through June 30 and October 15 through November 15
when the Deer Creek flow, as measured below the Stanford Vina Diversion Dam, is equal to or less than 50 cfs,
or upon mutual consent of DCID, DFG, and DWR. Program operations carried out pursuant to this Agreement will change from Year-to year, but will be within
the projected range of initial planning and permitting
estimates. Program operations will be implemented in
flow capacity intervals which are practical for monitoring and approximately equal to the increased capacity
associated with individual Program Well capacity
and/or capacity intervals associated with water savings due to application of AgWUE measures. As such,
Base Flow contribution by DCID may result in Deer

App. 207
Creek flow greater than 50 cfs, as measured below the
Stanford Vina Diversion Dam . . .
*
1.0

*

DWR, as administrator of this Agreement,
will pay all reasonable costs associated with
the construction and operation, and maintenance Program wells in accordance with
both the budget as set forth in Appendix A
and the terms set forth in Section 9.0 no
payment . . .
*

1.3

*

*

*

DWR, with DFG concurrent, will pay to obtain access easements for installation and
operation of Program Wells and related facilities, including any necessary leases of
wells.
*

*

*

App. 208
APPENDIX U
Administrative Record Bates Nos. 000900000901
1993 Central Valley Action Plan, California Department of Fish and Wildlife [Emphasis
Added]
*

*

*

Except for the lack of stream flows on the valley
floor below the agricultural diversions, fish habitat
throughout the drainage is generally of good quality.
Water right holders on Deer Creek have recently expressed interest in cooperating with the DFG to develop alternative water sources and to provide fishery
flows. Water users are concerned about the depleted
status of the spring-run chinook salmon and are willing to work towards mutually acceptable solutions to
restore the fishery. Flows necessary to provide unimpaired migration for adult salmon and steelhead are
unknown but have been estimated to be approximately
50 cfs. Inadequate flow for upstream passage is the
most significant problem on Deer Creek. During low
flow periods, the fish ladder on the lower diversion dam
does not pass fish. The water right permit for this diversion does not require adequate bypass flows to provide for fish passage.
*

*

*

App. 209
APPENDIX V
Administrative Record Bates
Nos. 002700-002720 [Emphasis Added]
Agreement for the Implementation of
a Long-Term Cooperative Management
Plan for Mill Creek [2007]
This Agreement (“Agreement”) is made and entered this ___ day of ______, 2007, by and between Los
Molinos Mutual Water Company (“Los Molinos’), Department of Water Resources (DWR’), Department of
Fish and Game (‘DFG’), and Mill Creek Conservancy(“
Conservancy’),collectively referred to as the “Parties”
and individually referred to generally as “Party.”
I.

BACKGROUND

A. The Parties desire to form a managing body
(“Management Committee”) for the implementation of
a long-term cooperative management plan for Mill
Creek, a tributary of the Sacramento River in Tehama
County, in a joint effort to provide Spring Flows (May
1 through June 15) and Fall Flows (October 15 through
November 30) for the spring and fall run Chinook
salmon (Oncorhynchus tshawystcha) (collectively
“Chinook Flows”) while maintaining and not adversely
affecting the use of the water of Mill Creek to supply
irrigation water pursuant to the water rights of the water users on Mill Creek (“Irrigation Water”).
B. Since 1990, the Parties have augmented the
Mill Creek flows through water leases, groundwater

App. 210
exchange programs, and operational changes to facilities on Mill Creek These efforts have proven beneficial
for the Chinook salmon, and the Parties desire to create a long-term management structure for the restoration efforts and ensure that those efforts continue into
the future.
*

*

*

App. 211
APPENDIX W
Administrative Record Bates
Nos. 003100-003102 [Emphasis Added]
CENTRAL VALLEY SALMON AND
STEELHEAD RECOVERY PLAN WATERSHED
PROFILES, OCTOBER 2009
*

*

*

Antelope Creek Watershed Profile
Watershed/Ecosystem Restoration
Relatively few restoration actions are needed to restore watershed and ecosystem function for the purpose of supporting the freshwater life history stages of
CV spring-run Chinook salmon and CV steelhead in
Antelope Creek. With the exception of Public Draft Recovery Plan . . .
*

*

*

Key Actions that would help support persistent dependent populations
• Restore instream flows during upstream and
downstream migration periods. Develop water exchange agreements provide alternative water supplies
to Edwards Ranch and Los Molinos Mutual Water
Company in exchange for instream fish flows
• Restore connectivity of the migration corridor
during upstream and downstream migration periods
*

*

*

App. 212
APPENDIX X
Administrative Record Bates Nos. 006872
MEMO: Minimum Protection Flows for Listed Salmonids during the 2014 California Drought for Mill,
Deer and Antelope creeks in the California Central
Valley
TO: California State Water Resources Control Board
FROM: Gretchen Umlauf, Fisheries Biologist, NOAA’s
National Marine Fisheries Service, Central Valley Office
THROUGH: Howard Brown, Sacramento River Basin
Branch Chief NOAA’s National Marine Fisheries Service, Central Valley Office
DATE: May 7, 2014
*

*

*

NMFS and CDFW have provide minimum flow recommendation to the SWRCB on Mill, Deer, and Antelope
Creeks, along with the supplemental references in an
email to your office on May 7, 2014. These flow recommendations were provided for developing emergency
regulations.
*

*

*

App. 213
APPENDIX Y
Administrative Record Bates No. 7808
Propose Rulemaking Package for May 20, 2014
SWRCB Board Meeting
*

*

*

Need for Emergency Protective Flows in Mill
Creek, Deer Creek and Antelope Creek
In this particular case, application of the reasonable use and public trust doctrines requires particularized consideration of the benefits of diverting water for
current uses from the identified water bodies and the
potential for harm to the protected species from such
diversions under the current drought conditions.
*

*

*

In a memorandum dated May 7, 2014, the National
Marine Fisheries Service (NMFS) recommended that
the State Water Board use regulatory authority to establish minimum instream flows in Mill, Deer, and Antelope Creeks to address drought impact on ESA-listed
fish species in these creeks (Attachment 11).
*

*

*

